Fiscal Year 2009 United States Army Annual Financial Statement
The NCO Corps: The Strength of America’s Army




                       2009                                      General Fund and Working Capital Fund




                                                                          a
                                                                                                      A Soldier verifies cable
                                                                                                      connections and safety
                                                                                                      wires are all secure on
                                                                                                      the Land-Based Phalanx
                                                                                                      Weapon     System     gun
                                                                                                      cradle at Fort Sill, OK.




                  Since 1775, the Army has set apart its NCOs from other enlisted Soldiers by
                                         distinctive insignia of grade.


                     With more than 200 years of service, the U.S. Army’s Noncommissioned Officer
                      (NCO) Corps has distinguished itself as the worlds most accomplished group
                       of military professionals. Historical and daily accounts of life as an NCO are
                  exemplified by acts of courage, and a dedication and a willingness to do whatever
                 it takes to complete the mission. NCOs have been celebrated for decorated service
                    in military events ranging from Valley Forge to Gettysburg, to charges on Omaha
                   Beach and battles along the Ho Chi Minh Trail, to current conflicts in Afghanistan
                                                          and Iraq.


                     In recognition of their commitment to service and willingness to make great
                       sacrifices on behalf of our nation, the Secretary of the Army established
                                              2009 as the Year of the NCO.




ON THE COVER: A Soldier demonstrates to an Iraqi child how to properly take a knee during Operation Warhorse Scimitar in west
                 Mosul. The child was running up and down this alley way giving high fives to Soldiers.

        *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
FY 2009 Contents
Message from the Secretary of the Army	              iii


Message from the Acting Assistant Secretary of the
Army (Financial Management and Comptroller)	          v


Management’s Discussion & Analysis	                   1


General Fund – Principal Financial Statements,
Notes, Supplementary Information and
Auditor’s Report	                                    27


Working Capital Fund – Principal Financial
Statements, Notes and Auditor’s Report	              93
                       Our NCO Corps is unrivaled by any Army
                            in the world, envied by our allies and
                         feared by our enemies. Throughout the
                     Army’s history, the NCO has been a pivotal
                       figure, but never more so than today with
                            our full spectrum of operations... the
                                        “backbone of our Army.”
                                              Kenneth O. Preston, Sergeant Major of the Army




ii Fiscal Year 2009 United States Army Annual Financial Statement
                                                          During this past year, the Army has continued to confront a myriad
                                                          of challenges while simultaneously transforming itself. This is all the
                                                          more remarkable given the Army’s engagement in fighting two wars
                                                          and its inherent impact on our force, its Soldiers and their Families.

                                                          While this era of persistent conflict requires continued flexibility
                                                          and adaptability, we remain focused on ensuring that we have full
                                                          spectrum readiness and retaining our ability to meet current and
                                                          future asymmetric threats. We are fully committed to providing a
                                                          quality of life for our Army Families equal to their extraordinary
                                                          service.

                                                          As the Army has made progress in restoring balance, we must also
                                                          set conditions for the future. Our Army’s future readiness will
                                                          require that we continue to modernize, adapt our institutions and
                                                          transform Soldier and leader development in order to sustain an
                                                          expeditionary and campaign-capable force. The Army’s continued
                                                          growth – and the necessary funding for it – remains vital.

                                                          Last year, the Army continued its strong commitment to Army
                                                          Families. Using appropriated resources, we have improved housing,
                                                          built child development centers and restructured the support system
                                                          for our returning Wounded Warriors. We must continue to provide
                                                          the financial resources that will guarantee our steadfast support of
                                                          Army Soldiers and the Families who stand with them.

We have made great progress in this past year – but more work lies ahead. Many of the challenges of the past will remain
before us in the future. With your support and partnership, we will continue to build an Army that will meet the threats,
challenges and opportunities of the 21st Century.




	                                                                              John McHugh
	                                                                              Secretary of the Army
                                                                                                                                    Messages




                                                                                                                                     iii
                   “We have magnificent Soldiers, leaders and
                    civilians. They are ordinary people who are
                    doing extraordinary things for our country.”
                                             General George Casey, Chief of Staff of the Army




iv Fiscal Year 2009 United States Army Annual Financial Statement
                                                           In fiscal year 2009 (FY 2009) the Army continued the
                                                           transformation of its warfighting forces, implementing the most
                                                           sweeping changes since the end of World War II. At the same time,
                                                           we have transformed and adapted Army financial management,
                                                           to ensure that we not only accomplish our assigned missions
                                                           in support of combatant commanders, but that we do so while
                                                           also serving as effective stewards of the resources that have been
                                                           entrusted to us.

                                                           A key component of this financial transformation has been the
                                                           integration of cost management into the Army’s decision-making
                                                           processes. By applying cost management principles and techniques,
                                                           our leaders and managers are gaining a better understanding of the
                                                           full cost of Army processes, products, and services, and thus are
                                                           becoming better equipped to manage business operations effectively
                                                           and efficiently.

                                                           To implement cost management throughout the Army, we are
                                                           taking action on three broad fronts. We are placing greater
                                                           emphasis on the use of cost-benefit analysis to support decision
                                                           making; implementing training and education programs to
                                                           ensure that our Soldiers and civilians have the requisite skills and
                                                           knowledge; and providing timely, accurate, and reliable data to
                                                           support cost management.

An essential element in the provision of data to support decision making is the fielding, beginning in FY 2009, of the General
Fund Enterprise Business System (GFEBS). GFEBS is much more than the Army’s new accounting system. It is an enterprise
resource planning system that integrates budget, real property, financial, cost, logistics and related non-financial performance
data to give leaders and managers the information they need to make cost-informed decisions in a timely manner. When
fully deployed, GFEBS will give 79,000 end users at 200 Army sites around the world access to real-time data to support their
analysis and decision making.

While much work remains to be done in the continuing transformation of Army financial management, we are confident that
our ongoing efforts will enable us to continue to accomplish our challenging missions while significantly improving our ability
to do so in the most cost-effective manner possible.




	                                                                               Mr. Robert M. Speer
	                                                                               Acting Assistant Secretary of the Army
	                                                                               Financial Management & Comptroller
                                                                                                                                   Messages




                                                                                                                                     v
                                                                       TM




                 Army NCOs trace their roots to the beginnings of American military history. They
                 helped Washington preserve the Continental Army at Valley Forge, stood with Winfield
                 Scott at Chippewa, and directed Zachary Taylor’s guns at Palo Alto. They carried the
                 Nation’s colors at Gettysburg and Vicksburg, fought yellow fever in Cuba with Walter
                 Reed, and led Pershing’s and Eisenhower’s legions into Germany. Whether helping
                 local populations build a village in Southeast Asia or teaching young Iraqi soldiers
                 to conduct operations, American NCOs are leading from the front and are some of
                 our nation’s best ambassadors. Over time, through various changes in tactics and
                 technology, Army NCOs have emerged as the Army’s small–unit leaders, trainers,
                 and guardians of standards.


vi Fiscal Year 2009 United States Army Annual Financial Statement
NCO TIMELINE


                                                         General Fund and Working Capital Fund
	 1775-1840	 | Revolutionary War & Early United States
	 1861-1885	 | Civil & Indian Wars
	 1902-1909	 | Early Twentieth Century
	 1930-1948	 | Post-WWI & the Interwar Years
	 1949-1959	 | World War II
	 1951-1970	 | Korean War & Pre-Vietnam Era
	 1970-2000	 | Vietnam, Post-Vietnam & Desert Storm
	2001-Present	 | September 11, 2001 to Present Day




                                                              vii
                   SCHOFIELD      BARRACKS,      Hawaii    -
                   Nearly 400 pairs of small boots line the
                   mint green wall of the Warrior Transition
                   Clinic on Schofield Barracks. Numerous
                   boots hold signatures of Soldiers who
                   have graduated from the clinic, leaving
                   behind their legacy.




viii Fiscal Year 2009 United States Army Annual Financial Statement
                                                                 Army leadership was unable to provide a predictable,
Overview                                                         sustainable tempo of deployments for the Army’s Soldiers
The last eight years have been years of radical transformation   and their families. Support systems designed for the
and unprecedented operational tempo during a time of war.        pre-September 11, 2001, peacetime Army were stretched
The Army of 2009 does not look like the Army of 2001.            and stressed by the demands of lengthy and repeated
Soldiers are trained, equipped, and led differently. They are    deployments with insufficient recovery time. Overall,
battle-hardened and combat-proven throughout the ranks.          readiness was being depleted as fast as it could be built. In
But many of the challenges of the past remain challenges for     2009, there was some relief on the demand for forces, and
the future.                                                      12-month deployments returned. Boots-on-the-ground in
                                                                 relation to dwell-time-at-home-station (BOG:Dwell) has
The Army is over halfway through its largest transformation      improved from an average of 1:0.08 in 2008 to 1:1.5 by the
since World War II and this effort is having an impact           end of Fiscal Year 2009 (FY 2009). The Army’s goal is to
on everything it does. The Army is changing, becoming            restore a 1:2 BOG:Dwell by FY 2011.
more versatile, expeditionary, agile, lethal, sustainable, and
interoperable. While executing this transformation, the          In FY 2009, the Army executed a plan to restore a balance
Army has added more than 74,000 Soldiers to the active and       that was founded on four imperatives: Sustain its Soldiers,


                                                                                                                                 General Fund and Working Capital Fund
reserve forces and has begun implementation of the Secretary     families, and civilians; 2) continue to prepare forces for
of Defense’s temporary end strength increase authorization       success in the current conflict; 3) reset returning units to
of up to 22,000 Active Component (AC) Soldiers. The              rebuild the readiness consumed in operations and to prepare
Army is also in the midst of a mass repositioning of forces      for future deployments and contingencies; and 4) transform
worldwide. Plans for resetting equipment and units to full       to meet the demands of the 21st century. At the time, the
capacity through Army force generation are in full swing.        Army acknowledged that implementing these imperatives
                                                                 would require several years, considerable resources, and
Last year, it was reported that the Army, while a committed,     sustained national commitment. Efforts to restore balance
resilient and combat-seasoned force, was out of balance.
The demand for the Army’s forces exceeded the sustainable
supply, and it had gone to 15-month deployments.
Consumed with meeting the requirements of the current
fight, the Army lacked sufficient strategic flexibility and
operational depth to respond to other contingencies. The                    Soldiers   laying   concertina   wire   to
                                                                            improve    Forward     Operating    Base
                                                                            Baylough security. Deh Chopan district,
                                                                                                                                         1
                                                                            Zabul Province.
Figure 1. Headquarters, Department of the Army (HQDA)


                                                                                                          Admin.
                                                                                                        Assistant to     General       Inspector          Auditor
                                                                                                       the Secretary     Counsel        General           General
                                                                                                        of the Army




                                                                                                                                           Deputy Under Secretary
                                                                                                                                                of the Army
                                                                                                               Secretary
                                 ASA                                                                          of the Army
    ASA                                           ASA            ASA                                                                       Deputy Under Secretary
                               Financial                                      Chief
Acquisitions,      ASA                        Installations   Manpower                     Director,                                            of the Army for
                              Management                                   Information
 Logistics &    Civil Works                         &         & Reserve                   Army Staff                                       Business Transformation
                                   &                                       Officer/G-6
Technology                                    Environment       Affairs
                              Comptroller
                                                                                                           Under Secretary
                                                                                                             of the Army                   Chief, Legislative Liaison



                                                                                                                                           Small and Disadvantaged
                                                                                                                                           Business Utilization Office



                                  DCS
                                                                                                             Chief of Staff,                 The Surgeon General
    DCS
                              Programming,
                                                  ACS           DCS            DCS
                                                                                            DCS                  Army
                 Chief of        Materiel                                                 Operations
  Logistics                                    Installation   Personnel    Intelligence
                Engineers     Integration &                                                & Plans
    G-4                                       Management         G-1           G-2
                              Management                                                   G-3/5/7                                              Chief, National
                                   G-8
                                                                                                         Vice Chief of Staff,                   Guard Bureau

                                                                                                               Army
                                                                                                                                             Chief, Army Reserve



                                                       Defined responsibilities to ASAs
                                                       Oversight
                                                                                                        Sergeant Major          Chief of            Judge Advocate
                                              ACS      Assistant Chief of Staff                          of the Army           Chaplains               General
                                              ASA      Assistant Secretary of the Army
                                              DCS      Deputy Chief of Staff




are continuing, and, by FY 2011, the Army expects to                                  The Army is committed to remaining the world’s preeminent
establish acceptable balance between deployments and time                             land power—relevant and ready at all times to serve the
spent at home; achieve substantial progress in modular                                nation and to support our allies. The Army will continue
transformation and rebalancing initiatives; complete base                             to supply U.S. combatant commanders with the forces
realignment and closure and associated restationing; and                              necessary to defeat any adversary, in any situation, at
fully implement its force-generation model, all while                                 any time. The Army, therefore, must fully train and
sustaining the all-volunteer force and setting conditions for                         appropriately organize its forces; develop innovative and
the future.                                                                           adaptive leaders; and design support structures that are
                                                                                      appropriate for the new global security environment.
Mission and Organization of the
Army                                                                                  The Army is a large and complex organization, with more
                                                                                      than 553,000 active duty Soldiers and approximately
The Army’s mission is to support the National Military
                                                                                      255,000 AC and Reserve Component (RC) Soldiers
Strategy by providing well-trained, well-led, and well-
                                                                                      deployed or forward-stationed in nearly 80 countries. They
equipped forces to the combatant commanders. This
                                                                                      are supported by nearly 273,000 Army civilians, who are
mission has remained constant throughout the 234-year
                                                                                      critical members of the institution at every level.
life of the Army; however, the environment and nature of
conflict have changed dramatically over that same time,
                                                                                      The Army is organized with the primary objective to support
especially in the context of today’s overseas contingency
                                                                                      and sustain the mobilization, training, and deployment
operations (OCO). New adversaries, and the growth in
                                                                                      of its Soldiers anywhere in the world. The Headquarters,
asymmetric warfare, have compelled the Army to transform
                                                                                      Department of the Army (HQDA) (Figure 1), under the
how it trains and equips its Soldiers, how those Soldiers are
organized, and how they fight.

2 Fiscal Year 2009 United States Army Annual Financial Statement
direction of the Secretary of the Army and the Army Chief       Its state mission is to train for, and respond to, domestic
of Staff, leads and manages the entire Army.                    emergencies and other missions as required by state law.
                                                                Unless federally mobilized, ARNG units are commanded by
The Army’s organizational structure consists of two             their state executive, usually the governor.
interdependent pieces: the warfighting, operating force; and
the generating force, which supports the operational force by   The USAR is the primary federal reserve force of the Army.
providing the training, facilities and equipment necessary to   The USAR provides specialized units and resources to
prepare and sustain Soldiers.                                   support the deployment and sustainment of Army forces
                                                                around the globe. In addition, the USAR is the main source
The operational Army provides the land-power capabilities       of individual Soldiers to augment headquarters staff and to
for the combatant commander. Within the operational             fill vacancies in the active component.
Army, the transition continues from a division-centric
warfighting force to a brigade-centric force. At the heart
of this change is the modularization and standardization        Performance Goals, Objectives
of Army brigade combat teams (BCTs), a process that is          and Results
essential to the development of a more rapidly deployable,
                                                                The Army is in the midst of a long war—the third longest


                                                                                                                              General Fund and Working Capital Fund
flexible, and powerful force.
                                                                in our nation’s history—and the longest ever fought by its
                                                                all-volunteer force. More than one million of our country’s
Viewed by its constituent elements, the Army can be
                                                                men and women have deployed to combat; more than
separated into the AC and RC. The AC consists of full-
                                                                5,200 have sacrificed their lives, and more than 35,700
time Soldiers assigned to the operational and institutional
                                                                have been wounded. Our Army continues to be the
organizations that perform day-to-day Army missions. The
                                                                leader in this war, protecting our national interests while
Congress annually reviews and mandates the number of
                                                                helping others to secure their freedom. After eight years
Soldiers that the Army may maintain. The RC consists of
                                                                of continuous combat, our Army remains out of balance,
the Army National Guard (ARNG) and the U.S. Army
Reserve (USAR).

The ARNG has two missions: federal and state. Its federal
mission is to provide trained and ready forces for wartime,                President Barack Obama visits Camp
national emergencies, and other requirements, as necessary.                Victory, Iraq. “You have performed
                                                                           brilliantly in every mission that has been
                                                                           given to you.” White House photo by                        3
                                                                           Pete Souza
                                                                              Burst of flames leaves the muzzle of a
                                                                              240B machine gun as a Soldier conducts
                                                                              a test fire from a moving aircraft on the
                                                                              outskirts of Baghdad, Iraq.
straining its ability to sustain the all-volunteer force and
maintain strategic depth. The stress on the Army did not
ease in FY 2009 as the demand on its forces remained high.
In FY 2009, the Army made significant progress to restore
balance, but it still has several challenging years ahead to
achieve this vital goal.                                           and transform Soldier and leader development to ensure
                                                                   its campaign capable force is versatile, expeditionary, agile,
The lack of balance the Army is experiencing poses a risk          lethal, sustainable, and interoperable. Modernization efforts
to the all-volunteer force, as well as to the Army’s ability to    are essential to ensure technological superiority over our
respond quickly to other contingencies. To mitigate near-          nation’s potential, diverse adversaries. Adapting the Army’s
term risk, the Army’s senior leadership established a plan to      institutions will increase its efficiency and effectiveness to
restore balance based on four imperatives:                         provide trained and ready forces for combatant commanders.
                                                                   Transforming how the Army trains Soldiers and develops
     (1) Sustain the Army’s Soldiers, families, and civilians;     agile and adaptive leaders, based on the lessons it continues
                                                                   to learn in Afghanistan and Iraq, is paramount to the
     (2) Prepare Soldiers for success in current operations;       success of full-spectrum operations in dynamic and complex
                                                                   operating environments.
     (3) Reset units to restore readiness and depth for future
          operations; and
                                                                   In FY 2009, the Army updated the cost of the doctrinal
     (4) Transform the Army into the force the nation needs        Army (doctrinal cost) model. It did so using improved and
          today and in the future.                                 refined methods, and the latest force structure associated
                                                                   with accomplishing the missions assigned by Office of
These are not easy tasks, and they require the full support of     the Secretary of Defense. The doctrinal cost estimate is
the Congress and the American people. While the Army has           performed annually and is independent of the standard
achieved much, more remains to be done. The goal of these          planning, programming, budgeting, and execution process
imperatives is to restore balance by FY 2011.                      (PPBE). This estimate is what it should cost the Army,
                                                                   when fully staffed and equipped, to operate in accordance
The Army must restore balance while simultaneously setting         with established Army doctrine. The Army has found these
conditions for the future. The Army’s future readiness             top-down cost estimates valuable when compared to the
demands that it continue to modernize, adapt its institutions      bottom-up PPBE results. The doctrinal cost model identifies




4 Fiscal Year 2009 United States Army Annual Financial Statement
 Table 1. Quality – Percent Tier 1 Educational Credential Holders (AC)

                                   FY 2005             FY 2006          FY 2007               FY 2008              FY 2009
 Tier 1 Goal                         90%                 90%               90%                  90%                  90%
 Tier 1 Actual                       87%                 83%               79%                  83%                  95%

 Table 2. Recruiting

                                 FY 2006          FY 2007        FY 2008         FY 2008           FY 2009           FY 2009
                                  Actual           Actual         Goal            Actual            Goal              Actual
 Active Army                      80,635           80,407        80,000           80,517            65,000            70,045
 Army Reserve                     25,378           27,004        26,500           26,945            22,500            23,684
 Army National Guard              69,042           62,914        60,600           62,397            52,698            52,014



the steady-state Army force structure, and associated            no less than 90 percent of new recruits. Typically, Tier 1
equipment and facilities, then depreciates them to account       recruits are a lower risk for attrition and, therefore, are
for the annual investment required to renew or replace the       the most desirable group from which to draw. The Army
assets. The estimate uses only peacetime costs, excluding the    achieved 95 percent Tier 1 recruits in FY 2009, which is a
cost of OCOs. The result is a doctrinal cost annual estimate     12 percent increase over FY 2008, and a nearly 16 percent
of $176.2 billion. The Army will continue to refine its          increase from FY 2007. While the overall first-term attrition
methodology and resourcing strategy to produce the leanest       declined considerably in recent years, the rate has remained
possible estimate, while accurately articulating its cost and    unchanged since September 2008. The static rate and
doctrinal capabilities to the Congress and the American          overall quality of recruits are positive signs that the Army is
people.                                                          recruiting, training, and retaining a highly qualified force.

The costs associated with full implementation of the             The Army was able to meet its recruiting mission in all
President’s temporary end-strength increase of up to 22,000      components. The Army continued several implemented
AC Soldiers resulted in an annual estimate of $1.0 billion in    initiatives, such as the Active First Recruiting Program, the
FY 2010, and $2.2 billion in FY 2011.                            Army Preparatory School, and the Army Advantage Fund,
                                                                 which helped the Army achieve its goals. The expected
The following sections discuss the four imperatives, goals,      FY 2010 economy is also expected to yield high-quality
and program performance results.                                 recruits.

                                                                 Due to OCOs, several special skills are in high demand. To
Sustain                                                          fill them, it has been necessary to augment recruiting and


                                                                                                                                     General Fund and Working Capital Fund
                                                                 retention incentives. The Army instituted a Critical Skills
To sustain Soldiers, families and Army civilians in an era of    Retention and Accession Bonus (CSRB) to attract and to
persistent conflict, the Army must maintain the quality and      retain personnel in specific skills areas, including Special
viability of the all-volunteer force and the many capabilities   Forces, Criminal Investigations, Military Intelligence,
it provides the nation. Sustain ensures that Soldiers and        and Field Artillery. Further, medical-related CSRBs were
their families have the quality of life they deserve, which      offered to critical specialties including clinical psychologists,
helps to improve retention rates.                                physician’s assistants and maxillofacial/oral surgeons.

                                                                 When the President declares a state of national emergency,
Manning the Force – Recruiting and Retaining
                                                                 end-strength limits may be waivered. The Army is trying
Soldiers                                                         to grow as fast as possible to relieve stress on the force and
While the recruiting environment is challenging, the Army        increase time between deployments. The Army is increasing
remains committed to bringing only the very best into its        its operational end strength in order to man the modular
ranks. The goal is for Tier 1 educational credential holders     force. In July 2009, the Secretary of Defense authorized the
e.g., those with high school diplomas or above, to comprise      Army a temporary end-strength increase of 22,000 Soldiers


                                                                                                                                             5
    Table 3. Active Component (AC) End Strength

                                            FY 2006                       FY 2007                        FY 2008                       FY 2009
    Goal                                    502,400                        518,400                       529,191                       552,400
    Congressional                           512,400                        518,400                       525,400                       532,400
    Baseline
    Actual                                  505,402                        522,017                       543,645                       553,044
    Percent Change from
    Baseline                                 -1.4%                         +0.7%                          +3.5%                         +3.9%
    Performance Measure: The number of Soldiers on active duty at the end of the year. Items are as of EOM September 2009.

    Table 4. RC End Strength Within 2%

                                           FY 2006                        FY 2007                        FY 2008                       FY 2009
    Goal                                    555,000                       550,000                        556,300                       563,200
    Actual                                  536,263                       542,589                        557,375                       563,688
    % Delta                                  -3.5%                         -1.4%                          +0.2%                         +0.1%
    Performance Measure: The number of Soldiers in the ARNG and the USAR at the EOM September 2009

    Table 5. AC and RC Retention

                                      FY 2006              FY 2007             FY 2008              FY 2008             FY 2009             FY 2009
                                       Actual               Actual              Goal                 Actual              Goal                Actual
    Active Army                        67,307               62,200              65,000               73,913              55,000              68,387
    Army National Guard                41,083               37,578              31,889               29,618              34,593              36,672
    Army Reserve                       18,223               16,571              14,946               16,523              11,619              11,163
    Performance Measure: Measures the number of Soldiers reenlisted during a given fiscal year against the published goals. The AC and ARNG have
    achieved their retention mission for FY 2009 as of EOM September. The USAR is considered successful as they have exceeded their end-strength
    requirements. The overall success of recruiting and retention goals prompted the Army to adjust the original retention mission of 65,500 to 55,000 to
    slow production.




for the AC for up to three years, which increased the AC                          The Army will continue to develop and implement programs
authorization from 547,400 to 569,400.                                            to address this challenge.

The Army had a maximum reenlistment bonus of $27,000
for high-demand specialties. These bonuses, which are a                           Improving the Quality of Life for Soldiers and Their
vital tool in keeping Soldiers who possess valuable combat                        Families
experience, have helped the Army to exceed its retention goal                     To retain Soldiers and meet the needs of their families, the
for FY 2009. Careful and deliberate adjustments to bonuses,                       Army must care for them by providing exceptional programs
including which critical skills are targeted, were made to                        and services that support their well-being. The Army and
retain the correct Soldiers.                                                      its senior leadership is committed to improving the quality
Recruiting and retaining Soldiers who are confident,                              of life for AC, ARNG and USAR Soldiers and their families
adaptive, competent and able to handle the full complexity
                                                                                  that is equal to the quality of their service. Since the
of 21st century warfare in this combined, joint,
                                                                                  inception of the Army Family Covenant1 and the Soldier-
expeditionary environment is a highly competitive endeavor.


1
 On October 8, 2007, the Army unveiled the Army Family Covenant, which institutionalizes the Army’s commitment to provide Soldiers and their families a
quality of life equaling their level of service and sacrifice to the nation. Taken from http://www.myarmyonesource.com/cmsresources/ArmyOneSource/Media/
PDFs/Communities and Marketplace/ARMY FAMILY Covenant on October 26, 2009.


6 Fiscal Year 2009 United States Army Annual Financial Statement
family action2, the Army continues to demonstrate this                           Improving Soldier and Family Housing
commitment. In FY 2009, the Army fully resourced child
and youth programs to meet Department of Defense (DoD)                           The Army’s commitment and congressional support
standards of 80 percent and 35 percent demand, respectively.                     for housing programs continue to demonstrate the
Other improvements include using training products to                            Army’s pledge to provide a quality of life for Soldiers
strengthen resilience in military children, increasing staff                     and their families commensurate with their service. In
for the New Parent Support Program3, providing additional                        concert with the private sector, the Army continues to
funding for respite care, implementing Soldier and Family                        focus a considerable amount of effort on the Residential
Assistance Centers (SFACs) and placing thousands of                              Communities Initiative and the Barracks Modernization
spouses in jobs through the Army Spouse Employment                               Program (BMP). At the end of FY 2009, the Army’s
Program.                                                                         inventory of inadequate family housing was eliminated at
                                                                                 enduring5 U.S. locations through privatization, conventional
With the continued maturation of the Army’s Warrior Care                         military construction, demolition and divestiture of
and Transition Program4, wounded, ill, and injured Soldiers                      uneconomical and excess units. At most enduring foreign
and their families are receiving the care management and                         locations, inadequate family housing was eliminated through
support they both need and deserve. The Warrior Transition                       military construction, demolition and returning excess
Command (WTC) was established to ensure focused and                              housing to host nations. However, at one enduring foreign
effective management of all aspects of the Warrior Care and                      location (Baumholder, Germany), funding to modernize the
Transition Program. This command brings together U.S.                            remaining inadequate government-controlled family housing
Army Medical Command, the Army Wounded Warrior                                   inventory will continue through FY 2015.
Program, and the former Warrior Care and Transition
Office to provide the necessary leadership and coordination                      In FY 2009, the Army privatized and conveyed 4,735
to ensure the ongoing success and enhancement of this                            homes—1,411 at Fort Sill (November 2008), 1,628 at Fort
program. The WTC operates 32 properly-resourced                                  Wainwright (April 2009), 126 at Fort Greely (April 2009),
warrior transition units (WTUs) and 9 regionally-located                         1,365 at Fort Huachuca (April 2009) and 205 at Yuma
community-based WTUs.                                                            Proving Grounds (April 2009). This brings the total
                                                                                 number of installations privatized to 43, with an end-state
The Army is making great progress toward funding and                             inventory of 86,092 homes out of a total program goal of 44
constructing warrior transition complexes to provide                             installations and end-state of 86,464 homes.
wounded, ill and injured Soldiers and their families modern
and accessible barracks, SFACs and WTU headquarters                              The Army strategy is on track to eliminate inadequate
and administrative facilities conveniently located near                          housing and complete the permanent-party, single-Soldier
installation military treatment facilities. Each Soldier and                     portion of its BMP by FY 2013, with availability to occupy
family is assisted by a multi-disciplinary team to develop a                     in FY 2015. As of FY 2009, the Army has 150,769 of the
comprehensive transition plan that lays out in realistic terms,                  169,977 adequate spaces.
a recovery plan for each wounded, ill and injured Soldier,


                                                                                                                                                             General Fund and Working Capital Fund
and doing so in a manner consistent with their individual
goals and within the realities of their ability to recover.




2
 The roadmap by which the Army will fulfill its commitment to Soldiers and families. Addendum H: Soldier and Family Action Paper, 2008 Army Posture
Statement. Taken from http://www.army.mil/aps/08/addenda/addenda_h.html on October 26, 2009.
3
 The New Parent Support Program was established by federal law to help build strong, health military families. Taken from http://www.militaryhomefront.
dod.mil/tf/newparentsupport, on October 26, 2009.
4
 Details of this program are in Addendum I: Warrior Care and Transition, 2008 Army Posture Statement. Taken from http://www.army.mil/aps/08/addenda/
addenda_I.html, found on October 26, 2009.
5
 Enduring in this instance refers to locations where a long-term presence is planned; locations that are not expected to be closed by base realignment and
closure (BRAC) or global defense posture realignment (GDPR).


                                                                                                                                                                     7
The Army’s strategy to eliminate inadequate training                           future. By developing the Army modular force, the Army
barracks under the BMP remains on course for completion                        will significantly increase the pool of rotating units, and,
in FY 2015, with availability to occupy in FY 2017.                            by employing the Army Force Generation (ARFORGEN)
The goal is to construct new barracks to eliminate the                         model, it will reduce the stress on the force. The results will
deficit of Soldier spaces, and to complete restoration and                     be greater stability, unit cohesion and readiness, and less
modernization of 115,413 spaces for Soldiers attending                         uncertainty for families.
basic training, one-station unit training, advanced individual
training, and advanced skill training. As of FY 2009, 50,329                   The ARFORGEN6 process leverages modular unit designs
spaces have been completed.                                                    and the operational cycle to create a sustainable deployment
                                                                               posture with units that are ready in predictable patterns and
The Army executed a limited unaccompanied personnel                            the capacity to surge combat power for major operations.
housing privatization initiative for staff sergeants and                       When fully operational, ARFORGEN will enable the Army
above at Forts Irwin, Drum, Bragg, Bliss, and Stewart.                         to schedule effectively and efficiently fully-ready units for
Together, these facilities will provide 1,396 apartments                       deployment, which will, in turn:
(1,804 bedrooms) in areas that have limited available rental
properties for Soldiers in these grades.                                             (1) Reduce uncertainty for Soldiers, families, and the
                                                                                         communities that support installations;

Prepare                                                                              (2) Improve the availability of forces for combatant
                                                                                         commanders;
To prepare Soldiers, units, and equipment the Army must
maintain a high level of readiness for the current operational                       (3) Generate a continuous number of available
environments, especially in Iraq and Afghanistan, while                                  BCTs, augmented by all required supporting
taking into consideration potential future conflicts. The                                organizations when given appropriate mobilization
Army is continually adapting training and materiel to keep                               authority; and
pace with an evolving enemy. The Army remains committed
to providing its deploying Soldiers with the best available                          (4) Enable the Army to surge additional BCTs
equipment, so that they can maintain a technological                                     augmented by all required supporting
advantage over any enemy they may face.                                                  organizations when given appropriate mobilization
                                                                                         authority.

Providing Support for Operational Requirements
                                                                               Civilian Contributions to Generating Force and
The pace of operations in the new security environment                         Resourcing Challenges
presents a number of significant force management                              Department of the Army civilians are assuming increased
challenges to the Army. As a result of the Army’s global                       responsibilities in the generating force, and the Army is
commitments, approximately 255,000 Soldiers are                                identifying funding sources to allow it to increase their
deployed or forward-stationed in nearly 80 countries. As                       numbers commensurate with the workload associated with
of September 2009, approximately 553,000 personnel were                        a larger operational force. About 52 percent of the Army
serving in the AC, and approximately 29,800 RC Soldiers                        civilian workforce is within the discretionary control of
were on mobilization orders.                                                   the Army. The remaining 48 percent are subject to various
                                                                               statutory constraints or funding sources external to the
Repeated deployments affect recruiting and retention, and                      Army and fall into the following categories: 1) 11.6 percent
have a very real impact on the Army’s ability to care for                      are paid through the working capital fund (pursuant to 10
Soldiers and their families. The Army is pursuing numerous                     USC 2208); 2) 9.5 percent are foreign nationals who are
initiatives that will reduce force-management risk to meet                     employed through country specific international agreements;
today’s challenges, and to position troops better for the

6
  “The Army Force Generation (ARFORGEN) process is the Army’s method for effectively and efficiently generating trained and ready forces for combatant
commanders on a sustainable, rotational basis. As such, it synchronizes the Army’s primary Title systems: manning, equipping, training, resourcing,
sustaining, and modernizing - used to generate forces.” 2009 Army Posture Statement, found at http://www.army.mil/aps/09/information_papers/army_
force_generation_process.html on November 4, 2009.


8 Fiscal Year 2009 United States Army Annual Financial Statement
    Table 6. Individual Training

                                                                            Advanced       Basic Officer       Officer          Warrant
                                       Basic Combat      One Station        Individual       Leader           Candidate       Officer Entry    Initial Entry
                                       Training (BCT)    Unit Training       Training        Course            School           Course         Rotary Wing

    2008 Trained (reported)               65,262            21,252          74,041            13,594           1,518             2,606             653
    2008 Trained (actual)                 81,274            32,132          96,557            16,930           1,953             2,769             993
    2009 Trained (interim)                62,994            22,330          80,537           14,734            1,848             2,351             665
    NOTES: These data represent AC Army, ARNG and USAR students graduating from active component schools. All data are based on start date (i.e.,
    if a class starts in FY 2008 and graduates in FY 2009 it is counted in the FY 2008 data). For example, the initial basic training class that started in
    July 2009, but graduated after October 1, 2009 counts as a FY 2009 trained Soldier and is not part of the numbers in the shown table Soldier and is
    not incorporated in the table data.

    2008 Trained (reported) data as of October 15, 2009.
    2008 Trained (actual) data as of September 25, 2009.
    2009 Trained (interim) data as of September 25, 2009.


3) 13.2 percent are military technicians; and 4) 13.9                              management controls for over-hires within the Army. The
percent are externally funded (to include Defense health                           intent is to institute management controls on the hiring
programs, special operations, intelligence, foreign military                       process to align enduring missions and funds better with the
sales, and counterdrug programs). In addition, there are                           hiring of permanent positions and to restrict other hiring to
22,232 employees separately funded by the Civil Works and                          term or temporary employment.
Cemetary appropriations.

Since September 11, 2001, the civilian workforce has                               Training Soldiers
increased from 222,000 to 273,434 at the end of FY 2009.
The increase is in response to OCOs, military-to-civilian                          Initial entry training develops the Soldier’s war fighting
conversions, military technician increases, Defense health                         capability through individual warrior tasks and battle
program increases and in-sourcing contracts associated with                        drills. Every six months, the Army reviews and updates
inherently governmental functions. In-sourcing is pursuant                         these tasks and drills to ensure that training is relevant to
to 10 USC 2330a (as amended by section 807 of the                                  today’s environment. The Army’s training centers and
National Defense Authorization Act for Fiscal Year 2008)                           schools increased student inputs in FY 2009 by 5.1 percent
and 10 USC 2463, as enacted by section 324 of the National                         compared to FY 2008. This increase was tied to the Grow
Defense Authorization Act for Fiscal Year 2008. Future                             the Army initiative to achieve AC end strength of 547,400.
civilian employee growth is critical to supporting current
plans to grow the Army to 73 BCTs and associated combat
                                                                                   The Army continues to augment its ability to conduct
support and combat service support units by FY 2011. The
civilian workforce provides 51 percent of the capability in                        irregular warfare through several functional courses that
the Army’s generating force, which is critical to the Army’s                       build on language and cultural competencies and improve
training, manning, power projection, equipping, medical                            Soldiers’ and civilians’ knowledge of, and capabilities


                                                                                                                                                               General Fund and Working Capital Fund
support, reset, support to Soldiers and families, base support,                    in, electronic warfare, red teaming (opposing forces),
acquisition, and management functions.                                             counterterrorism, weapons of mass destruction, civil affairs,
                                                                                   information operations, counter-explosive hazards, and
The Army currently faces challenges to identify enduring                           operational law.
funding sources for these increased missions that are being
absorbed by civilian employees, which is reflected by 26,967                       In FY 2009, the Army continued to provide foreign
over-hires as of the end of FY 2009. Some of this will be                          language training for all four Services and other DoD
mitigated through increased authorizations in FY 2010. As
                                                                                   activities conducting basic qualification, intermediate,
a result of the corrective actions identified in the Army’s
                                                                                   and advance language training.7 The Defense Language
10 USC 129 certification for calendar year 2008, the
                                                                                   Institute Foreign Language Center continued to execute the
Assistant Secretary of the Army (Manpower & Reserve
Affairs) requested that the Army Auditor General review the                        Proficiency Enhancement Program which enabled students



7
    The Army serves as the executive agent for the Defense Language Institute Foreign Language Center.


                                                                                                                                                                       9
                  A mass airborne operation involving more
                  than 1,000 Soldiers of the 75th Ranger
                  Regiment begins the biennial Ranger
                  Rendezvous at Fort Benning, GA.




10 Fiscal Year 2009 United States Army Annual Financial Statement
    Table 7. Ground and Air Operational Tempo (OPTEMPO)

                                                    FY 2006             FY 2007              FY 2008           FY 2009 Goal         FY 2009 Actual
    AC Ground OPTEMPO (Mileage)                        666                 729                  500                   547                   561
    AC Air OPTEMPO (Flight Hours)                      12.6                12.8                 12.4                  12.3                  10.0
    ARNG Ground OPTEMPO                                139                 127                  150                   120                   120
    ARNG Air OPTEMPO                                    4.7                10.1                  9.7                  6.6                    9.4
    USAR Ground OPTEMPO                                169                 138                  152                   137                   137
    USAR Air OPTEMPO                                    8.7                 9.7                  8.1                  6.6                    5.0
    NOTE: FY 2006 through FY 2008 reflects home-station execution only. FY 2009 amounts are estimates based on execution as of September 2009.



    Table 8. MILCON Range Projects
                                                        FY 2006                     FY 2007                   FY 2008                   FY 2009
    Range MILCON Projects                                     30                       37                        26                         17



to achieve higher levels of language proficiency through                          Centers (CTCs) and at Training and Doctrine Command
smaller instructor-to-student ratios in the classroom. The                        (TRADOC) schools by creating realistic conditions that
Army is also using its foreign language training detachments                      reflect the operational environment. These critical training
to assist its professional military education institutions.                       enablers include ranges and targets; live, virtual, constructive,
Culture topics have been imbedded into training throughout                        and gaming training aids; devices; simulations and
Army schools.                                                                     simulators; instrumentation systems; training facilities; and
                                                                                  training support operations.

Training Units                                                                    The Army continues to adapt its TSS to support
In FY 2009, the Army provided trained and ready forces                            ARFORGEN training requirements and lessons-learned
to commanders around the globe in addition to meeting                             from current operations. At home stations, training must
critical homeland defense missions. To make sure Soldiers                         expose Soldiers, leaders, and units to the full spectrum of
were combat-ready in FY 2009, the Army engaged in an                              possible conflict under realistic conditions. Ranges are being
appropriate mix of live, virtual and constructive training.                       modernized to integrate digital systems that allow crews
The AC and RC executed a focused and demanding                                    and platoons to train as they fight. New ranges are being
ground and air training plan, which included actual miles                         built to support gunnery requirements in accordance with
driven and hours flown, as well as virtual miles and hours                        the Army Campaign Plan8 and urban operations training


                                                                                                                                                            General Fund and Working Capital Fund
                                                                                  facilities are being constructed and fielded to provide units
associated with the use of simulators. In FY 2009, home-
                                                                                  a complex urban-area training capability. This live training
station training miles and hours executed were impacted by
                                                                                  environment will be further enhanced with a home-station
the limited dwell times between rotations, the impacts of
                                                                                  instrumentation training system that links ranges, urban
equipment reset requirements and un-programmed changes
                                                                                  complexes, and training areas.
in unit deployment schedules into theater.

                                                                                  New and improved live, virtual, constructive, and gaming
Training Support Systems                                                          training aids, devices, simulations and simulators are being
                                                                                  fielded to augment training against improvised explosive
The Army’s training support systems (TSS) enable the                              devices (IEDs). Virtual simulators, IED simulators, gaming
execution of training at home stations, Combat Training                           simulations, and convoy live-fire systems provide a complete


8
 “The Army Campaign Plan provides direction for detailed planning, preparation and execution of the full range of tasks necessary … while maintaining the
quality of the all-volunteer force.” Found at http://www.army.mil/thewayahead/acp.html on October 26, 2009.


                                                                                                                                                             11
 Table 9. Professional Development (AC Schools Only)

                                                                                                                          Intermediate
                                                                                                      Sergeants         Level Education       Senior Service
                                      Warrior Leader         Advanced           Senior Leader        Major Course           Resident/            College
                                         Course            Leader Course           Course            Resident/DL         Common Core           Resident/DL

 2008 Trained (reported)                 26,457               10,817               9,792                0/779                0/508              609/474
 2008 Trained (actual)                   27,272               12,087              10,242              592/780              957/739              443/389
 2009 Trained (interim)                  26,100               11,514              10,368                0/466                0/595              444/389
 NOTES: These data represent AC Army, ARNG and USAR students graduating from AC schools. The 2009 resident Sergeants Major Course does
 not graduate (545 inputs) until May 2010. The 2009 Resident ILE classes do not graduate (1,108 inputs) until December 2009 and June 2010. All
 data are based on start date (i.e., if a class startes in FY 2008 and graduates in FY 2009 it is counted in the FY 2008 data). Distance learning training is
 represented by DL in the table.

 2008 Trained (reported) data as of October 15, 2008.
 2008 Trained (actual) data as of September 25, 2009.
 2009 Trained (interim) data as of September 25, 2009.




“Military success in this war is tied to the capabilities of our
   leaders and Soldiers, and we will not fail to prepare them
                                                              for success.”
                                                    —General George Casey, Chief of Staff of the Army



package for battle drills, learning tactical techniques and                       with Army and Joint doctrine. The CTCs are at the core of
procedures, and generally raising IED situational awareness.                      the Army’s collective training strategy and have dedicated
                                                                                  resources beyond those available at home-station training
The Army also is modernizing its battle command training                          sites. Training is specifically tailored to prepare units for the
centers (BCTCs) and training simulations to increase leader                       conditions in the theater to which they will deploy. While
and battle-staff training and to improve mission-rehearsal                        the CTCs have retained the capability for high-intensity
capabilities for deploying units. The BCTCs provide                               unit training needed for other potential theaters of war,
units the ability to train and to sustain critical individual,                    the current training focus is counter-insurgency operations
operator, and battle-staff skills on digital command, control,                    and lessons from combat in Iraq and Afghanistan. The
communications, computer, intelligence, and surveillance                          CTC training environment emphasizes rapid change and
and reconnaissance systems. The BCTCs will also network                           adaptation to current activities. This is accomplished by
with other installations and simulations to support joint                         using improved facilities, civilians on the battlefield, and
training exercises.                                                               realistic scenarios. The complex, event-driven scenarios
                                                                                  challenge the BCTs to execute multiple, simultaneous
Army training modernization must continue to keep pace                            missions that include integrated enablers from the Army and
with equipment modernization and Army transformation to                           the joint community.
meet expeditionary readiness requirements.
                                                                                  The modernization of CTCs lags behind Army
                                                                                  modernization. As a result, CTC commanders are using
Adapting Training                                                                 OCO funds to improve their centers and provide conditions
The Army conducted 24 rotations at CTCs in FY 2009.                               that reflect the current operational environment.
The CTCs provide realistic joint- and combined-arms
training that approximates actual combat in accordance

12 Fiscal Year 2009 United States Army Annual Financial Statement
    Table 10. Civilian Professional Development

                                                                                 The Industrial College of the Armed
                                                 Senior Service College                    Forces (ICAF)                    Civilian Education System

    2009 Inputs                                            12                                     9                                  11,066




Growing Adaptive Leaders                                                          adaptable and multi-skilled. This requires a new paradigm
                                                                                  and a centralized development program for training and
The current operational environment proves that leaders                           educating the Army’s future leaders, who will serve in both
must possess skills beyond those of pure tactical war fighting.                   operational and institutional capacities in order to operate,
It demands leaders who, without losing their war fighting                         and win, in this new environment.
focus, have developed non-lethal skills in such disciplines
as irregular warfare, information operations, negotiation,                        The Army is keenly aware of the valuable contributions of its
cultural awareness, stability and reconstruction operations,                      Civilian Corps9 in supporting the National Military Strategy.
and foreign language proficiency. The Army initiated and                          The Army must provide its civilians training, education
will continue to:                                                                 and operational experiences to develop leader competencies
                                                                                  and enhance their ability to support Soldiers, the Army,
        (1)	 Incorporate cultural awareness training and                          and the nation. To accomplish this, the Civilian Leader
             education into all levels of professional military                   Development Program has been revamped into a system that
             education (PME);                                                     is similar to the military leader development program.

        (2)	 Develop expertise in irregular warfare and full-
                                                                                  The CES uses leadership competencies derived from those
             spectrum operations for Soldiers and leaders
                                                                                  set by the Office of Personnel Management and those
             from the tactical to strategic level, emphasizing
                                                                                  identified by the Center for Army Leadership. These
             multinational, interagency, and Joint operations;
                                                                                  courses provide leader development training and education
             and
                                                                                  that support civilian leaders’ career path requirements and
        (3)	 Encourage language training and cultural                             professional development, and promote lifelong learning and
             education throughout the Army—in schools,                            self-development.
             through self-development, online, and in training
             at CTCs.                                                             In October 2009, CES will complete its second full year.
                                                                                  The training is producing adaptive, multi-skilled and
Due to the current high operational demand, many of                               innovative leaders, who are proficient in all disciplines—not
the Army’s leaders are unable to attend their PME at the                          just those disciplines in which they specialize. Looking
optimal time in their careers. As a result, the Army has a                        toward FY 2010 and beyond, CES will provide the training


                                                                                                                                                        General Fund and Working Capital Fund
large backlog at nearly all educational levels in both the                        and education underpinnings of the new holistic Enterprise
AC and RC. The Army employs mobile training teams                                 Civilian Human Capital Lifecycle Management System,
for Noncommissioned Officer Education System courses,                             which will manage the workforce across the life cycle from
and has increased the use of distributed learning in order                        an enterprise perspective to meet national security and
to conduct PME within the constraints of ARFORGEN to                              enterprise needs efficiently.
slow the growth of the backlog. As mission requirements
change, the Army expects the availability of leaders to attend
PME to increase sufficiently to begin reducing the backlog.                       Modernizing and Equipping the Army to Increase
                                                                                  Strategic Depth
The Civilian Education System (CES) will meet the
                                                                                  The Army’s Soldiers and commanders rely on, and deserve,
Secretary of the Army’s mandate that leaders of tomorrow be
                                                                                  the very best equipment that can be provided, and they


9
    Established June 10, 2006, additional information available at http://cpol.army.mil/library/general/acc-memo.html. Found on October 26, 2009.


                                                                                                                                                         13
play a large role in setting Army requirements. Since                         government-off-the-shelf solutions to increase effectiveness
FY 2002, the Army has shifted resources in response to the                    and reduce risk. The REF maintains forward-deployed
many lessons learned from Operations Iraqi Freedom and                        teams in Iraq and Afghanistan to interact with deployed
Enduring Freedom. Force protection, communications,                           units to identify, equip and evaluate their requirements and
surveillance and weapon systems programs were accelerated                     capability shortfalls. The REF has introduced over 785
to meet Soldiers’ urgent needs. To modernize the force,                       different types of equipment and provided more than 80,000
the Army invested in a variety of new equipment to replace                    individual equipment items to deployed Soldiers and units.
outdated and expensive-to-maintain equipment, including
trucks and aircraft. For example, the Army expects to                         The Army continues to invest in the ARNG and USAR
divest its 2.5-ton M35-series trucks by the end of FY 2011,                   to enhance their mission capabilities and to ready forces
replacing them with both armored and unarmored variants                       entering the ARFORGEN cycle for deployment. The
from the family of medium tactical vehicles.                                  fleet age10 of trucks, combat vehicles, communications
                                                                              systems, and Soldier weapons continues to decline as new
The Army also has accelerated the fielding of the M4                          equipment is fielded to the RC. Army National Guard
Carbine, enhanced night vision devices, and continued                         and USAR forces preparing to deploy are fielded with the
efforts to provide Soldiers the very best body armor. To                      very best modernized equipment, reducing the disparity in
address a unique operational requirement, the Army invested                   modernization between the AC and RC—a critical goal in
in the Mine Resistant Ambush Protected (MRAP) vehicle.                        the effort to create strategic depth and operationalize the RC.
The Army’s aviation fleet was significantly modernized
through procurements of UH-60M Black Hawk, CH-47F
Chinook, and AH-64D Apache helicopters. In FY 2009,                           Reset
the Army ended the Future Combat System (FCS) program                         Units returning from theater enter the reset phase of
and began devising a modernization strategy made up of                        ARFORGEN which restores Soldiers, units and equipment
separate programs to give today’s Soldiers the most advanced                  for future deployments and other contingencies. It restores
systems possible. The Army is pursuing many of the                            them to the desired level of combat capability commensurate
technologies developed under FCS—such as unmanned air                         with the unit’s future mission. Reset reverses the effects of
and ground vehicles, but, those efforts will now be called                    combat stress on equipment, and extends the life of vital
Army BCT modernization. There is also the new ground                          systems and platforms that have been used at unprecedented
combat vehicle (GCV) program. The GCV effort will                             rates in harsh and demanding desert and mountain
initiate the modernization of the Army’s fighting vehicles.
                                                                              environments. In addition, the Army must also revitalize
                                                                              Soldiers and their families by providing them the time and
The Rapid Fielding Initiative (RFI) continues to enhance                      the opportunity to recover from the cumulative effects of
warfighting capabilities by using commercial-off-the-shelf
                                                                              sustained operations.
(COTS) technology, rather than waiting for acquisition
programs, to address Soldier requirements and shortfalls.
Twenty-four BCTs and numerous other OCO deploying                             Reset and Repair Army Units and Equipment
units in the ARFORGEN operating cycle comprising
248,542 Soldiers were fielded RFI equipment during                            In FY 2009, the reset phase was highly successful despite
FY 2009.                                                                      a dynamic strategic environment. For the fiscal year, the
                                                                              Army received $13.5 billion in OCO funding from the
The rapid equipping force (REF) rapidly provides                              Congress for reset. The Army aggressively executed this
capabilities to Army forces employed globally through                         funding to restore units’ equipment readiness. The Army
current and emerging technologies to improve Soldier                          obligates the majority of procurement funding within 90
operational effectiveness. The REF’s priority is at the                       days of receipt, while Army Operation and Maintenance
deployed brigade and BCT level, focusing on COTS and                          appropriation obligations occur throughout the fiscal year
                                                                              as the equipment returns. The Army completed the reset of




10
     Fleet age refers to the average age for each equipment type mentioned.


14 Fiscal Year 2009 United States Army Annual Financial Statement
29 brigades’ worth of equipment during the fiscal year, and    Key FY 2009 accomplishments:
began the reset of 17 more brigades’ worth of equipment as
surge forces started to return.                                      (1)	 The GCSS-Army completed a successful
                                                                          operational assessment of the supply module at the
A fully-funded Army reset program ensures that equipment                  National Training Center and is working towards
is operationally ready for use by combat forces in Iraq,                  an assessment of release 1.1 in July 2010.
Afghanistan, and other potential contingencies, and by
forces that are training prior to deployment. Reset funding          (2)	 The Aviation and Missile Life Cycle Management
should match reset requirements and be provided in a timely               Command, Corpus Christi Army Depot (CCAD),
manner at the beginning of each fiscal year to promote cost               and Letterkenny Army Depot deployed LMP.
efficiencies and process effectiveness while ensuring the            (3)	 The GCSS-Army received Milestone B approval
timely return of equipment to support training and future                 from the Under Secretary of Defense (Acquisition,
deployments.                                                              Technology, and Logistics) and began developing
                                                                          maintenance, ammunition, and property-book
Enhancing Logistics Readiness                                             functionality.



                                                                                                                                          General Fund and Working Capital Fund
The Army’s logistics information technology (IT)                     (4)	 Bridging systems were fielded to 90 percent of the
transformation objectives are paramount to modernizing                    total Army and are on track to complete fielding by
the force and supporting the warfighter. The Army also                    the end of FY 2010.
must ensure that logistics information systems seamlessly
interoperate with associated systems in other functional
areas, such as finance, personnel, medical, transportation,
and command and control. The Army has a three-tiered
strategy: 1) continue support to legacy systems still in the   11
                                                                 Bridging systems are interim solutions used as the Army moves toward a
                                                               single logistics enterprise.
field; 2) replace legacy systems with modernized bridging
systems11, as required; and 3) implement enterprise resource
planning solutions, the Logistics Modernization Program
(LMP), the Global Combat Support System—Army
                                                                             Soldiers equip their Common Remotely
(GCSS-Army) and Product Lifecycle Management Plus.
                                                                             Operated Weapon Station II with an M2
                                                                             .50 Caliber Machine Gun as they familiar
                                                                             themselves with the new weapon system                         15
                                                                             during their training.
Together, these initiatives provide more effective support           Growing and Modularizing the Army
for Soldiers on the front lines of OCOs, put logistics
management practices in line with world-class businesses,            Operating in an era of persistent conflict, coupled with the
and provide the Army the tools necessary to manage one               requirement to maintain a forward presence, has created
of the most valuable and complex logistics systems in the            both the necessity and the opportunity to accelerate
world.                                                               change from the current to the future force. The Army’s
                                                                     conversion to a modular force that is carefully balanced
In FY 2009, more than 87,000 items were repaired at                  between the AC and RC is well under way. Modularity is
depot-level facilities. This includes more than 2,700 tracked        intertwined throughout the force to the point that it is now
vehicles (e.g., Abrams tanks, Bradley fighting vehicles, M88         indistinguishable as a separate effort. As a result, the Army is
recovery vehicles), more than 2,500 tactical wheeled vehicles        more versatile, lethal, expeditionary, agile, interoperable and
(e.g., HMMWVs, medium and heavy tactical vehicles), and              sustainable.
more than 22,000 individual and crew served weapons (e.g.,
rifles, pistols and machine guns). Meanwhile, Army special           The Army modular force reorganizes the operational Army
repair teams brought additional depot-level expertise to the         into Army service component commands, theater support
field, completing the repair of over 150,000 items including         structures, corps and division headquarters, BCTs and multi-
small arms, night vision devices and communications                  functional and functional support brigades, all based on
electronics, as well as chemical and biological gear. The            standardized organizational designs across the AC and RC.
Army’s aviation special technical inspection and repair              The intent of this transformation is to:
program restored more than 400 fixed- and rotary-wing
aircraft to combat capability.                                             (1) Increase the number of available BCTs to meet
                                                                               operational requirements;

Transform                                                                  (2) Create brigade-size combat support and
                                                                               combat service support formations of common
To transform, the Army must continuously improve                               organizational designs; and
its ability to meet the combatant commanders’ needs
in a changing 21st century security environment.                           (3) Redesign organizations to perform as integral
Transformation is a holistic effort to adapt how the Army                      parts of the joint force, making them more
fights, trains, modernizes, develops leaders, bases its                        effective across the range of military operations
forces and supports its Soldiers, families, and civilians.                     and enhancing their ability to contribute to Joint,
Transformation is a journey, not a destination.                                interagency, and multinational efforts.




          “We’re ultimately working toward an agile, globally
     responsive Army that’s enhanced by modern networks,
surveillance sensors, precision weapons, and platforms that
    are lighter, less logistics dependent and less manpower
                  intensive. It’s a truly 21st century force.”—
                                           General George Casey, Chief of Staff of the Army



16 Fiscal Year 2009 United States Army Annual Financial Statement
The Army is increasing its operational end-strength in                        Army’s Modernization Strategy
order to man the modular force. In 2009, the Congress
authorized the Army a temporary end-strength increase                         The Army’s modernization strategy incorporates the lessons
of 22,000 Soldiers, growing the AC authorization from                         learned from eight years of war. The Army accelerated the
547,400 to 569,400.                                                           fielding of capability packages from the former FCS program
                                                                              to all 73 BCTs; halted the development and procurement
Of the 44 AC maneuver brigades programmed for the end                         of FCS manned ground vehicles; canceled the development
FY 2009, the Army converted 39 to the modular design and                      and procurement of the non-line of sight cannon; started
was in the process of converting another 3. The conversion                    development of a new GCV; and provided an incremental
process can take up to 12 months for an AC heavy BCT and                      delivery of the BCT network. The Army’s goal is to build
infantry BCT, and as long as 24 months for a Stryker BCT.                     a versatile mix of tailorable and networked organizations,
                                                                              operating on a rotational cycle, to provide a sustained flow
The ARNG began transforming in FY 2005 with an                                of trained and ready forces for full spectrum operations, and
accelerated plan allowing early reorganization, manning, and                  to hedge against unexpected contingencies at a sustainable
training under the new BCT designs. Transformation for an                     tempo for our all-volunteer force.
ARNG BCT can take as long as 48 months. At the end of
FY 2009, the ARNG was in the process of transforming 21
                                                                              LandWarNet Operational Capabilities
BCTs. The ARNG fully converted seven BCTs in FY 2009
and will complete another seven by the end of FY 2010.                        To support an expeditionary Army, the Army is
                                                                              fundamentally changing and adapting our institutions—
The overall transformation plan is on track to achieve a                      including LandWarNet (LWN)—the Army’s portion
combined total of 73 BCTs—45 in the AC and 28 in                              of the global information grid. Over the next three
the ARNG. The initial transformation covers training,                         years, using the global network enterprise construct
manning, and organization only; equipment transformation                      (GNEC), the Army will transform LWN to a centralized,
will occur over time. Table 11 provides a summary of BCT                      more secure, operationalized and sustainable network
transformation.                                                               capable of supporting an expeditionary Army in this
                                                                              era of persistent conflict. The GNEC is the focused,
 Table 11. BCT Transformation Summary                                         timed-phased, prioritized, resource sensitive, Army-wide
                                                                              strategy to transition LWN from many loosely-affiliated
                                 FY 2007        FY 2008        FY 2009
                                                                              independent networks into a truly global capability that
 AC Transformed                      35             38             39         is designed, deployed, and managed as a single integrated
 ARNG Transformed                     0              0              7         enterprise. A fundamental issue in transforming LWN is to
                                                                              improve the ability to provide assured and available battle
 Total Transformed                   35             38             46
                                                                              command network capabilities for the maneuver formations
                                                                              whether they are located in the continental United States
                                                                              (CONUS) or as reach back in support of expeditionary

                                                                                                                                              General Fund and Working Capital Fund
 AC Transforming                      4              2              3
 ARNG Transforming                   26             28             21         operations abroad. Transforming LWN to an enterprise
                                                                              activity requires globally aggregating Army networks and
 Total Transforming                  30             30             24
                                                                              synchronizing LWN activities with other Army processes
                                                                              like ARFORGEN, Base Realignment and Closure (BRAC),
 Total Transformation                65             68             70         Global Defense Posture Realignment (GDPR), and the
 Transformed means the unit has completed its initial reorganization          Pacific transformation.
 and re-equipping to a modular design within resource constraints, is
 participating in the ARFORGEN process and may be used against a
 requirement.
                                                                              Developing the Global Network Infrastructure
 Transforming means the unit is still undergoing initial reorganization and
 re-equipping to a modular design within resource constraints.
                                                                              The foundation for the global network is the capability
                                                                              of a network service center (NSC). The Army started
                                                                              deploying NSCs by theater with Europe in FY 2009, with
                                                                              plans for CONUS and Southwest Asia in FY 2010, and


                                                                                                                                               17
completing Western Pacific NSC deployments in FY 2011.                             secondary seaport of embarkation. This project, a carry-over
The NSC deployment in FY 2009 was on schedule. A                                   from FY 2008, was completed in October 2009.
major component of NSCs is the fixed regional hub node
fielded to support inter- and intra-theater communication                          The second project, a rail line bypass project at Fort Riley,
requirements and to provide failover12 and global continuity                       was initiated in August 2009 and is 20 percent complete.
of operations programs. The recent NSC operational                                 This project provides a mainline bypass for commercial
validation done during Austere Challenge13 successfully                            trains so that commercial rail traffic does not interfere with
demonstrated that NSCs can host battle command                                     rail operations at Fort Riley. Commercial rail traffic has
applications out of area processing centers (APCs) on                              increased in recent years due to increased shipments of
behalf of a brigade-level organization, enabling fight-upon-                       coal from the west, and the increase in commercial trains
arrival capabilities and enhanced continuity of operations.                        interferes with the ability of Fort Riley to move railcars for
The Army intends to consolidate IT services APCs at                                loading and train building operations, thereby decreasing rail
the enterprise level that include data, applications and                           out-loading. This project is expected to improve rail out-
IT hardware with the goal of reducing the total cost of                            loading from the current 157 railcars to 400 railcars per day
ownership across LWN. The end-state includes a mixture                             potentially. Project completion is estimated for July 2010.
of acquired managed services and Army-owned APCs, with
up to six APCs. In FY 2009, the Army started a critical step
in the centralized management of IT resources and network                          Implementing BRAC
defense improvements with the re-alignment of information                          The intent of BRAC 2005 was to support the Army’s
management organizations. The Army made an initial                                 transformation by positioning assets to support our missions,
investment in network operations (NetOps) capabilities in                          Soldiers, civilians and their families better. The BRAC 2005
FY 2009. This investment provided significant resources                            also accommodates the rebasing of overseas units within
to close computer network defense gaps in the CONUS                                the GDPR basing strategy, and divests an accumulation
network and standardize critical network management tools                          of installations that are either no longer relevant or are less
to facilitate the further federation and consolidation of the                      effective in supporting a joint and expeditionary Army.
LWN. The Army will continue to support the procurement
and deployment of command and control NetOps                                       In partnership with its sister services, the Army is using
capabilities in FY 2010.                                                           BRAC 2005 to transform RC infrastructure to create more
                                                                                   operational opportunities for joint training and deployment.
Developing Force Generation Platforms in Support                                   This transformation will create efficiencies in core Army
of ARFORGEN                                                                        business processes.

Two deployment infrastructure projects were executed in                            Under BRAC 2005, the Army closes 13 AC installations,
FY 2009 both projects support the flagships of readiness14                         387 RC installations, and eight leased facilities.
concept using grow the Army funding. The first project, a                          Additionally, BRAC 2005 realigns 53 installations or
railhead improvement project at Fort Lewis, improves rail                          functions and enables the Army to establish multi-
out-loading of vehicles, ammunition, and other cargo. The                          component headquarters, joint and Army training centers
upgrade at the rail interchange yard increases throughput                          of excellence, joint bases, joint power projection platforms,
of Army equipment and cargo from 180 railcars to 240                               a human resources center of excellence and joint technical
railcars per day. This growth facilitates meeting deployment                       and research facilities. To accommodate the relocating units
timelines to Europe, Africa, and the Middle East when ship                         from the closing RC installations, BRAC 2005 authorizes
loading occurs at Norfolk, Virginia, Fort Lewis’ designated                        125 new multi-component armed forces reserve centers and
                                                                                   realigns the USAR command and control structure.


12
  “The ability to switch automatically, without human intervention, to a redundant or standby computer server or system upon the failure or abnormal
termination of the previously active application, server, or system.” Definition provided by Army CIO/G-6 on November 4, 2009.
13
   Austere Challenge is an annual joint exercise that enables U.S. European Command service components to plan and execute full spectrum operations as a
joint task force headquarters. Found at http://www.army.mil/standto/archive/2009/05/22/ on November 10, 2009.
14
  Installations serve as flagships of readiness supporting Soldiers where they live, work, train, mobilize and deploy. Found at http://www.army.mil/institution/
leaders/modplan/2007/AMP07 AnnexF.pdf on October 26, 2009


18 Fiscal Year 2009 United States Army Annual Financial Statement
A Soldier checks equipment on a CH-47
Chinook helicopter at Entebbe airfield.




                                          General Fund and Working Capital Fund




                                           19
The BRAC 2005 is more than three-times larger than the           to in-source 7,162 positions in FY 2010, and is programmed
four previous Army BRAC rounds combined. The Army                to in-source 11,084 positions from FY 2011 through
is in the fourth year of the six-year BRAC 2005 execution        FY 2015. Most of these functions are closely associated
window and continues to implement its $18 billion portion        with inherently-governmental functions, and 3,988 are
(53 percent) of the overall DoD BRAC program aggressively.       acquisition related. This exceeds the Secretary of Defense’s
The Army developed 102 business plans to define the BRAC         goals for all years from FY 2010 through FY 2015.
2005 Commission recommendations, further including
more than 1,100 actions. These actions represent the
requirements to achieve full implementation. A majority of       Implementing Business Transformation Initiatives
the BRAC 2005 actions are dependent on construction at           The Army actively advanced along its business
gaining installations, with 75 percent of the total resources    transformation path in FY 2009. The spearhead for
dedicated to funding 324 major construction projects             business transformation is the Army’s Enterprise Task Force
valued at $14 billion. In FY 2009, the Army awarded 88           (ETF). The ETF was formed to ensure strategic alignment,
construction projects valued at $3.7 billion, adding to the      continuity of effort, and enterprise prioritization and to
150 projects already awarded in FY 2006 through FY 2008.         facilitate institutional adaptation. The ETF is charged
To date, the Army has completed 57 of these projects. The        with achieving three objectives through institutional
Army also completed 175 National Environmental Policy            adaptation: 1) Improvement of the ARFORGEN process;
Act actions, closed 4 active installations and 22 USAR           2) Adoption of an enterprise approach by creating a unified
centers and disposed of 1,160 excess acres from BRAC 2005        set of functionally aligned and inclusive senior collaborative
properties.                                                      forums, embedding best for the Army thinking, creating a cost
                                                                 and performance culture and implementing an enhanced
The program is on track to meet the September 2011               assessment capability to support our most senior decision
deadline. With over 250 construction projects still to be        makers; and 3) Reform of requirements and resource
completed, and over 800 unit or activity moves remaining,        processes. As an important step forward, in FY 2009 the
successful execution of BRAC 2005 remains an Army                generating force began aligning functionally into four core
leadership priority.                                             enterprises, each with its own senior coordination and
                                                                 advisory forum. This alignment is intended to improve the
In-sourcing program                                              management and synchronization of Title 10 functions.

According to the accounting system, contracted services          The Army is reviewing every one of its core business
comprise a growing proportion of the Army’s top line,            processes to support its forces better, to reduce waste, and
growing from about $20 billion in constant dollars prior to      to improve quality in every aspect of its activities. The
the September 11 attacks, to over $60 billion in FY 2009         Army is using the Lean Six Sigma (LSS) approach to
constant dollars today. There is a consensus at the strategic    achieve these aims. The ultimate goal is to take a holistic
level that the Army’s reliance on contractors is out of          view of leadership, problem-solving and decision-making
balance. Specifically, there are concerns that the Army may      mechanisms, synchronize them to better align processes,
have contracted inherently-governmental functions and that       procedures and organizations, resulting in maximized
it has eroded organic intellectual capital required for proper   efficiency and effectiveness across the entire Army.
oversight of contracted work.
                                                                 In FY 2008, the ETF took over management of the Army’s
In response to this challenge, the Army established              ongoing LSS program as part of its overall responsibility
a contractor inventory review process—to identify                to transform the generating force through institutional
appropriate in-sourcing candidates—that was endorsed by          adaptation. The Army chose LSS as its continuous
the Congress and which set the standard for other DoD            process improvement (CPI) methodology. Lean focuses
components. To date, this process has identified about           on removing waste, while Six Sigma reduces variation and
41,000 positions performing tasks closely associated with        produces a consistently reliable product, thereby increasing
inherently-governmental functions. In FY 2009, the Army          quality. The Army selected LSS because its methodology
saved $41 million by in-sourcing more than 900 core-             is applicable to the vast majority of Army process-
governmental functions to Army civilians. The Army plans         improvement opportunities. It also provides a common


20 Fiscal Year 2009 United States Army Annual Financial Statement
business lexicon that both increases the business acumen                         processes. This approach will enable the Army to achieve its
of the workforce and creates a common framework within                           readiness and performance objectives more efficiently. To
which to discuss, report and approach process improvement.                       support this effort, the Army is executing aggressive plans
This commonality is critical to leveraging and replicating                       to provide new top-notch education and training programs
work done by one individual or an entire organization.                           for flag officers and senior civilians to give them the business
Progress in FY 2009 validated the Army’s approach to CPI.                        acumen necessary to lead the Army enterprise.

To this end, in FY 2009 the Army trained 67 Master Black
Belts, 540 Black Belts, 1,053 Green Belts15 and completed                        Conclusion
1,326 LSS projects. These projects have resulted in freeing                      The Army is involved in a difficult but essential
up human capital for more compelling needs, providing                            transformation. It is simultaneously and significantly
better decision making aids for senior leaders, and more                         increasing its permanent end strength; accelerating
efficiently applying constrained resources throughout the                        formation of new BCTs; converting the remaining legacy
force.                                                                           force to modular designs; modernizing equipment, which
                                                                                 includes fielding improved weapons systems; and carrying
Additionally, the Army continues to develop and field                            out the most significant restationing in decades. It is doing
modern and efficient system solutions that streamline                            all this while at war. To support these efforts, the Army’s
various business processes including financial, real property,                   financial managers are balancing resources among a myriad
and cost and accounting across the enterprise. The General                       of competing, but critical, demands.
Fund Enterprise Business System (GFEBS) is the centerpiece
of this effort as it transforms business processes to enable                     Implementing the Chief of Staff’s four imperatives to
better-informed decisions, better resource management,                           bring the Army back into balance will take several years,
and better support of the warfighter. The GFEBS integrates                       considerable resources and the continued support of the
funding, real property management, financial, cost, and                          Congress and the American people. The challenge is to
related output and performance data from functions and                           establish balance between current readiness and future
organizations across the Army. The GFEBS is a Web-based                          investments, while keeping risk at moderate levels as the
system with real-time visibility of data for the AC, the                         Army supports its global commitments and maintains
ARNG, and the USAR. This solution will enable the Army                           people programs to improve the quality of life for our
to move to a cost and performance culture. The GFEBS                             Soldiers and their families. The resources and support
remains on-schedule and on-budget to be completed in                             provided in FY 2010, and beyond, will determine whether
FY 2012. During FY 2009, the Army deployed GFEBS                                 the Army can continue to accomplish its mission, maintain
functionality to users at Fort Jackson, Fort Stewart, Fort                       the momentum of key programs, accelerate critical aspects of
Benning, headquarters (HQ), the Southeast Region of                              transformation, and prepare Soldiers to deal with whatever
Installation Management Command, and certain users at
                                                                                 they may face today and tomorrow.
HQ TRADOC, HQ Forces Command, HQ Department of
the Army, and the Defense Finance and Accounting Service.


                                                                                                                                                    General Fund and Working Capital Fund
                                                                                 Everything the Army does is directly tied to enabling
                                                                                 Soldiers to continue to fight and win the nation’s wars.
The Army is also working to establish a cost and                                 The Army owes its Soldiers the very best, and the financial
performance culture in which leaders understand the full                         management community remains dedicated to serving them
cost of the capabilities they provide better and incorporate                     as they serve our nation.
cost considerations in their planning and decision making




15
     The terms Master Black Belt, Black Belt, and Green Belt represent ranks used by the LSS Program.


                                                                                                                                                     21
Analysis of Financial Statements                                             GF Financial Results and Balance Sheet
and Stewardship Information                                                  The Army GF balance sheet includes total assets of
As discussed in the accompanying independent auditor’s                       $338.8 billion. Two asset categories, Fund Balance with
report, longstanding financial management challenges                         Treasury and General Property, Plant and Equipment
prevent the Army from producing auditable financial                          (GPP&E), comprise 86 percent of total assets, with values of
statements for the Army General Fund (GF) or the Army                        $163.4 billion and $128.9 billion, respectively.
Working Capital Fund (WCF). The Army, however,
                                                                             Liabilities primarily consist of $37.4 billion in
continues to work with the DoD to develop sustainable
                                                                             Environmental Liabilities and $15.8 billion in Accounts
business practices and enhanced internal controls that will                  Payable.
improve financial management processes and produce
quality financial management information. These processes
must be supported by compliant business systems and an                       Army WCF Financial Results
effective set of management controls.
                                                                             The Army WCF activities maintain the Army’s combat
                                                                             readiness by providing supplies, equipment, and ordnance
                                                                             necessary to prepare, sustain and reset our forces in the most



Figure 2. Composition of GF Assets and Liabilities
     4%                                                                                                 2%


      10%
                                      Fund Balance with Treasury                         22%                             Environmental Liabilities
                                      General Property, Plant and Equipment                                              Accounts Payable
                         48%          Inventory                                                         53%              Other Liabilities
     38%                              Remaining Assets                                                                   Remaining Liabilities
                                                                                         23%




General Fund Assets                                                             General Fund Liabilities
The GPP&E account increased $17.0 billion due to additions of military equipment (e.g., MRAP, HMMV, Stryker vehicles).
       5%       5%
5%
 Table 12. Select GF Assets and Liabilities                                                  10%
 (Amounts in billions)                Inventory                                                                          Accounts Payable
                                      Fund Balance with Treasury             18%                                         Other Liabilities
                                      General Property, Plant and Equipment
                                                                                                                           Percentage of
                                                                                                                         Military Retirement and
 Asset Type                           Remaining AssetsFY 2009           FY 2008     Change                                FY 2009
                                                                                                                         Other        Assets
                                                                                                                                Federal
                                                                                      72%                                Employment48%  Benefits
 Fund Balance with Treasury
              86%                                          $163.4      $163.3           $0.1
 General Property, Plant and Equipment                      128.9       111.9           17.0                                        38%
 Inventory                                                   34.5        40.1    	       (5.6)                                      10%
 Remaining Assets                                            12.0        10.5             1.5                                        4%
Army Working Capital Fund Assets                                  Army Working Capital Fund Liabilities
 Total Assets                                              $338.8      $325.8          $13.0                                       100%

                                                                                                                           Percentage of
 Liability Type                                          FY 2009               FY 2008               Change              FY 2009 Liabilities
 Environmental Liabilities                                 $37.4                 $42.5           	     ($5.1)                      53%
 Accounts Payable                                            15.8                  14.6                   1.2                      23%
 Other Liabilities                                           15.5                  15.8          	       (0.3)                     22%
 Remaining Liabilities                                        1.3                   1.5          	       (0.2)                      2%
 Total Liabilities                                         $70.0                 $74.4           	     ($4.4)                     100%
 Amounts may not sum due to rounding.


22 Fiscal Year 2009 United States Army Annual Financial Statement
 Table 13. WCF Cash
 (Amounts in millions)                         FY 2007                  FY 2008                           FY 2009
 Collections                                $15,256.7                 $16,352.9                        $16,676.7
 Disbursements                               (14,335.0)                15,934.9                          17,421.0
   Net Outlays                                  $921.7                   $418.0                	          ($744.3)
 Appropriations Received                         627.8                  1,324.4                             545.4
 Transfers Out                                   145.7                  1,450.0                           1,023.0
   Net Cash Transactions                      $1,403.8                   $292.4                	        ($1,221.9)
   Cash Balance                               $2,279.1                 $2,571.4                          $1,349.5
 Amounts may not sum due to rounding.


 Table 14. Net and Accumulated Operating Results by Activity Group
 Operating Results
 (Amounts in millions)                        FY 2007                    FY 2008                          FY 2009
 Industrial Operations NOR            	       ($117.7)                   $158.8                 	          ($31.6)
 Industrial Operations AOR*                    $324.7                    $481.5                           $462.6

 Supply Management NOR                        $489.3                     $411.0                           $226.0
 Supply Management AOR                        $452.6            	         ($56.4)                         $169.6
 * Includes prior-period AOR adjustments.




efficient and cost-effective manner possible. In performing     appropriations, transfers, and withdrawals. Maintaining a
this mission, WCF activities are obligated to control           proper cash balance is dependent on setting rates to recover
and minimize costs. Financial performance is measured           full costs—including prior year losses—accurately projecting
through cash management, net operating results (NOR)            work load and meeting established operational goals.
and accumulated operating results (AOR). Operational
performance is measured by carryover, stock availability, and   The WCF ended FY 2009 with a cash balance of
production.                                                     $1,349.5 million, $364.8 million above the 10-day cash
                                                                level of $984.7 million. The WCF cash balance will return to
                                                                a balance closer to the 10-day level when operations in Iraq
Cash Management                                                 and Afghanistan decline, and payments associated with the
                                                                delivery of replacement stocks and the repairs of spares are
The current balance of funds with Treasury equals the           higher than inventory sales.
beginning of the fiscal year amount plus the cumulative
fiscal-year-to-date amounts of collections, appropriations      Table 13 shows an overall growth in cash from both
and transfers-in, minus the cumulative fiscal-year-to-date      operations and direct appropriations offset by transfers out.
amounts of disbursements, withdrawals and transfers-out.        The WCF received direct appropriations for war reserve


                                                                                                                                  General Fund and Working Capital Fund
The WCF is required to maintain a positive cash balance         materiel, inventory augmentation, replacement of inventory
to prevent an Antideficiency Act violation under 31 U.SC,       combat losses, and higher fuel costs. Transfers were made
§ 1517(a), Prohibited obligations and expenditures. Unlike      to several appropriations in support of urgent, unfunded
appropriated funds, the WCF cash balance is not equal           combat requirements. At some point, part or all of the
to outstanding obligations; however, the cash-on-hand at        transfers will require repayment to ensure that the fund has
Treasury must be sufficient to pay bills when due.              sufficient cash on hand.

Sufficient cash levels should be maintained to support seven-
to-ten days of operational disbursements, plus cash adequate    NOR and AOR
cash to meet six months of capital investment program
disbursements, plus the amount of any positive accumulative     The NOR represents the difference between revenues
operating results that is to be returned to customers.          and costs within a fiscal year. The AOR represents the
                                                                aggregate of all recoverable net earnings, including prior-year
The cash balance is primarily affected by cash generated        adjustments, since inception of the WCF. The goal of the
from operations; however, the balance is also affected by       WCF is to establish rates that will bring the AOR to zero in


                                                                                                                                   23
 Table 15. Army WCF Carryover

 (Amounts in millions)                                FY 2007                              FY 2008                               FY 2009
 New Orders                                          $6,850.3                             $6,990.6                              $6,393.1
 Allowable Carryover                                 $2,752.4                             $3,653.7                                     *
 Carryover                                           $3,029.5                             $2,862.1                                     *
 * Amounts not available at time of printing.


Figure 3. Stock Availability (percentage)

90


88


86


84
                                                                                                                      Stock Availability
82                                                                                                                    Target

80         Q1            Q2         Q3          Q4          Q1          Q2          Q3          Q4           Q1          Q2           Q3          Q4


                         FY 2007                                            FY 2008                                       FY 2009
       *4th Quarter FY 2009 percentage not available at time of printing.


 Table 16. Annual Production Throughput*

                                         Pre-War                       FY 2007                       FY 2008                        FY 2009
 Aircraft                                    4                            66                            82                             70
 Helicopter Engines                       <200                          >750                           781                            817
 Bradleys                                  144                          >850                          1,038                          1,384
 HMMWVs                                   <100                          9,344                         9,471                          9,813
 Firefinder Radars                          <1                           49                            50                             30
 Track Shoes                             120,000                       141,000                       250,660                        110,293
  * Throughput is the number of weapon systems completed for any given year.
  Aircraft and radar decreases in FY 2009 are due to fewer production requirements. Track shoe production levels have decreased from FY 2008
  to FY 2009 due to a decrease in expected operational levels in Theater for the M1 and Bradley Fighting Vehicles. This is a result of the customer
  decreasing the requirements and is not related to any production issues.


the fiscal year. An activity group’s financial performance is                  Stock Availability
measured by comparing actual results to the budget’s NOR
and AOR.                                                                       Stock availability measures the percentage of requisitions
                                                                               filled within established timeframes. The DoD and Army
                                                                               have set a target of 85 percent stock availability. Since
Carryover                                                                      FY 2005, stock availability has remained high due to
                                                                               sufficient hardware funding levels, more accurate customer-
Carryover is the dollar amount of orders accepted from                         demand forecasts, and inventory levels built to support
customers that have not been completed by the end of a                         combat operations.
fiscal year. It is a normal part of doing business; these orders
enable the industrial workforce to maintain continuity in
production operations. The Army expects carryover for
FY 2009 to be less than the maximum allowable amount.

24 Fiscal Year 2009 United States Army Annual Financial Statement
Production                                                           equipment completely. Due to actions taken in support
                                                                     of wartime requirements, the industrial operations activity
Although the industrial operations activity group is                 group has dramatically increased depot production over pre-
comprised of 13 activities, the preponderance of workload            war levels, as illustrated in Table 16.
is performed at the five hard-iron maintenance depots.
Major operations in Iraq and Afghanistan are placing                 The aircraft and radar decreases shown in FY 2009 of
tremendous demands on equipment. As a result of higher               Table 16 are due to fewer production requirements. Track
operating tempo, rough desert environments, and limited              shoe production levels decreased from FY 2008 to FY 2009
depot maintenance available in theater, operational fleets           due to a decrease in expected operational levels for the M1
are aging at a far greater pace than expected. To counter            and Bradley fighting vehicles. The drop in production is a
this, the Army established a reset program designed to               result of the customer decreasing the requirements and is not
reverse
      4%the effects of combat stress on equipment and                                       2%issues.
                                                                     related to any production
to prepare equipment for future missions. Industrial
operations received $2.6 billion in reset orders, representing
       10%
approximately   40 percent of FY 2009 new orders.                    AWCF Balance Sheet
                                  Fund Balance with Treasury                   22%                         Environmental Liabilities
                                  General Property, Plant and Equipment                                    Accounts Payable
The Army’s depots 48%
                   and their efforts  to partner with industry
                                  Inventory                         The AWCF balance sheet  53%shows assetsOther
                                                                                                            exceeding
                                                                                                                 Liabilities
are critical                      Remaining   Assets
      38% to the entire reset effort. These repair programs
                                                                    $27.0 billion, primarily in Inventory and  Fund Balance
                                                                                                           Remaining             with
                                                                                                                       Liabilities
                                                                              23%
must continue through the end of the current conflict                Treasury. Liabilities consist of Accounts Payable and Other
and for at least an additional three years to reconstitute           Liabilities, which includes payroll, benefits, accrued annual
                                                                     leave, and workman’s compensation.
General Fund Assets                                                    General Fund Liabilities
 Figure 4. AWCF Assets and Liabilities

        5%      5%
5%
                                                                                    10%
                                    Inventory                                                                 Accounts Payable
                                    Fund Balance with Treasury                18%                             Other Liabilities
                                    General Property, Plant and Equipment                                     Military Retirement and
                                    Remaining Assets                                                          Other Federal
                                                                                            72%               Employment Benefits
                    86%




Army Working Capital Fund Assets                                 Army Working Capital Fund Liabilities

 Table 17. AWCF Assets and Liabilities
 (Amounts in millions)
                                                                                                                   Percentage of
 Asset Type                                           FY 2009                FY 2008             Change            FY 2009 Assets


                                                                                                                                        General Fund and Working Capital Fund
 Inventory                                           $23,164.3              $20,279.7            $2,884.6               86%
 Fund Balance with Treasury                            1,349.5                2,571.4             (1,221.9)             5%
 General Property, Plant and Equipment                 1,260.2                1,097.7                162.5              5%
 Remaining Assets                                      1,278.1                  876.2                401.9              5%
 Total Assets                                        $27,052.2              $24,825.0            $2,227.2              100%

                                                                                                                     Percentage
                                                                                                                     of FY 2009
 Liability Type                                       FY 2009               FY 2008              Change               Liabilities
 Accounts Payable                                     $1,690.9              $1,031.5              $659.4                 72%
 Other Liabilities                                       422.1                 443.0                (20.9)               18%
 Military Retirement and Other Federal
 Employee Benefits                                       231.2                 254.5                 (23.3)              10%
 Total Liabilities                                    $2,344.2              $1,729.0               $615.2                100%
 Amounts may not sum due to rounding.



                                                                                                                                         25
Required Supplementary Stewardship                                            programs are classified as basic research, applied research,
Information (RSSI) and Required                                               and development.
Supplementary Information (RSI)
                                                                              Stewardship information is also comprised of deferred
Stewardship information relates to expenditures involving                     maintenance on real property and military equipment.
a substantial investment by the Army for the benefit of                       Real property deferred maintenance relates to maintenance
the nation. When made, these expenditures are treated as                      needed on Army facilities that has not been funded. At
expenses in the financial statements. Since these expenses are                the end of FY 2009, the Army reported $32.0 million in
intended to provide long-term benefits to the public, they                    deferred real property maintenance on facilities with a
are reported as supplemental information in the financial                     replacement value of $205.0 million. Real property deferred
statements.16 There are four areas on which the Army                          maintenance totals approximately 16 percent of estimated
reports stewardship information: 1) nonfederal physical                       replacement value of the facilities requiring maintenance.
property; 2) investments in research and development; 3)                      The nine major categories of military equipment deferred
deferred maintenance; and 4) heritage assets and stewardship                  maintenance totaled approximately $1,544.1 million at
land.                                                                         the end of FY 2009. Combat vehicles represented the
                                                                              largest category of deferred equipment maintenance at
Investment in nonfederal physical property is an expense                      approximately $428.3  million.
incurred by the Army for the purchase, construction or
major renovation of physical property owned by state and                      Heritage assets are comprised of property, plant and
local governments. An example of this type of investment                      equipment (PP&E) of historical, natural, cultural,
is funding provided to the ARNG for assistance in the                         educational, or artistic significance. Stewardship land is land
construction of an ARNG facility on state land. Since the                     other than that acquired for, or in connection with, general
facility is construction on state land, it is the property of                 PP&E. The Army’s heritage assets are comprised of buildings
the state; therefore, the Army cannot report it as an asset.                  and structures, archeological sites, museums, and museum
However, since the funds were used to acquire a mission-                      collection items.
related state facility, the outlay is tracked as an investment in
nonfederal physical property.                                                 Detailed information concerning most stewardship
                                                                              information may be found in the RSSI and the RSI sections
Investments in research and development are based on                          of this report. Heritage assets and stewardship land are no
research and development outlays (expenditures). Outlays                      longer reported in the RSI; they are now required to be
are used because current Army accounting systems are                          reported in a note to the financial statements.17 Additional
unable to capture and summarize costs in accordance with                      information on heritage assets and stewardship land may be
federal accounting standards. Research and development                        found in Note 10 of the Army General Fund statements.




16
  Federal Accounting Standards Advisory Board. Statement of Federal Financial Accounting Concepts and Standards (June 30, 2008). Statement of Federal
Financial Accounting Standards 8: Supplementary Stewardship Reporting, page 740. Found at http://www.fasab.gov/pdffiles/codification_report2008.pdf on
November 6, 2009.
17
  ibid. Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, page 1149 and Technical Release 9:
Implementation Guide for Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, page 1544. Found at http://
www.fasab.gov/pdffiles/sffas_29.pdf on November 9, 2009.


26 Fiscal Year 2009 United States Army Annual Financial Statement
     Limitations
     Limitations of the Financial Statements
     The financial statements have been prepared to report the
     financial position and results of operations for the entity,
     pursuant to the requirements of Title 31, United States
     Code, section 3515(b).

     While the statements have been prepared from the books
     and records of the entity, in accordance with the formats
     prescribed by the Office of Management and Budget, the
     statements are in addition to the financial reports used
     to monitor and control budgetary resources which are
     prepared from the same books and records.

     The statements should be read with the realization that they
     are for a component of the United States Government, a
     sovereign entity.




General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   27
 Department of Defense - Department of the Army

 CONSOLIDATED BALANCE SHEET
                                                                                                               Restated
 As of September 30, 2009 and 2008 (Amounts in thousands)                         2009 Consolidated        2008 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
      Fund Balance with Treasury (Note 3)                                     $           163,425,416      $       163,322,471
      Investments (Note 4)                                                                      3,241                    3,532
      Accounts Receivable (Note 5)                                                            530,847                  499,668
      Other Assets (Note 6)                                                                 1,401,723                  430,932
      Total Intragovernmental Assets                                          $           165,361,227      $       164,256,603


 Cash and Other Monetary Assets (Note 7)                                                    1,965,004                2,418,049
 Accounts Receivable,Net (Note 5)                                                             635,509                  619,471
 Loans Receivable (Note 8)                                                                            93                       0
 Inventory and Related Property,Net (Note 9)                                               34,497,598               40,134,982
 General Property, Plant and Equipment,Net (Note 10)                                      128,946,696              111,908,995
 Other Assets (Note 6)                                                                      7,439,337                6,495,961
 TOTAL ASSETS                                                                 $           338,845,464      $       325,834,061


 LIABILITIES (Note 11)
 Intragovernmental:
      Accounts Payable (Note 12)                                              $             1,717,109      $         1,563,994
      Debt (Note 13)                                                                            1,060                     833
      Other Liabilities (Note 15 & 16)                                                      2,988,874                3,647,103
      Total Intragovernmental Liabilities                                     $             4,707,043      $         5,211,930


 Accounts Payable (Note 12)                                                                14,116,803               13,022,675
 Military Retirement and Other Federal                                                      1,325,170                1,472,383
 Employment Benefits (Note 17)
 Environmental and Disposal Liabilities (Note 14)                                          37,374,583               42,475,466
 Loan Guarantee Liability (Note 8)                                                              2,436                    2,337
 Other Liabilities (Note 15 and Note 16)                                                   12,550,320               12,240,852
 TOTAL LIABILITIES                                                            $            70,076,355      $        74,425,643


 NET POSITION
 Unexpended Appropriations - Other Funds                                                  150,540,142              152,794,482
 Cumulative Results of Operations - Earmarked Funds                                            57,671                   52,946
 Cumulative Results of Operations - Other Funds                                           118,171,296               98,560,990
 TOTAL NET POSITION                                                           $           268,769,109      $       251,408,418


 TOTAL LIABILITIES AND NET POSITION                                           $           338,845,464      $       325,834,061


 The accompanying notes are an integral part of these financial statements.




28 Fiscal Year 2009 United States Army Annual Financial Statement
Department of Defense - Department of the Army

CONSOLIDATED STATEMENT OF NET COST
                                                                                                               Restated
As of September 30, 2009 and 2008 (Amounts in thousands)                     2009 Consolidated             2008 Consolidated
Program Costs
Gross Costs                                                              $             218,783,106     $            201,494,224
(Less: Earned Revenue)                                                                 (12,397,729)                  (9,927,425)
Net Program Costs                                                        $             206,385,377     $            191,566,799
Net Cost of Operations                                                   $             206,385,377     $            191,566,799


The accompanying notes are an integral part of these financial statements.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   29
 Department of Defense - Department of the Army

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 As of September 30, 2009 and 2008                        2009 Earmarked          2009 All Other               2009                  2009
 (Amounts in thousands)                                        Funds                 Funds                 Eliminations           Consolidated
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                         $        52,946       $     98,560,990     $                  0   $       98,613,936
 Beginning balances, as adjusted                            $        52,946       $     98,560,990     $                  0   $       98,613,936
 Budgetary Financing Sources:
      Other adjustments (rescissions, etc.)                 $                 0   $                0   $                  0   $                  0
      Appropriations used                                                     0        229,618,909                        0          229,618,909
      Nonexchange revenue                                            12,308                        0                      0               12,308
      Donations and forfeitures of cash and cash
      equivalents                                                     6,426                        0                      0                6,426
      Transfers-in/out without reimbursement                                  0          1,023,000                        0            1,023,000
      Other budgetary financing sources                                       0                    0                      0                      0
 Other Financing Sources:
      Donations and forfeitures of property                                   0                    0                      0                      0
      Transfers-in/out without reimbursement (+/-)                            0         (2,462,951)                       0           (2,462,951)
      Imputed financing from costs absorbed by others                         0          1,067,410                        0            1,067,410
      Other (+/-)                                                    (1,114)            (3,263,580)                       0           (3,264,694)
 Total Financing Sources                                    $        17,620       $    225,982,788     $                  0   $      226,000,408
 Net Cost of Operations (+/-)                                        12,895            206,372,482                        0          206,385,377
 Net Change                                                 $         4,725       $     19,610,306     $                  0   $       19,615,031
 Cumulative Results of Operations                           $        57,671       $    118,171,296     $                  0   $      118,228,967


 UNEXPENDED APPROPRIATIONS
 Beginning Balances                                         $                 0   $    153,860,352     $                  0   $      153,860,352
 Correction of Errors                                                         0         (1,065,870)                       0           (1,065,870)
 Beginning balances, as adjusted                            $                 0   $    152,794,482     $                  0   $      152,794,482
 Budgetary Financing Sources:
      Appropriations received                               $                 0   $    228,203,093     $                  0   $      228,203,093
      Appropriations transferred-in/out                                       0          4,052,068                        0            4,052,068
      Other adjustments (rescissions, etc)                                    0         (4,890,592)                       0           (4,890,592)
      Appropriations used                                                     0       (229,618,909)                       0         (229,618,909)
 Total Budgetary Financing Sources                          $                 0   $     (2,254,340)    $                  0   $       (2,254,340)
 Unexpended Appropriations                                                    0        150,540,142                        0          150,540,142
 Net Position                                               $        57,671       $    268,711,438     $                  0   $      268,769,109


 The accompanying notes are an integral part of these financial statements.




30 Fiscal Year 2009 United States Army Annual Financial Statement
Department of Defense - Department of the Army

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2009 and 2008                        2008 Earmarked          Restated 2008           2008           Restated 2008
(Amounts in thousands)                                        Funds              All Other Funds     Eliminations       Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                        $         24,621       $     68,459,488    $          0   $       68,484,109
Beginning balances, as adjusted                           $         24,621       $     68,459,488    $          0   $       68,484,109
Budgetary Financing Sources:
     Other adjustments (rescissions, etc.)                $                  0   $              0    $          0   $                   0
     Appropriations used                                                     0        214,010,532               0          214,010,532
     Nonexchange revenue                                            10,843                      0               0               10,843
     Donations and forfeitures of cash and cash
     equivalents                                                     7,325                      0               0                7,325
     Transfers-in/out without reimbursement                                  0          1,450,000               0            1,450,000
     Other budgetary financing sources                                       0                  0               0                       0
Other Financing Sources:
     Donations and forfeitures of property                                   0                  0               0                       0
     Transfers-in/out without reimbursement (+/-)                            0          2,578,457               0            2,578,457
     Imputed financing from costs absorbed by others                         0            948,408               0              948,408
     Other (+/-)                                                    26,346              2,664,715               0            2,691,061
Total Financing Sources                                   $         44,514       $    221,652,112    $          0   $      221,696,626
Net Cost of Operations (+/-)                                        16,189            191,550,610               0          191,566,799
Net Change                                                $         28,325       $     30,101,502    $          0   $       30,129,827
Cumulative Results of Operations                          $         52,946       $     98,560,990    $          0   $       98,613,936


UNEXPENDED APPROPRIATIONS
Beginning Balances                                        $                  0   $    124,485,255    $          0   $      124,485,255
Correction of Errors                                                         0                  0               0                       0
Beginning balances, as adjusted                           $                  0   $    124,485,255    $          0   $      124,485,255
Budgetary Financing Sources:
     Appropriations received                              $                  0   $    231,149,155    $          0   $      231,149,155
     Appropriations transferred-in/out                                       0         14,645,498               0           14,645,498
     Other adjustments (rescissions, etc)                                    0         (3,474,894)              0           (3,474,894)
     Appropriations used                                                     0       (214,010,532)              0         (214,010,532)
Total Budgetary Financing Sources                         $                  0   $     28,309,227    $          0   $       28,309,227
Unexpended Appropriations                                                    0        152,794,482               0          152,794,482
Net Position                                              $         52,946       $    251,355,472    $          0   $      251,408,418


The accompanying notes are an integral part of these financial statements.




                                 General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report       31
 Department of Defense - Department of the Army

 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                               Non-Budgetary Financing
                                                                     Budgetary Financing Accounts                      Accounts
 As of September 30, 2009 and 2008 (Amounts in thousands)         2009 Combined       2008 Combined        2009 Combined    2008 Combined
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                 $     40,552,960     $     32,258,188     $         318    $            590
 Recoveries of prior year unpaid obligations                           24,785,208           16,325,368                 0                   0
 Budget authority
      Appropriation                                                   228,221,133          231,167,292                 0                   0
      Borrowing authority                                                       0                    0               193                 590
      Spending authority from offsetting collections
          Earned
            Collected                                                  25,547,587           22,642,208                18           27,256
            Change in receivables from Federal sources                    834,250               90,385                 0                0
          Change in unfilled customer orders
            Advance received                                              170,291              246,196                 0                0
            Without advance from Federal sources                          194,781            2,836,858                 0                0
      Subtotal                                                   $    254,968,042     $    256,982,939     $         211    $      27,846
 Nonexpenditure transfers, net, anticipated and actual                  5,075,068           16,095,498                 0                0
 Permanently not available                                             (4,890,592)          (3,474,895)                0          (26,628)
 Total Budgetary Resources                                       $    320,490,686     $    318,187,098     $         529    $       1,808

Status of Budgetary Resources:
Obligations incurred:
     Direct                                                      $    248,582,438     $    249,952,967     $         239    $       1,491
     Reimbursable                                                      29,042,670           27,681,171                 0                0
     Subtotal                                                    $    277,625,108     $    277,634,138     $         239    $       1,491
Unobligated balance:
     Apportioned                                                       38,032,024           36,283,194               290              318
     Exempt from apportionment                                             54,216                  125                 0                0
     Subtotal                                                    $     38,086,240     $     36,283,319     $         290    $         318
Unobligated balance not available                                       4,779,338            4,269,641                 0               (1)
Total status of budgetary resources                              $    320,490,686     $    318,187,098     $         529    $       1,808
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1              $    144,392,278     $    116,374,290     $           0    $             0
     Less: Uncollected customer payments
     from Federal sources, brought forward, October 1                  (22,571,944)         (19,644,699)               0                0
     Total unpaid obligated balance                              $    121,820,334     $      96,729,590    $           0    $           0
Obligations incurred net (+/-)                                        277,625,108          277,634,138               239            1,491
Less: Gross outlays                                                  (253,549,483)        (233,290,781)             (239)          (1,491)
Less: Recoveries of prior year  unpaid obligations, actual             (24,785,208)         (16,325,368)               0                0
Change in uncollected customer
payments from Federal sources (+/-)                                    (1,029,031)          (2,927,244)                0                  0
Obligated balance, net, end of period
     Unpaid obligations                                          $    143,682,695     $    144,392,278     $           0    $             0
     Less: Uncollected customer payments
     from Federal sources (-)                                         (23,600,975)         (22,571,943)                0                  0
     Total, unpaid obligated balance, net, end of period         $    120,081,720     $    121,820,335     $           0    $             0

Net Outlays:
Gross outlays                                                         253,549,483          233,290,781               239            1,491
Less: Offsetting collections                                          (25,717,878)         (22,888,403)              (18)         (27,257)
Less: Distributed Offsetting receipts                                    (416,926)            (674,720)                0                0
Net Outlays                                                      $    227,414,679     $    209,727,658     $         221    $     (25,766)

The accompanying notes are an integral part of these financial statements.




32 Fiscal Year 2009 United States Army Annual Financial Statement
Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General
Fund, as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the
Army General Fund in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board (FASAB); the Office of Management and Budget
(OMB) Circular A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management
Regulation (FMR). The accompanying financial statements account for all resources for which the Army General Fund is
responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated and
reported in such a manner that it is not discernable.

The Army General Fund is unable to fully implement all elements of USGAAP and the OMB Circular A-136, due to
limitations of financial and nonfinancial management processes and systems that support the financial statements. The
Army General Fund derives reported values and information for major asset and liability categories largely from nonfinancial
systems, such as inventory systems and logistic systems. These systems were designed to support reporting requirements
for maintaining accountability over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with USGAAP. The Army General Fund continues to implement process and system improvements
addressing these limitations.

The Army General Fund currently has 14 auditor identified financial statement material weaknesses: (1) Financial
Management Systems, (2) Accounting Adjustments, (3) Abnormal Account Balances, (4) Intragovernmental Transactions
and Eliminations, (5) Fund Balance with Treasury, (6) Accounts Receivable, (7) Inventory and Related Property, (8) General
Property, Plant and Equipment, (9) Accounts Payable, (10) Environmental Liabilities, (11) Statement of Net Cost, (12)
Reconciliation of Net Cost of Operations to Budget, (13) Statement of Budgetary Resources, and (14) Contingency Payment
Audit Trails.


1.B.	 Mission of the Reporting Entity
The Army mission is to support the National Security and Defense Strategies by providing well-trained, well-led, and well-
equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined in Title 10
of the U.S. Code, to preserve the peace and security, and provide for the defense of the U.S., the Territories, Commonwealths,
and Possessions of the U.S., and any areas occupied by the U.S.; support national policies; implement national objectives; and
overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 234-year life of the Army, but the environment and nature of conflict have
undergone many changes over that same time, especially with the Overseas Contingency Operations. This has required that
the Army simultaneously transform the way that it fights, trains, and equips its soldiers. This transformation is progressing
rapidly, but it must be taken to its full conclusion if the Army is to continue to meet the Nation’s domestic and international
security obligations today and into the future.


1.C.	 Appropriations and Funds
The Army General Fund receives appropriations and funds as general, trust, special, and deposit funds. The Army General
Fund uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction. These general funds also include


                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   33
supplemental funds enacted by the American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to
Recovery Act appropriated funds are available on-line at http://www.defenselink.mil/recovery/.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are used
to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated as earmarked
funds. Earmarked funds are financed by specifically identified revenues, required by statute to be used for designated activities,
benefits or purposes, and remain available over time. The Army General Fund is required to separately account for and report
on the receipt, use and retention of revenues and other financing sources for earmarked funds.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They
are not the Army General Fund’s funds, and as such, are not available for the Army General Fund’s operations. The Army
General Fund is acting as an agent or a custodian for funds awaiting distribution.

The Army General Fund is a party to allocation transfers with other federal agencies as a transferring (parent) entity or
receiving (child) entity. Allocation transfers are an entity’s legal delegation of authority to obligate budget authority and
outlay funds to another entity. Generally, all financial activity related to allocation transfers (e.g. budget authority, obligations,
outlays) is reported in the financial statements of the parent entity. Exceptions to this general rule apply to specific funds for
which OMB has directed that all activity be reported in the financial statements of the child entity. These exceptions include
all U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifically designated by
OMB.

Additionally, the Army General Fund receives allocation transfers from certain funds meeting the OMB exception and all
related activity is included in the Army General Fund’s financial statements: the Executive Office of the President (EOP).

The Army General Fund receives allocation transfers for the following agencies: Federal Highway Administration and the U.S.
Forestry Service.

As a parent, Army General Fund allocates funds to the Department of Agriculture and the Department of Transportation for
Active Army and Army National Guard.


1.D.	 Basis of Accounting
The Army General Fund’s financial management systems are unable to meet all full accrual accounting requirements. Many
of the Army General Fund’s financial and nonfinancial feeder systems and processes were designed and implemented prior
to the issuance of USGAAP. These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of Army General Fund’s financial and nonfinancial legacy systems were
designed to record information on a budgetary basis.

The financial statements and supporting trial balances are compiled from the underlying financial data and trail balances. The
underlying data is largely derived from budgetary transactions (obligations, disbursements, and collections), from nonfinancial
feeder systems, and accruals made for major items such as payroll expenses, accounts payable, and environmental liabilities.
Some of the lower level trial balances may reflect known abnormal balances resulting largely from business and system
processes. At the consolidated level these abnormal balances may not be evident. Disclosures of abnormal balances are made
in the applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on the
United States Standard General Ledger (USSGL). Until all Army General Fund’s financial and nonfinancial feeder systems
and processes are updated to collect and report financial information as required by USGAAP, Army General Fund’s financial
data will be derived from budgetary transactions, data from nonfinancial feeder systems, and accruals.


34 Fiscal Year 2009 United States Army Annual Financial Statement
1.E.	 Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as financing sources for general funds that expire annually,
on a multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Army General Fund recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full-cost pricing is Army General Fund’s standard policy for services
provided as required by OMB Circular A-25, User Charges. The Army General Fund recognizes revenue when earned within
the constraints of its current system capabilities. In some instances, revenue is recognized when bills are issued.

The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Note 21, “Reconciliation of Net Cost of Operations to
Budget.” The U.S. has cost sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S.
troops are stationed, or where the U.S. Fleet is in a port.


1.F.	    Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental liabilities, and
unbilled revenue. In the case of Operating Materiel and Supplies (OM&S), operating expenses are generally recognized when
the items are purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses.
Under the consumption method, OM&S would be reported as expenses when consumed. Due to system limitations, in some
instances expenditures for capital and other long-term assets may be recognized as operating expenses. The Army General
Fund continues to implement process and system improvements to address these limitations.


1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements
in order to prevent overstatement for business with itself. However, the Army General Fund cannot accurately identify
intragovernmental transactions by customer because Army General Fund’s systems do not track buyer and seller data at
the transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are
adjusted to agree with DoD seller-side balances, and are then eliminated. The volume of intragovernmental transactions is
so large that reconciliations cannot be accomplished effectively. The DoD is developing long-term system improvements to
ensure accurate intragovernmental information, including developing sufficient up-front edits and controls to eliminating the
need for reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and Treasury Financial Manual, Part
2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United States Government,” provide
guidance for reporting and reconciling intragovernmental balances. While Army General Fund is unable to fully reconcile
intragovernmental transactions with all federal agencies, Army General Fund is able to reconcile balances pertaining to
investments in federal securities, Federal Employees’ Compensation Act transactions with the Department of Labor, and
benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report
any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.
Treasury does not allocate such costs to DoD.



                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   35
1.H. 	 Transactions with Foreign Governments and International Organizations
Each year, Army General Fund sells defense articles and services to foreign governments and international organizations
under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.


1.I. 	    Funds with the U.S. Treasury
The Army General Fund’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and
the Department of State’s financial service centers process the majority of the Army General Fund’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks
issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund
Balance with Treasury (FBWT) account. On a monthly basis, FBWT is adjusted to agree with the U.S. Treasury accounts.


1.J. 	 Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments, and
amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent
of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign currency is valued
using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.

The Army General Fund conducts a significant portion of operations overseas. Congress established a special account
to handle the gains and losses from foreign currency transactions for five general fund appropriations: operations and
maintenance, military personnel, military construction, family housing operations and maintenance, and family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of payment and
a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The Army General Fund does not separately
identify currency fluctuation transactions.


1.K.	 Accounts Receivable
Accounts receivable from other federal entities or public include: accounts receivable, claims receivable, and refunds receivable.
Allowances for uncollectible accounts due from the public are based on the estimate of uncollectible accounts receivable from
the public on a percentage of aged receivables by category. The allowance is calculated by using 50% of aged receivables in the
180-day to 2-year category and 100% of aged receivables in the greater than 2-year category. The DoD does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental Business
Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol/07-03.pdf.




36 Fiscal Year 2009 United States Army Annual Financial Statement
1.L. 	 Direct Loans and Loan Guarantees
The Army General Fund operates the Armament Retooling and Manufacturing Support Initiative under Title 10 United States
Code 4551-4555. This loan guarantee program is designed to encourage commercial use of inactive government facilities.
The revenue generated from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments made
after FY 1991.


1.M. 	 Inventories and Related Property
The Army General Fund manages only military or government-specific materiel under normal conditions. Materiel is a
unique term that relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft,
etc., and related spares, repair parts, and support equipment. Items commonly used in and available from the commercial
sector are not managed in Army General Fund materiel management activities. Operational cycles are irregular and the
military risks associated with stock-out positions have no commercial parallel. The Army General Fund holds materiel based
on military need and support for contingencies. The DoD is currently developing a methodology to be used to account for
“inventory held for sale” and “inventory held in reserve for future sale” with a completion date of year-end FY 2010 reporting.

Related property includes OM&S and stockpile materiels. The OM&S, including munitions not held for sale, are valued at
standard purchase price. The Army General Fund uses both the consumption method and the purchase method of accounting
for OM&S. Items that are centrally managed and stored, such as ammunition and engines, are generally recorded using the
consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the
consumption method, Army General Fund uses the purchase method. Under this method, materiel and supplies are expensed
when purchased. During FY 2009 and FY 2008, Army General Fund expensed significant amounts using the purchase
method because the systems could not support the consumption method or management deemed that the item was in the
hands of the end user. This is a material weakness for the DoD and long-term system corrections are in process. Once the
proper systems are in place, these items will be accounted for under the consumption method of accounting.

The Army General Fund determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are
categorized as OM&S rather than military equipment.

The Army General Fund recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal is
greater than the potential scrap value; therefore, the net value of condemned materiel is zero.


1.N. 	 Investments in U.S. Treasury Securities
The Army General Fund reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized over the term of the investment using the effective interest rate method or another
method obtaining similar results. The Army General Fund’s intent is to hold investments to maturity, unless they are needed
to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
securities.

The Army General Fund invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies
by the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of
particular U.S. Treasury securities traded in the government securities market.


1.O.	 General Property, Plant and Equipment
The Army General Fund uses the estimated historical cost for valuing military equipment. The DoD identified the universe of
military equipment by accumulating information relating to program funding and associated military equipment, equipment

                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   37
useful life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition and disposals information.

The DoD’s General Property, Plant and Equipment (PP&E) capitalization threshold is $100 thousand except for real property,
which is $20 thousand. The Army General Fund has not fully implemented the threshold for real property; therefore, DoD is
primarily using the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at historical acquisition cost when
an asset has a useful life of two or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold.
The DoD also requires the capitalization of improvements to existing General PP&E assets if the improvements equal or
exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD
depreciates all General PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Army General Fund provides government property to contractors
to complete contract work. The Army General Fund either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E meets or
exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on Army General Fund’s
Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires Army General Fund to
maintain, in their property systems, information on all property furnished to contractors. These actions are structured to
capture and report the information necessary for compliance with federal accounting standards. The Army General Fund has
not fully implemented this policy primarily due to system limitations.


1.P.	     Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should
be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
goods and services are received. The Army General Fund has not implemented this policy primarily due to system limitations.


1.Q.	 Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When a
lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the current
capitalization threshold, Army General Fund records the applicable asset as though purchased, with an offsetting liability, and
depreciates it. The Army General Fund records the asset and liability at the lesser of the present value of the rental and other
lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair
market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the government’s
incremental borrowing rate at the inception of the lease. The Army General Fund, as the lessee, receives the use and possession
of leased property, for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease
does not substantially transfer all the benefits and risk of ownership. Payments for operating leases are expensed over the lease
term they become payable.

Office space and leases entered into by Army General Fund are the largest component of operating leases and are based on
costs gathered from existing leases, General Services Administration (GSA) bills, and interservice support agreements. Future
year projections use the Consumer Price Index.




38 Fiscal Year 2009 United States Army Annual Financial Statement
1.R. 	 Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain contract
financing payments that are not reported elsewhere on Army General Fund’s Balance Sheet.

The Army General Fund conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
Army General Fund may provide financing payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or services by the
Government. Contract financing payments clauses are incorporated in the contract terms and conditions and may include
advance payments, performance-based payments, commercial advances and interim payments, progress payments based on
cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The Army General Fund has not fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage or stage of completion only for construction of real property, shipbuilding,
and ship conversion, alteration, or repair. Progress payments based on percentage or stage of completion are reported as
Construction in Progress.


1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Army General Fund recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses. The Army General Fund’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle
accidents; medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for Army General Fund’s assets. Consistent with SFFAS No. 6,
“Accounting for Property, Plant and Equipment,” recognition of an anticipated environmental disposal liability begins when
the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5 “Accounting for Liabilities of
Federal Government,” nonenvironmental disposal liabilities are recognized when management decides to dispose of an asset.
The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets when placed into
service. These amounts are not easily distinguishable and are developed in conjunction with environmental disposal costs.


1.T.	     Accrued Leave
The Army General Fund reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick
leave for civilians is expensed as taken. The liabilities are based on current pay rates.


1.U.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

                               General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   39
Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources (including
appropriations, revenue, and gains), since inception. Beginning with FY 1998, the cumulative results of operations also
include donations and transfers in and out of assets that were not reimbursed.


1.V.	    Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally allow
Army General Fund continued use of these properties until the treaties expire. In the event treaties or other agreements are
terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital assets. The
settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments and may be
offset by the cost of environmental cleanup.


1.W. 	 Unexpended Obligations
The Army General Fund obligates funds to provide goods and services for outstanding orders not yet delivered. Unless
the title has passed, the financial statements do not reflect a liability for payment for goods and services not yet delivered.
Unexpended obligations includes both obligations for which goods and services have been delivered (title passed) and
a liability recognized, and obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to as
“Total, unpaid obligated balances, net, end of period.”


1.X. 	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.
Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.


1.Y.	    Significant Events
There are no significant events as of September 30, 2009.


1.Z.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of the Army General Fund and are not recognized on the balance sheet.
Fiduciary activities are reported on the financial statement note schedules.




40 Fiscal Year 2009 United States Army Annual Financial Statement
Note 2.	 Nonentity Assets
 As of September 30                                                          2009                             2008
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                               $                     205,497 $                        816,703
    B. Accounts Receivable                                                                   0                                 0
    C. Total Intragovernmental Assets                           $                     205,497 $                        816,703
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                           $                   1,965,004 $                      2,418,049
    B. Accounts Receivable                                                             21,049                            14,136
    C. Other Assets                                                                          0                                 0
    D. Total Nonfederal Assets                                  $                   1,986,053 $                      2,432,185
 3. Total Nonentity Assets                                      $                   2,191,550 $                      3,248,888
 4. Total Entity Assets                                                          336,653,914                      322,585,173
 5. Total Assets                                                $                338,845,464 $                    325,834,061



Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and reporting
responsibility, but are not available for the Army General Fund’s normal operations.

Nonentity Fund Balance with Treasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi cash,
and Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
appropriate government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for expenditures
on behalf of the Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists
of proceeds from Iraqi oil sales, repatriated assets from the United States and other nations, and deposits from unencumbered
oil-for-food program funds. The deposit funds for seized Iraqi cash and DFI consist of residual amounts only. The Nonentity
Fund Balance with Treasury consists primarily of humanitarian relief and reconstruction funds held for expenditures on behalf
of the Iraqi people.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and collecting
missions, and foreign currency accommodation exchange primarily consisting of the burden sharing for the Republic of Korea.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivable are primarily from canceled year appropriations. These receivables will be returned
to the U.S. Treasury as miscellaneous receipts once collected.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   41
Note 3.	 Fund Balance with Treasury
 As of September 30                                                              2009                           2008
 (Amounts in thousands)

 1. Fund Balances
    A. Appropriated Funds                                            $               163,159,254 $                  162,453,643
    B. Revolving Funds                                                                        4,292                       4,286
    C. Trust Funds                                                                            1,405                       1,674
    D. Special Funds                                                                       54,968                        46,165
    E. Other Fund Types                                                                   205,497                       816,703
    F. Total Fund Balances                                           $               163,425,416 $                  163,322,471
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                     $               165,844,086 $                  164,616,052
    B. Fund Balance per Army                                                         163,425,416                    163,322,471
 3. Reconciling Amount                                               $                  2,418,670 $                   1,293,581


Other Fund Types Definition

Other Fund Types consists of deposit funds, clearing accounts, unavailable receipt accounts, Seized Iraqi Cash, and the
Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
appropriate government or public entity. Clearing accounts are used as a temporary suspense account until later paid by or
refunded into another account or when the Federal Government acts as a banker or agent for others. Seized Iraqi cash is
former Iraqi regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi oil sales, repatriated assets
from the United States and other nations, and deposits from unencumbered oil-for-food program funds.

Reconciling Amount

The U.S. Treasury reported an additional $2.4 billion in Fund Balance with Treasury than reported by the Army General
Fund. This includes $13.3 million in fiduciary activity, $2.2 billion in canceling year authority, $267.7 million in unavailable
receipts and ($48.4) million in net differences due to the U.S. Treasury treatment of allocation transfers.


Status of Fund Balance with Treasury
 As of September 30                                                       2009                               2008
 (Amounts in thousands)

 1. Unobligated Balance
    A. Available                                            $                    38,086,530 $                        36,283,637
    B. Unavailable                                                                4,779,337                           4,269,641
 2. Obligated Balance not yet Disbursed                                        143,682,696                          144,392,279
 3. Nonbudgetary FBWT                                                               481,037                             952,390
 4. Non-FBWT Budgetary Accounts                                                (23,604,184)                         (22,575,476)
 5. Total                                                   $                  163,425,416 $                        163,322,471

Status of Fund Balance with Treasury Definitions

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The
balances reflect the budgetary authority remaining for disbursement against current and future obligations.


42 Fiscal Year 2009 United States Army Annual Financial Statement
Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in
U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the
public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those
received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as unavailable receipt accounts, clearing
accounts, deposit accounts, and Iraqi custodial accounts.

NonFBWT Budgetary Accounts reduces the Status of FBWT, such as contract authority, borrowing authority and investment
accounts, accounts receivable, as well as unfilled orders without advance from customers.


Note 4.	 Investments and Related Interest
 As of September 30                                                                                 2009
                                                                                                 Amortized
                                                                             Amortization       (Premium) /     Investments,   Market Value
 (Amounts in thousands)                                        Cost            Method            Discount           Net         Disclosure

 1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
     1. Military Retirement Fund                           $           0                        $           0   $          0   $         0
     2. Medicare Eligible Retiree Health Care Fund                     0                                    0              0             0
     3. US Army Corps of Engineers                                    0                                    0               0             0
     4. Other Funds                                             3,259      effective interest          (50)           3,209         3,215
     5. Total Nonmarketable, Market-Based                  $    3,259                           $      (50)     $     3,209    $    3,215
    B. Accrued Interest                                               32                                                 32             32
    C. Total Intragovernmental Securities                  $    3,291                           $      (50)     $     3,241    $    3,247
 2. Other Investments
    A. Total Other Investments                             $           0                        $           0   $          0          N/A


 As of September 30                                                                                 2008
                                                                                                 Amortized
                                                                             Amortization       (Premium) /     Investments,   Market Value
 (Amounts in thousands)                                        Cost            Method            Discount           Net         Disclosure

 3. Intragovernmental Securities
    A. Nonmarketable, Market-Based
     1. Military Retirement Fund                           $           0                        $           0   $          0   $         0
     2. Medicare Eligible Retiree Health Care Fund                     0                                    0              0             0
     3. US Army Corps of Engineers                                    0                                    0               0             0
     4. Other Funds                                             3,449      effective interest              51         3,500         3,530
     5. Total Nonmarketable, Market-Based                  $    3,449                           $          51   $     3,500    $    3,530
    B. Accrued Interest                                               32                                                 32             32
    C. Total Intragovernmental Securities                  $    3,481                           $          51   $     3,532    $    3,562
 4. Other Investments
    A. Total Other Investments                             $          0                         $           0   $          0          N/A


                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report            43
The Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the
disbursement and use of monies donated to the Army General Fund along with the interest received from the investment of
such donations. The related earnings are allocated to appropriate Army General Fund activities to be used in accordance with
the directions of the donor. These funds are recorded as Nonmarketable Market-Based U.S. Treasury Securities, which are not
traded on any securities exchange, but mirror the prices of marketable securities with similar terms.

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with earmarked
funds. The cash generated from earmarked funds are deposited in the U.S. Treasury, which uses the cash for general Federal
Government purposes. The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an
asset to the Army General Fund and a liability to the U.S. Treasury. Since the Army General Fund and the U.S. Treasury
are both part of the Federal Government, these assets and liabilities offset each other from the standpoint of the Federal
Government as a whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial
statements.

The U.S. Treasury securities provide the Army General Fund with authority to draw upon the U.S Treasury to make future
benefit payments or other expenditures. When the Army General Fund requires redemption of these securities to make
expenditures, the Government finances the securities out of accumulated cash balances, by raising taxes or other receipts,
borrowing from the public or repaying less debt, or curtailing other expenditures. The Federal Government used the same
method to finance all other expenditures.


Note 5.	 Accounts Receivable
 As of September 30                                                                     2009
                                                                              Allowance For Estimated
 (Amounts in thousands)                                    Gross Amount Due        Uncollectibles       Accounts Receivable, Net

 1. Intragovernmental Receivables                      $            530,847                      N/A    $              530,847
 2. Nonfederal Receivables (From the Public)                        801,865   $             (166,356)                  635,509
 3. Total Accounts Receivable                          $          1,332,712   $             (166,356)   $            1,166,356


 As of September 30                                                                     2008
                                                                              Allowance For Estimated
 (Amounts in thousands)                                    Gross Amount Due        Uncollectibles       Accounts Receivable, Net

 1. Intragovernmental Receivables                      $            499,668                       N/A   $              499,668
 2. Nonfederal Receivables (From the Public)                        729,785   $             (110,314)                  619,471
 3. Total Accounts Receivable                          $          1,229,453   $             (110,314)   $            1,119,139



Note 6.	 Other Assets
 As of September 30                                                                            2009                 2008
 (Amounts in thousands)

 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                                         $       1,401,723    $         430,932
    B. Other Assets                                                                                      0                     0
    C. Total Intragovernmental Other Assets                                             $       1,401,723    $         430,932
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                                          $       7,352,077    $       6,469,032
    B. Advances and Prepayments on behalf of Foreign Governments                                    87,260              26,929
    C. Advances and Prepayments                                                                          0                     0
    D. Other Assets (With the Public)                                                           7,439,337            6,495,961
 3. Total Other Assets                                                                  $       8,841,060    $       6,926,893


44 Fiscal Year 2009 United States Army Annual Financial Statement
Other Assets Definitions

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership
of the contractor’s work has transferred to the Federal Government. The Federal Government does not have the right to take
the work, except as provided in contract clauses related to termination or acceptance, and Army General Fund is not obligated
to make payment to the contractor until delivery and acceptance.

Outstanding Contract Financing Payments

The Outstanding Contract Financing Payments balance of $7.4 billion is comprised of $7.0 billion in contract financing
payments and an additional $398.9 million in estimated future payments that will be paid to the contractor upon future
delivery and Federal Government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.


Note 7.	 Cash and Other Monetary Assets
 As of September 30                                                                2009                           2008
 (Amounts in thousands)

 1. Cash                                                                $                  573,906 $                   1,088,505
 2. Foreign Currency                                                                      1,391,098                    1,329,544
 3. Other Monetary Assets                                                                          0                               0
 4. Total Cash, Foreign Currency, & Other Monetary Assets               $                 1,965,004 $                  2,418,049


Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign currency
consists primarily of burden sharing funds from the Republic of Korea.

Foreign currency is valued using the U.S. Treasury prevailing rate of exchange. This rate is the most favorable rate that would
legally be available to the Federal Government for foreign currency exchange transactions. The Army General Fund cash and
foreign currency is nonentity and is restricted.


Note 8.	 Direct Loan and Loan Guarantees
As of September 30

Direct Loan and/or Loan Guarantee Programs

The Army General Fund operates a loan guarantee program, the Armament Retooling & Manufacturing Support (ARMS)
Initiative Loan Guarantee Program, designed to encourage commercial use of inactive government facilities. The revenue
generated from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations and loan guarantee commitments
made after FY 1991. The Army General Fund does not operate a direct loan program.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the
following estimated projected cash flows:

     n	 Payments by the Army General Fund to cover defaults and delinquencies, interest subsidies, or other payments; offset
          by

     n	 Payments to the Army General Fund including origination and other fees, penalties, and recoveries.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report     45
Armament Retooling and Manufacturing Support Initiative

The ARMS, Title 10 United States Code 4551-4555, is a loan guarantee program designed to encourage commercial use
of the Army’s inactive ammunition plants through incentives for businesses willing to locate to a government ammunition
production facility. The production capacity of these facilities is greater than current military requirements; however, this
capacity may be needed by the military in the future. Revenues from property rentals are used to help offset the overhead costs
for the operation, maintenance and environmental cleanup at the facilities.

The Army General Fund, by means of ARMS initiative legislation, established a loan guarantee program to facilitate
commercial firms’ use of specified ammunition manufacturing facilities. The Army and U.S. Department of Agriculture
(USDA) Rural Business-Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer
the ARMS initiative loan guarantee program.

Loan Guarantees

In an effort to preclude additional Army General Fund loan liability, Assistant Secretary of the Army (Acquisition, Logistics
and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to operate
under the moratorium, and does not anticipate initiating new loan guarantees.


Summary of Direct Loans and Loan Guarantees
 As of September 30                                                                          2009                   2008
 (Amounts in thousands)

 Loans Receivable
 Direct Loans
    1. Foreign Military Loan Liquidating Account                                       $                0       $               0
    2. Military Housing Privatization Initiative                                                        0                       0
    3. Foreign Military Financing Account                                                               0                       0
    4. Military Debt Reduction Financing Account                                                        0                       0
    5. Total Direct Loans                                                              $                0       $               0
 Defaulted Loan Guarantees
    6. A. Foreign Military Financing Account                                           $                0       $               0
       B. Military Housing Privatization Initiative                                                     0                       0
       C. Armament Retooling & Manufacturing Support Initiative                                       93                        0
    7. Total Default Loan Guarantees                                                   $              93        $               0
    8. Total Loans Receivable                                                          $              93        $               0
 Loan Guarantee Liability
    1. Foreign Military Liquidating Account                                            $                0       $               0
    2. Military Housing Privatization Initiative                                                        0                       0
    3. Armament Retooling & Manufacturing Support Initiative                                        2,436                  2,337
    4. Total Loan Guarantee Liability                                                  $            2,436       $          2,337

The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of non-acquired loan
guarantees. The $2.4 million in loan guarantee liability represents the estimated long-term cost of the currently performing
loans to the U.S. Government for the ARMS Initiative Loan Guarantee Program.


Direct Loans Obligated
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


46 Fiscal Year 2009 United States Army Annual Financial Statement
Total Amount of Direct Loans Disbursed
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Expense for Direct Loan by Program
Not applicable.


Subsidy Rate for Direct Loans by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY1991 Direct
Loans
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Defaulted Guaranteed Loans
 As of September 30                                                                               2009               2008
 (Amounts in thousands)

 Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
 (Allowance for Loss Method):
 1. Foreign Military Loan Liquidating Account
    A. Defaulted Guaranteed Loans Receivable, Gross                                           $            0    $              0
    B. Interest Receivable                                                                                 0                   0
    C. Foreclosed Property                                                                                 0                   0
    D. Allowance for Loan Losses                                                                           0                   0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                  $            0    $              0
 Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
 (Present Value Method):
 2. Military Housing Privatization Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                           $            0    $              0
    B. Interest Receivable                                                                                 0                   0
    C. Foreclosed Property                                                                                 0                   0
    D. Allowance for Subsidy Cost (Present Value)                                                          0                   0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                  $            0    $              0
 3. Armament Retooling & Manufacturing Support Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                           $          735    $        15,142
    B. Interest Receivable                                                                                 0                   0
    C. Foreclosed Property                                                                                 0                   0
    D. Allowance for Subsidy Cost (Present Value)                                                      (642)           (15,142)
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                  $           93    $              0
 4. Total Value of Assets Related to Defaulted Guaranteed Loans Receivable                    $           93    $              0




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   47
Guaranteed Loans Outstanding
 As of September 30                                                2009                                            2008
 (Amounts in thousands)                         Outstanding Principal        Amount of          Outstanding Principal            Amount of
                                                of Guaranteed Loans,    Outstanding Principal   of Guaranteed Loans,        Outstanding Principal
                                                     Face Value             Guaranteed               Face Value                 Guaranteed

 Guaranteed Loans Outstanding
 1. Military Housing Privatization          $                       0 $                     0   $                  0 $                         0
     Initiative
 2. Armament Retooling &                                       2,988                  2,429                   3,079                       2,617
     Manufacturing Support Initiative
 3. Foreign Military Liquidating                                    0                       0                      0                           0
     Account
 4. Total                                   $                  2,988 $                2,429     $             3,079 $                     2,617
 New Guaranteed Loans Disbursed
 1. Military Housing Privatization          $                       0 $                     0   $                  0 $                         0
     Initiative
 2. Armament Retooling &                                            0                       0                      0                           0
     Manufacturing Support Initiative
 4. Total                                   $                       0 $                     0   $                  0 $                         0

Guaranteed Loans Outstanding Definition

Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties and
guaranteed by the Army General Fund. The face value does not include any interest that is due to be paid on the debt
instruments.

Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed by
the Army General Fund less borrower collateral. The net amount represents the loan amount guaranteed by the Army General
Fund. One performing loan remains.


Liabilities for Loan Guarantees
 As of September 30                                                                              2009                            2008
 (Amounts in thousands)

 Liabilities for Losses on Loan Guarantee from Pre 1992
 (Allowance for Loss):
 1. Foreign Military Liquidating Account                                                $                      0        $                      0
 2. Total Loan Guarantee Liability (Pre-FY 1992)                                        $                      0        $                      0
 Liabilities for Loan Guarantee from Post 1991 (Present Value):
 3. Military Housing Privatization Initiative                                           $                      0        $                      0
 4. Armament Retooling & Manufacturing Support Initiative                                                 2,436                           2,337
 5. Total Loan Guarantee Liability (Post-FY 1991)                                       $                 2,436         $                 2,337
 6. Total Loan Guarantee Liability                                                      $                 2,436         $                 2,337

Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash
outflows of non-acquired loan guarantees. The $2.4 million in loan guarantee liability represents the estimated long-term cost
of the currently performing loan to the U. S. Government for the ARMS Initiative Loan Guarantee Program.




48 Fiscal Year 2009 United States Army Annual Financial Statement
Subsidy Expense for Loan Guarantees by Program
 As of September 30
 (Amounts in thousands)
                                                     Interest
                      2009                          Differential            Defaults            Fees               Other              Total

 1. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative   $                  0    $               0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
      Support Initiative                                           0                    0                 0                   0               0
 Total                                          $                  0    $               0   $             0 $                 0   $            0
                                                     Interest
                      2008                          Differential            Defaults            Fees               Other              Total

 2. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative   $                  0    $               0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
      Support Initiative                                           0                    0                 0                   0               0
 Total                                          $                  0    $               0   $             0 $                 0   $            0
                                                     Interest
                      2009                          Differential            Defaults            Fees               Other              Total

 3. Modifications and Reestimates:
    Military Housing Privatization Initiative   $                  0    $               0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
      Support Initiative                                           0                   93                 0                93                 93
 Total                                          $                  0    $              93   $             0 $              93     $           93
                                                                        Interest Rate        Technical             Total
                      2008                       Modifications          Reestimates         Reestimates         Reestimates           Total

 4. Modifications and Reestimates:
    Military Housing Privatization Initiative   $                  0    $               0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
      Support Initiative                                           0                409            1,651              2,060             2,060
 Total                                          $                  0    $           409     $      1,651 $            2,060       $     2,060


                                                      2009                   2008
 5. Total Loan Guarantee:
    Military Housing Privatization Initiative   $                   0   $               0
    Armament Retooling & Manufacturing
      Support Initiative                                           93            2,060
 Total                                          $                  93   $        2,060



In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition Logistics
and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to operate
under the moratorium, and does not anticipate initiating new loan guarantees.


Subsidy Rates for Loan Guarantees by Program
The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. Since no new loan
guarantees for the ARMS Initiative Program originated since 2004, the table properly presents zero percent subsidy rates.



                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report                 49
Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
Guarantees
 As of September 30                                                                   2009                     2008
 (Amounts in thousands)

 Beginning Balance, Changes, and Ending Balance:
 1. Beginning Balance of the Loan Guarantee Liability                           $              2,337     $             290
 2. Add: Subsidy Expense for Guaranteed Loans Disbursed during
    the Reporting Years by Component
    A. Interest Supplement Costs                                                $                    0   $               0
    B. Default Costs (Net of Recoveries)                                                             0                   0
    C. Fees and Other Collections                                                                    0                   0
    D. Other Subsidy Costs                                                                           0                   0
    E. Total of the above Subsidy Expense Components                            $                    0   $               0
 3. Adjustments
    A. Loan Guarantee Modifications                                             $                    0   $               0
    B. Fees Received                                                                                 0                   0
    C. Interest Supplements Paid                                                                     0                   0
    D. Foreclosed Property and Loans Acquired                                                        0                 746
    E. Claim Payments to Lenders                                                                     0                (767)
    F. Interest Accumulation on the Liability Balance                                                8                   8
    G. Other                                                                                     (2)                     0
    H. Total of the above Adjustments                                           $                    6   $             (13)
 4. Ending Balance of the Loan Guarantee Liability before
    Reestimates                                                                 $              2,343     $             277
 5. Add or Subtract Subsidy Reestimates by Component
    A. Interest Rate Reestimate                                                 $                93      $             409
    B. Technical/default Reestimate                                                                  0                1,651
    C. Total of the above Reestimate Components                                 $                93      $            2,060
 6. Ending Balance of the Loan Guarantee Liability                              $              2,436     $            2,337



Administrative Expenses
Administrative expense of $16.0 thousand is an annual amount for salary and expense which normally occurs during the last
quarter of the fiscal year.


Note 9.	 Inventory and Related Property
 As of September 30                                                          2009                            2008
 (Amounts in thousands)

 1. Inventory, Net                                                  $                      0     $                       0
 2. Operating Materiels & Supplies, Net                                          34,497,598                     40,134,982
 3. Stockpile Materiel, Net                                                                0                             0
 4. Total                                                           $            34,497,598                     40,134,982




50 Fiscal Year 2009 United States Army Annual Financial Statement
Inventory, Net
Not applicable.


Operating Materiel and Supplies, Net
 As of September 30                                                               2009
                                                           OM&S                Revaluation
 (Amounts in thousands)                                  Gross Value           Allowance             OM&S, Net       Valuation Method

 1. OM&S Categories
    A. Held for Use                                  $      34,497,598     $                 0   $     34,497,598     SP, LAC, MAC

    B. Held for Repair                                                 0                     0                   0    SP, LAC, MAC

    C. Excess, Obsolete, and Unserviceable                      509,531          (509,531)                       0        NRV

    D. Total                                         $      35,007,129     $     (509,531)       $     34,497,598


 As of September 30                                                               2008
                                                           OM&S                Revaluation
 (Amounts in thousands)                                  Gross Value           Allowance             OM&S, Net       Valuation Method

 1. OM&S Categories
    A. Held for Use                                  $      40,134,982     $                 0   $     40,134,982     SP, LAC, MAC

    B. Held for Repair                                                 0                     0                   0    SP, LAC, MAC

    C. Excess, Obsolete, and Unserviceable                      737,202          (737,202)                       0        NRV

    D. Total                                         $      40,872,184     $     (737,202)       $     40,134,982


 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                      NRV = Net Realizable Value
 SP = Standard Price                                LCM = Lower of Cost or Market
 AC = Actual Cost                                   O = Other


Operating Materiel and Supplies (OM&S) includes ammunition, tactical missiles, and their related spare and repair parts. The
category, Held for Use, includes all materiel available to be issued. Economically repairable materiel is categorized as held for
repair.

Managers determine which items are more costly to repair than to replace. The net value of these items is zero, and is shown as
Excess, Obsolete, and Unserviceable.

The Army General Fund establishes an allowance for excess, obsolete, and unserviceable OM&S at 100% of the carrying
amount in accordance with DoD policy.

The values of the Army’s government furnished materiel and contractor acquired materiel in the hands of contractors are
normally not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and report
required information without duplicating information in other existing logistics systems. Currently, there are no restrictions
on OM&S.


Stockpile Materiel, Net
Not applicable.



                                 General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   51
Note 10.	 General PP&E, Net
 As of September 30                                                        2009                                                         2008
                                  Depreciation/                                          (Accumulated
                                  Amortization                                           Depreciation/
 (Amounts in thousands)             Method        Service Life   Acquisition Value        Amortization)       Net Book Value       Net Book Value

 1. Major Asset Classes
    A. Land                           N/A            N/A         $       519,153                    N/A       $      519,153       $      522,002
    B. Buildings,
       Structures, and
       Facilities                     S/L          20 or 40           53,909,702     $     (32,113,494)            21,796,208           19,298,602
    C. Leasehold
       Improvements                   S/L         lease term               23,896               (19,418)                4,478                3,006
    D. Software                       S/L         2-5 or 10              501,718              (207,025)              294,693              308,463
    E. General Equipment              S/L          5 or 10             3,984,679            (1,834,810)             2,149,869            2,242,940
    F. Military Equipment             S/L          various           141,160,620           (45,266,083)            95,894,537           79,623,630
    G. Shipbuilding                   N/A            N/A                         0                        0                    0                    0
    H. Assets Under
       Capital Lease                  S/L         lease term             166,617              (160,238)                 6,379                8,840
    I. Construction-in-
       Progress                       N/A            N/A               8,281,379                    N/A             8,281,379            9,881,429
    J. Other                                                                     0                        0                    0           20,083
    K.	Total General
       PP&E                                                      $   208,547,764     $     (79,601,068)       $   128,946,696      $   111,908,995


 Legend for Valuation Methods:
 S/L = Straight Line             N/A = Not Applicable


Heritage Assets and Stewardship Land

The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and Stewardship Land,” requires note
disclosures for these types of assets. The Army General Fund’s policy is to preserve its heritage assets, which are items of
historical, cultural, educational, or artistic importance.

Heritage assets within the Army General Fund consist of buildings and structures, archeological sites, and museum collections.
The Army General Fund defines these as follows:

     n	 Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on, the National Register
           of Historic Places, including Multi-Use Heritage Assets.

     n	 Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible for or are listed on the
           National Historical Places in accordance with Section 110 National Historical Preservation Act.

     n	 Museum Collection Items. Items which are unique for one or more of the following reasons: historical or natural
           significance; cultural, educational, or artistic importance; or significant technical or architectural characteristics.

The Army General Fund holds the following quantities of heritage assets at September 30, 2009.




52 Fiscal Year 2009 United States Army Annual Financial Statement
                                                          Measure      As of September                                       As of September
 Categories                                               Quantity         30, 2008          Additions       Deletions           30, 2009
 Buildings and Structures                                  Each              3,818             24,783                570             28,031
 Archeological Sites                                       Each              7,201              1,089                 89              8,201
 Museum Collection Items (Objects, Not
     Including Fine Art)                                   Each            553,115             11,703                    0          564,818
 Museum Collection Items (Objects, Fine Art)               Each                  0                  0                    0                0

In FY 2009, the Army General Fund acquired 24,783 buildings and structures, 1,089 archeological sites, and 11,703 other
museum collection items through donation.

The Army General Fund holds the following acres of stewardship land at September 30, 2008.

 (Acres in thousands)
                                                         As of September                                                     As of September
 Facility Code                   Facility Title              30, 2007            Additions               Deletions               30, 2008
 9110                   Government Owned Land                 5,191                  0                 92                             5,099
 9111                   State Owned Land                        142                  0                140                                 2
 9120                   Withdrawn Public land                 6,512                  0                 34                             6,478
 9130                   Licensed and Permitted Land           2,590                  0                797                             1,793
 9140                   Public Land                              11                  0                  0                                11
 9210                   Land Easement                           219                  0                 25                               194
 9220                   In-leased Land                          592                  0                 27                               565
 9230                   Foreign Land                            169                  0                  7                               162
                                                                                                   Grand Total                       14,304
                                                                                         Total All Other Lands                        7,813
                                                                                     Total Stewardship Lands                          6,491

The mission of the Army is to provide the military forces needed to deter war and protect the security of the United States by
organizing, training, supplying, equipping, and mobilizing forces for assignment in support of that mission. Executing this
mission requires efficient and effective use of resources in a manner that ensures operational and environmental sustainability,
while respecting the history and heritage that reflect and support the military mission. The Army has stewardship
responsibilities for heritage assets that date not only from the military history of the land, but from prior historic occupations.
The Army relies upon heritage assets, such as historic buildings and stewardship land for daily use in administration, housing,
and training soldiers. Heritage assets not currently employed as multi-use, such as archeological collections or museum
collections, are items that embody the multi-faceted history of the land, the military, the local communities, and the nation.
In that mission, the Army General Fund, with minor exceptions, uses most of the buildings and stewardship land in its daily
activities and includes the buildings on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).


Assets Under Capital Lease
 As of September 30                                                                      2009                                2008
 (Amounts in thousands)

 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                                    $                   166,071        $                   166,071
    B. Equipment                                                                                         546                            546
    C. Accumulated Amortization                                                                 (160,238)                         (157,777)
    D. Total Capital Leases                                                  $                      6,379       $                     8,840




                                General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report           53
Note 11.	 Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                     2009                        2008
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                                        $                       0   $                       0
    B. Debt                                                                                            0                           0
    C. Other                                                                                   450,793                   2,804,367
    D. Total Intragovernmental Liabilities                                     $               450,793     $             2,804,367
 2. Nonfederal Liabilities
    A. Accounts Payable                                                        $               194,560     $               192,963
    B. Military Retirement and Other Federal Employment Benefits                            1,325,169                    1,472,383
    C. Environmental Liabilities                                                          34,679,660                   39,702,096
    D. Other Liabilities                                                                    6,256,400                    5,819,091
    E. Total Nonfederal Liabilities                                            $          42,455,789       $           47,186,533
 3. Total Liabilities Not Covered by Budgetary Resources                       $          42,906,582       $           49,990,900
 4. Total Liabilities Covered by Budgetary Resources                                      27,169,773                   24,434,743
 5. Total Liabilities                                                          $          70,076,355       $           74,425,643



Intragovernmental Liabilities, Other primarily consists of disbursing officers’ custodial liability.

Nonfederal Liabilities, Other Liabilities consists of unfunded annual leave and conventional munitions disposals.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and
payable during the current fiscal year. These liabilities primarily consist of Federal Employee Compensation Act benefits
liability of $1.3 billion. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details
and disclosures.

Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before budgetary resources
can be provided.

Liabilities such as Environmental Liabilities and Military Retirement and Other Federal Employment Benefits are not covered
by budgetary resources due to being classified as noncurrent. Congressional action will not be taken to cover these liabilities
until classified as current.

Other Intragovernmental Liabilities include liabilities for nonentity assets, such as disbursing officers’ cash that are held in the
Army General Fund to be transferred to other entities and therefore not covered by budgetary resources. Unfunded annual
leave is leave an employee is entitled to upon separation and funded with future years’ appropriations and thus not covered by
budgetary resources in the current fiscal year.




54 Fiscal Year 2009 United States Army Annual Financial Statement
Note 12.	 Accounts Payable
 As of September 30                                                                                    2009
                                                                                            Interest, Penalties, and
 (Amounts in thousands)                                      Accounts Payable                 Administrative Fees                      Total

 1. Intragovernmental Payables                       $               1,717,109          $                            N/A    $             1,717,109
 2. Nonfederal Payables (to the Public)                             14,110,609                                   6,194                   14,116,803
 3. Total                                            $              15,827,718          $                        6,194      $            15,833,912

 As of September 30                                                                                    2008
                                                         Restated Accounts                  Interest, Penalties, and
 (Amounts in thousands)                                       Payable                         Administrative Fees                Restated Total

 1. Intragovernmental Payables                       $               1,563,994          $                            N/A    $             1,563,994
 2. Nonfederal Payables (to the Public)                             13,022,675                                         0                 13,022,675
 3. Total                                            $              14,586,669          $                              0    $            14,586,669


Accounts Payable includes amounts owed to federal and nonfederal entities for goods and services received by Army General
Fund. The Army General Fund’s systems do not track intragovernmental transactions by customer at the transaction level.
Buyer-side accounts payable are adjusted to agree with internal seller-side accounts receivable. Accounts payable was adjusted
by reclassifying amounts between federal and nonfederal accounts payable.

Note 13.	 Debt
 As of September 30                                                              2009                                             2008
                                                             Beginning                                 Ending                                  Ending
 (Amounts in thousands)                                       Balance        Net Borrowing             Balance         Net Borrowing           Balance

 1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                              $         833       $          227        $      1,060        $   (25,873) $               833
    B. Debt to the Federal Financing Bank                                0                   0                   0                 0                     0
    C. Total Agency Debt                                 $         833       $          227        $      1,060        $   (25,873) $               833
 2. Total Debt                                           $         833       $          227        $      1,060        $   (25,873) $               833



The Army General Fund, by means of Armament Retooling and Manufacturing Support (ARMS) initiative legislation,
established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities.
When a borrower defaults on a guaranteed loan, the Army General Fund executes borrowing authority with the U.S.
Treasury to pay the lender the guaranteed outstanding principal resulting in a debt with the U.S. Treasury. The total debt of
$1.1 million consists of interest and principal payments due to the U.S. Treasury for ARMS loan defaults.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report                           55
Note 14.	 Environmental Liabilities and Disposal Liabilities
 As of September 30                                                                         2009                  2008
 (Amounts in thousands)

 1. Environmental Liabilities - Nonfederal
 A. Accrued Environmental Restoration Liabilities
    1. Active Installations—Installation Restoration Program (IRP) and               $        2,181,086 $           2,667,869
       Building Demolition and Debris Removal (BD/DR)
    2. Active Installations—Military Munitions Response Program (MMRP)                        2,653,805             2,742,646
    3. Formerly Used Defense Sites—IRP and BD/DR                                              3,452,907             3,233,179
    4. Formerly Used Defense Sites--MMRP                                                     13,545,816           14,859,040
 B. Other Accrued Environmental Liabilities—Non-BRAC
    1. Environmental Corrective Action                                                          356,897               400,741
    2. Environmental Closure Requirements                                                       353,625                96,847
    3. Environmental Response at Operational Ranges                                             144,469               163,744
    4. Asbestos                                                                                 247,537                      0
    5. Non-Military Equipment                                                                          0                     0
    6. Other                                                                                     96,456                33,874
 C. Base Realignment and Closure Installations
    1. Installation Restoration Program                                                         690,977               769,237
    2. Military Munitions Response Program                                                      951,853               941,159
    3. Environmental Corrective Action / Closure Requirements                                   295,327               296,204
    4. Asbestos                                                                                        0                     0
    5. Non-Military Equipment                                                                          0                     0
    6. Other                                                                                           0                     0
 D. Environmental Disposal for Military Equipment / Weapons Programs
    1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                                         0                     0
    2. Non-Nuclear Powered Military Equipment                                                          0                     0
    3. Other National Defense Weapons Systems                                                          0                     0
    4. Other                                                                                           0                     0
 E. Chemical Weapons Disposal Program
    1. Chemical Agents and Munitions Destruction (CAMD)                                       6,955,981           10,636,653
    2. CAMD Assembled Chemical Weapons Assessment (ACWA)                                      5,447,847             5,634,273
    3. Other                                                                                           0                     0
 2. Total Environmental Liabilities                                                  $       37,374,583 $         42,475,466

Applicable Laws and Regulations

The Army General Fund is required to clean up contamination resulting from past waste disposal practices, leaks, spills, and
other past activity. This cleanup requirement applies to releases of from hazardous substances and wastes that created a public
health or environmental risk, and prior to FY 2003 from unexploded ordnance (UXO), discarded military munitions, and
munitions constituents at other than operational ranges. This is required by the Defense Environmental Restoration Program
(DERP), established by Section 211 of the Superfund Amendments and Reauthorization Act of 1986 codified in Title 10
of the United States Code 2701. The Army General Fund is also required to clean up contamination resulting from waste
disposal practices, leaks, spills, and other activity at overseas locations in accordance with DoD policy as prescribed in DoD
Instruction 4715.8, Environmental Remediation for DoD Activities Overseas under the Army Compliance Cleanup Program.



56 Fiscal Year 2009 United States Army Annual Financial Statement
The Federal Accounting Standards Advisory Board (FASAB) published Technical Bulletin 2006-1, Recognition and
Measurement of Asbestos-Related Cleanup Costs, which clarifies reporting of liabilities arising from asbestos-related cleanup.

The Army General Fund is required to destroy the chemical stockpile and nonstockpile as part of the Chemical
Demilitarization Program. The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts)
directed the DoD to destroy the unitary chemical stockpile while providing for maximum protection of the environment,
public, and personnel involved in the destruction effort. The 1993 Defense Authorization Act (PL 102-484) required the
establishment of the Nonstockpile Chemical Material Project to safely dispose of all nonstockpile chemical material. The
destruction operations being carried out using the facilities and equipment developed and fielded as part of the program are
also subject to numerous federal and state environmental regulations.

Applicable laws are as follows for the DERP, NonDERP, Low Level Radioactive Waste, and the Base Realignment and Closure
(BRAC) programs:

     n	 Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
     n	 Superfund Amendments and Reauthorization Act (SARA)
     n	 Clean Water Act
     n	 Safe Drinking Water Act
     n	 Clean Air Act
     n	 Resource Conversation and Recovery Act (RCRA)
     n	 Toxic Substances Control Act (TSCA)
     n	 Medical Waste Tracking Act
     n	 Atomic Energy Act
     n	 Nuclear Waste Policy Act
     n	 Low Level Radioactive Waste Policy Amendments Act
     n	 National Defense Authorization Acts


Types of Environmental Liabilities and Disposal Liabilities Identified

The Army General Fund has environmental cleanup requirements for DERP sites at active installations, BRAC installations,
Formerly Used Defense Sites (FUDS), NonDERP sites at active installations, weapon systems programs, and chemical
weapons disposal programs. The DERP and NonDERP sites are required to clean up contamination in coordination with
regulatory agencies, other responsible parties, and current property owners. Environmental disposal for weapons systems
programs consists of chemical weapons disposal, including the destruction of the entire United States’ stockpile of chemical
agents and munitions and disposal of nonstockpile chemical material. This includes binary chemical weapons, old chemical
weapons recovered as part of remediation and recovery operations, and miscellaneous materiel associated with chemical
weapon production, storage, testing, maintenance, and disposal. All clean-up is done in coordination with regulatory agencies,
other responsible parties, and current property owners.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Army General Fund uses engineering estimates and independently validated models to estimate environmental liabilities.
The models are contained within the Remedial Action Cost Engineering Requirements and the Normalization of Data System.
The Army General Fund validates the models in accordance with DoD Instruction 5000.61 and primarily uses the models to
estimate the liabilities based on data received during a preliminary assessment and initial site inspection. The Army General
Fund primarily uses engineering estimates after obtaining extensive data during the remedial investigation/feasibility study
phase of the environmental project.



                               General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   57
Once the environmental cost estimates are complete, Army General Fund complies with accounting standards to assign costs
to current operating periods. Army General Fund has already expensed the costs for cleanup associated with General PP&E
placed into service prior to October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs
are recovered through user charges, then Army General Fund expensed that portion of the asset that has passed since General
PP&E was placed into service and is systematically recognizing the remaining cost over the life of the assets.

For General PP&E placed into service after September 30, 1997, the Army General Fund expenses the associated
environmental costs systematically over the life of the asset. Army General Fund expenses the full cost to clean up
contamination for stewardship PP&E at the time the asset is placed into service.

Army General Fund uses two methods for systematic recognition: physical capacity for operating landfills, and life expectancy
in years for all other assets.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Army General Fund had changes in estimates resulting from overlooked or previously unknown contaminants, better site
characterization with sampling, reestimation based on different assumptions, and lessons learned. Environmental liabilities
may change in the future due to changes in laws and regulations, changes in agreements with regulatory agencies, and advances
in technology.

Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Army General Fund are based on accounting estimates, which require certain judgments
and assumptions that are believed to be reasonable based upon information available to us at the time of calculating the
estimates. The actual results may vary materially from the accounting estimates if agreements with regulatory agencies require
remediation to a different degree than anticipated when calculating the estimates. The liabilities can be further impacted if
additional investigation of the environmental sites discloses contamination different than known at the time of the estimates.

For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in the
approved baseline are based on the best information available and have been through the formal acquisition program baseline
approval process at the time of report submission. It should be noted that they are subject to fact of life changes and impacts
from program risks and uncertainties inherent to the task of chemical demilitarization and the political sensitivity of the
program. These risks may include processing changes required to meet the operational schedules due to the deteriorating
condition of the stockpile and additional schedule time and/or cost to address changes in environmental laws or congressional
requirements.

The Army General Fund has a liability to take environmental restoration/corrective action for buried chemical munitions and
agents, which it is unable to estimate at this time because the extent of the buried chemical munitions and agents is unknown.
The Army General Fund has ongoing studies and will update its estimate as additional liabilities are identified. In addition,
not all components of the Army General Fund recognize environmental liabilities associated with General PP&E due to
process and system limitations.

Army GF has reported asbestos survey costs but estimating the amount of non-friable asbestos removal at the time of building
renovation or demolition, per FASAB TB 2006-1, presents too much uncertainty to recognize on the balance sheet. If recent
experience holds true, asbestos-related costs including survey costs could be $2.54/SF or $1.8 billion.

In addition to the liabilities reported above, the Army General Fund is uncertain regarding the extent of the liabilities at
installations that are realigning or closing as a result of the FY 2005 BRAC round. The Army General Fund is in the process of
determining the extent of environmental liabilities at bases due to realign or close; in particular those liabilities associated with
unexploded ordnance on training ranges that are due to realign or close.

The Army General Fund is also uncertain regarding the extent of environmental closure liabilities at Active installations. The
Army General Fund is in the process of determining the extent of environmental liabilities associated with NonDERP closure
requirements.




58 Fiscal Year 2009 United States Army Annual Financial Statement
In addition, the Army General Fund reports the costs for restoration initiatives in conjunction with returning overseas military
facilities to host nations. The Army General Fund is currently unable to provide a reasonable estimate because the extent of
restoration required is not known.

Other Accrued Environmental Liabilities – Non-BRAC, Other consists of Low Level Radioactive Waste.

The Army General Fund is unable to systematically report and gather the unrecognized portion of the estimated total cleanup
costs associated with General Property, Plant and Equipment. The Army General Fund will continue coordination with the
Office of the Under Secretary of Defense (Comptroller) to address these deficiencies.


Note 15.	 Other Liabilities
 As of September 30                                                                     2009                                    2008
                                                                                       Noncurrent
 (Amounts in thousands)                                    Current Liability            Liability           Total               Total

 1. Intragovernmental
    A. Advances from Others                               $         88,608         $                0   $      88,608       $      67,973
    B. Deposit Funds and Suspense Account
       Liabilities                                                 339,861                          0        339,861             673,433
    C. Disbursing Officer Cash                                  1,968,492                           0       1,968,492           2,419,223
    D. Judgment Fund Liabilities                                               0                    0                  0                   0
    E. FECA Reimbursement to the Department
       of Labor                                                    119,415                 158,121           277,536             277,913
    F. Custodial Liabilities                                        10,051                   7,510             17,561                   7,066
    G. Employer Contribution and Payroll Taxes
       Payable                                                     122,643                          0        122,643             100,481
    H. Other Liabilities                                           174,173                          0        174,173             101,014
    I. Total Intragovernmental Other Liabilities          $     2,823,243          $       165,631      $   2,988,874       $   3,647,103
 2. Nonfederal
    A. Accrued Funded Payroll and Benefits                $     3,157,681          $                0   $   3,157,681       $   2,619,264
    B. Advances from Others                                     1,773,694                           0       1,773,694           1,740,233
    C. Deferred Credits                                                        0                    0                  0                   0
    D. Deposit Funds and Suspense Accounts                         141,176                          0        141,176             279,248
    E. Temporary Early Retirement Authority                                    0                    0                  0                   0
    F. Nonenvironmental Disposal Liabilities
     (1) Military Equipment (Nonnuclear)                                       0                    0                  0                   0
     (2) Excess/Obsolete Structures                                            0                    0                  0                   0
     (3) Conventional Munitions Disposal                                       0        2,072,316           2,072,316           2,042,986
    G. Accrued Unfunded Annual Leave                            3,673,059                           0       3,673,059           3,342,808
    H. Capital Lease Liability                                        4,021                  7,040             11,061              14,855
    I. Contract Holdbacks                                          332,204                          0        332,204             201,343
    J. Employer Contribution and Payroll Taxes
       Payable                                                     390,612                          0        390,612            1,036,996
    K. Contingent Liabilities                                       90,104                 907,344           997,448             961,075
    L. Other Liabilities                                              1,069                         0               1,069               2,044
    M. Total Nonfederal Other Liabilities                 $     9,563,620          $    2,986,700       $ 12,550,320        $ 12,240,852
 3. Total Other Liabilities                               $   12,386,863           $    3,152,331       $ 15,539,194        $ 15,887,955




                                General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report            59
Intragovernmental Other Liabilities Composition

Intragovernmental Other Liabilities consists of unemployment compensation liability.

Nonfederal Other Liabilities Composition

Nonfederal Other Liabilities, other consists of miscellaneous liabilities submitted by the U.S. Army Corps of Engineers.

Estimated Future Contract Financing Payments

Contingent liabilities includes $398.9 million related to contracts authorizing progress payments based on cost as defined in
the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests
with the Federal Government when a specific type of contract financing payment is made. This action protects taxpayer
funds in the event of contract nonperformance. These rights should not be misconstrued as rights of ownership. The Army
General Fund is under no obligation to pay contractors for amounts greater than the amounts authorized in contracts until
delivery and government acceptance. Due to the probability the contractors will complete their efforts and deliver satisfactory
products, and because the amount of potential future payments are estimable, the Army General Fund has recognized a
contingent liability for estimated future payments which are conditional pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred
to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR.
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by
the contract-authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from
the estimated total contractor-incurred costs to determine the contingency amount.


Capital Lease Liability
                                                                                       2009                                 2008
 As of September 30                                                              Asset Category
                                                                Land and
 (Amounts in thousands)                                         Buildings       Equipment     Other           Total         Total

 1. Future Payments Due
    A. 2009                                                 $       5,376       $       0     $       0   $     5,376 $        5,469
    B. 2010                                                         4,510               0             0         4,510          5,376
    C. 2011                                                         2,413               0             0         2,413          4,510
    D. 2012                                                         1,612               0             0         1,612          2,413
    E. 2013                                                            148              0             0               148      1,612
    F. After 5 Years                                                        0           0             0                 0           148
    G. Total Future Lease Payments Due                      $      14,059       $       0     $       0   $    14,059 $      19,528
    H. Less: Imputed Interest Executory Costs                       2,996               0             0         2,996          4,672
    I. Net Capital Lease Liability                          $      11,063       $       0     $       0   $    11,063 $      14,856
 2. Capital Lease Liabilities Covered by Budgetary
     Resources                                                                                            $     9,500 $      11,146
 3. Capital Lease Liabilities Not Covered by
     Budgetary Resources                                                                                  $     1,562 $        3,708




60 Fiscal Year 2009 United States Army Annual Financial Statement
Note 16.	 Commitments and Contingencies
The Army General Fund is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The Army General Fund has accrued contingent liabilities for legal actions where the Office of General Counsel (OGC)
considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the
Federal Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army General Fund
records Judgment Fund liabilities in Note 12, Accounts Payable, and Note 15, Other Liabilities.

Nature of Contingency

The FY 2009 Army Legal Representation Letter outlines claims against the Army General Fund totaling $2.3 trillion for
which the Army OGC is unable to express an opinion. The historical payout percentage for these cases is less than 1%. To
determine the historical payout, the Army OGC divides the total amount reported as a payout in the fiscal year by the total
amount claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities for which the possibility of loss is considered reasonable. These
liabilities are not accrued in the Army General Fund’s financial statements nor reported in the FY 2009 Army Legal
Representation Letter. As of September 30, 2009, the Army General Fund had $639.5 million in claims considered reasonably
possible. These contingent liabilities and estimates are presented in the following table. Estimates for litigations, claims and
assessments are required to be fully supported. Additionally, the Army General Fund has coordinated with Army OGC to
ensure that estimates agree with the legal representation letters and management summary schedule.

                                      (Amounts in thousands)

                                     Type of Contingent Liabilities                  Estimate
                                     Army Environmental Law Division                 $256,004
                                     Army Contract Appeals                             227,815
                                     U.S. Army Claims Service                          107,531
                                     Litigation Division                                48,128
                                     Total                                           $639,478

Other Information Pertaining to Commitments

The Army General Fund has entered into contractual commitments that require future use of financial resources. It has
significant amounts of long-term lease obligations, undelivered orders, and cancelled accounts payable. The amount of
contractual commitments for 4th Quarter, FY 2009 is presented in the following schedule.

                                     (Amounts in thousands)

                                      Type of Contractual Commitments
                                     Long-term lease obligations                        $7,040
                                     Undelivered orders                         $130,477,922
                                     Cancelled accounts payable                         $4,236

The Army General Fund is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of expenditures. Currently, the Army General Fund
has limited automated system processes by which it captures or assesses these potential contingent liabilities; therefore, the
amounts reported may not fairly present the Army General Fund’s contingent liabilities.



                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   61
Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15, Other
Liabilities, for further details.


Note 17.	 Military Retirement and Other Federal Employment Benefits
 As of September 30                                                               2009                                             2008
                                                                      Assumed       (Less: Assets
                                                                       Interest    Available to Pay         Unfunded
 (Amounts in thousands)                             Liabilities       Rate (%)        Benefits)             Liabilities           Liabilities

 1. Pension and Health Actuarial
     Benefits
    A. Military Retirement Pensions             $                 0               $                   0 $                 0   $                 0
    B. Military Retirement Health Benefits                        0                                   0                   0                     0
    C. Military Medicare-Eligible Retiree
       Benefits                                                   0                                   0                   0                     0
    D. Total Pension and Health Actuarial
       Benefits                                 $                 0               $                   0 $                 0   $                 0
 2. Other Actuarial Benefits
    A. FECA                                     $   1,325,170            4.223    $                   0 $ 1,325,170           $ 1,472,383
    B. Voluntary Separation Incentive
       Programs                                                   0                                   0                   0                     0
    C. DoD Education Benefits Fund                                0                                   0                   0                     0
    D. Total Other Actuarial Benefits           $   1,325,170                     $                   0 $ 1,325,170           $ 1,472,383
 3. Other Federal Employment Benefits                             0                                   0                   0                     0
 4. Total Military Retirement and Other
     Federal Employment Benefits:               $   1,325,170                     $                   0 $ 1,325,170           $ 1,472,383



Federal Employees Compensation Act

The Army’s actuarial liability for Workers’ Compensation benefits is developed by the Department of Labor and provided to
the Army General Fund each fiscal year end. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases.

Actuarial Cost Method

The liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate payments.

Assumptions

The projected annual benefit payments are discounted to the present value using the Office of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living adjustments and medical inflation factors
provided by the Department of Labor are also applied to the calculation of projected future benefits. The estimated actuarial
liability is updated only at the end of each fiscal year.




62 Fiscal Year 2009 United States Army Annual Financial Statement
Note 18.	 General Disclosures Related to the Statement of Net Cost
 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                            2009                      Restated 2008
 (Amounts in thousands)

 1. Intragovernmental Costs                                           $             55,453,482      $               51,475,585
 2. Public Costs                                                                  163,329,624                     150,018,639
 3. Total Costs                                                       $           218,783,106       $             201,494,224
 4. Intragovernmental Earned Revenue                                  $           (10,252,879)      $               (8,204,813)
 5. Public Earned Revenue                                                           (2,144,850)                     (1,722,612)
 6. Total Earned Revenue                                              $           (12,397,729)      $               (9,927,425)
 7. Net Cost of Operations                                            $           206,385,377       $             191,566,799

Definitions

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
Government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government supported
by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount
of output or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current
process and systems do not capture and report accumulated costs for major programs based upon the performance measures
as required by the Government Performance and Results Act. The DoD is in the process of reviewing available data and
developing a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No.
4, “Managerial Cost Accounting Concepts and Standards for the Federal Government”, as amended by SFFAS No. 30, “Inter-
entity Cost Implementation”.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual, and disbursing
transactions, which are not always recorded using accrual accounting. The Army General Fund’s systems do not always record
the transactions on an accrual basis as is required by the generally accepted accounting principles. The information presented
also includes data from nonfinancial feeder systems to capture all cost and financing sources for the Army General Fund.

Additional Disclosures

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level. Buyer-
side expenses are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts
between federal and nonfederal expenses.

The Army General Fund accounting system does not capture information relative to heritage assets separately and distinctly
from normal operations. The Army General Fund is not able to separately identify the costs of acquiring, constructing,
improving, reconstructing or renovating heritage assets. The Army Financial Improvement Plan outlines tasks to separately
identify and report costs associated with Heritage Assets by 1st Quarter, FY 2012.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   63
Note 19.	 Disclosures Related to the Statement of Changes in Net
          Position
Restatements

Army General Fund does not have any restatements.

Other Financing Sources, Other

Other Financing Sources, Other primarily consists of gains and losses that resulted from adjustments necessary to balance the
Army General Fund’s feeder systems with DoD’s financial reporting system and to correct inherent limitations of the current
financial systems.

Appropriations Received

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with the Appropriations
Received on the Statement of Budgetary Resources (SBR). The total difference is $18.0 million and is due to additional
resources included in the Appropriation Received on the SBR. Refer to Note 20, Disclosures Related to the SBR, for
additional details.

Eliminations

In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues, and expenses) for intradepartment activity
between earmarked and other (nonearmarked) funds are reported on the same lines. This results in an eliminations column,
which appears to contain no balances. In reality, the column contains all appropriate elimination entries, but all net to zero
within each respective line, except for intraentity imputed financing costs.

Earmarked

Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with the Earmarked Cumulative
Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of eliminations.


Note 20.	 Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                                           2009            Restated 2008
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at
     the End of the Period                                                             $     131,300,235     $    131,983,627
 2. Available Borrowing and Contract Authority at the End of the Period                $                 0   $                    0

Undelivered Orders

Undelivered Orders presented in the Statement of Budgetary Resources (SBR) includes Undelivered Orders-Unpaid for both
direct and reimbursable funds.

Reporting of Appropriations Received

Appropriations received on the SBR do not agree with appropriations received on the Statements of Changes in Net Position
because of differences between proprietary and budgetary accounting concepts and reporting requirements. These differences,
totaling $18.0 million, are made up of the recording of receipts for special and trust funds and the appropriations anticipated
indefinite accounts, $11.8 million and $6.2 million respectively.



64 Fiscal Year 2009 United States Army Annual Financial Statement
Presentation of Statement of Budgetary Resources

The SBR includes intraentity transactions because the statements are presented as combined.

Breakdown of Apportionment Categories

Office of Management and Budget Circular A-136 specifically requires disclosure of the amount of direct and reimbursable
obligations incurred against amounts apportioned under Category A (apportioned by fiscal quarter), Category B (apportioned
by project or activity), and Exempt from Apportionment.

                        Budgetary                                   Direct               Reimbursable
                        Category A                              $177.2 billion            $37.7 million
                        Category B                               $71.4 billion            $29.0 billion
                        Exempt from Apportionment                $13.4 million             $0
                          Total                                 $248.6 billion            $29.0 billion
                        Non-Budgetary
                        Category A                              $238.6 thousand             $0

This disclosure agrees with the aggregate of the related information as reported on the Budgetary Execution Report and
Obligations Incurred on the SBR.

Terms of Borrowing Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support
(ARMS) Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund ammunition plants
through many incentives for businesses willing to locate to a government ammunition production facility. The Army General
Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial firms’ use of
specified ammunition manufacturing facilities. The Army General Fund and Department of Agriculture Rural Business-
Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer the ARMS Initiative Loan
Guarantee Program.

Borrowings are repaid on Standard Form 1151, Nonexpenditure Transfer Authorization, as maturity dates become due. For
liquidating accounts, maturity dates are one working day prior to the anniversary date of the note. For financing accounts,
maturity dates are based on the period of time used in the subsidy calculation, not the contractual term of the agency’s loans to
borrowers.

Available Borrowing Authority as of September 30, 2009, is $33.6 thousand.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   65
Note 21.	 Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                                   2009          Restated 2008
 (Amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                                         $   277,625,347    $   277,635,629
 2. Less: Spending authority from offsetting collections and recoveries (-)          (51,532,135)       (42,168,271)
 3. Obligations net of offsetting collections and recoveries                     $   226,093,212    $   235,467,358
 4. Less: Offsetting receipts (-)                                                       (416,926)          (674,720)
 5. Net obligations                                                              $   225,676,286    $   234,792,638
 Other Resources:
 6. Donations and forfeitures of property                                        $             0    $               0
 7. Transfers in/out without reimbursement (+/-)                                      (2,462,951)         2,578,457
 8. Imputed financing from costs absorbed by others                                    1,067,410            948,408
 9. Other (+/-)                                                                       (3,264,694)         2,691,061
 10. Net other resources used to finance activities                              $    (4,660,235)   $     6,217,926
 11. Total resources used to finance activities                                  $   221,016,051    $   241,010,564
 Resources Used to Finance Items not Part of the Net Cost of Operations:
 12. Change in budgetary resources obligated for goods, services and
     benefits ordered but not yet provided:
     12a. Undelivered Orders (-)                                                 $     1,749,262    $   (23,602,938)
     12b. Unfilled Customer Orders                                                       365,072          3,083,054
 13. Resources that fund expenses recognized in prior Periods (-)                     (5,251,214)        (3,492,658)
 14. Budgetary offsetting collections and receipts that do not affect Net Cost           416,944            701,976
     of Operations
 15. Resources that finance the acquisition of assets (-)                            (26,767,400)       (30,240,386)
 16. Other resources or adjustments to net obligated resources that do not
     affect Net Cost of Operations:
     16a. Less: Trust or Special Fund Receipts Related to exchange in the
           Entity’s Budget (-)                                                                 0                    0
     16b. Other (+/-)                                                                  4,661,775         (5,269,518)
 17. Total resources used to finance items not part of the Net Cost of
     Operations                                                                  $   (24,825,561)   $   (58,820,470)
 18. Total resources used to finance the Net Cost of Operations                  $   196,190,490    $   182,190,094




66 Fiscal Year 2009 United States Army Annual Financial Statement
 As of September 30                                                                            2009            Restated 2008
 (Amounts in thousands)

 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
   Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                  $         328,097     $       319,243
 20. Increase in environmental and disposal liability                                                      0                   0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                           0                   0
 22. Increase in exchange revenue receivable from the public (-)                                           0                   0
 23. Other (+/-)                                                                                   185,903             874,211
 24. Total components of Net Cost of Operations that will Require or Generate
     Resources in future periods                                                         $         514,000     $     1,193,454
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                       $       9,637,151     $    10,787,640
 26. Revaluation of assets or liabilities (+/-)                                                            0                  30
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                      0                   0
     27b. Cost of Goods Sold                                                                               0                   0
     27c. Operating Material and Supplies Used                                                             0                   0
     27d. Other                                                                                     43,736          (2,604,419)
 28. Total Components of Net Cost of Operations that will not Require or
     Generate Resources                                                                  $       9,680,887     $     8,183,251


 29. Total components of Net Cost of Operations that will not Require or
     Generate Resources in the current period                                            $      10,194,887     $     9,376,705
 30. Net Cost of Operations                                                              $    206,385,377      $ 191,566,799

Required Disclosures

Due to Army General Fund’s financial system limitations, budgetary data is not in agreement with proprietary expenses and
assets capitalized. The difference between budgetary and proprietary data is a previously identified deficiency.

The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost totaled
$10.8 million and was reported in the category of Other Components Not Requiring of Generating Resource.

The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between net
obligations from budgetary accounting and net cost of operations from proprietary accounting. The following Reconciliation
of Net Cost of Operations to Budget lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated:

     n	 Obligations incurred
     n	 Less: Spending authority from offsetting collections and recoveries
     n	 Obligations net of offsetting collections and recoveries
     n	 Less: Offsetting receipts
     n	 Net obligations
     n	 Undelivered Orders
     n	 Unfilled Customer Orders

                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   67
Budgetary Resources Obligated, Other includes other gains and losses and gains and losses on disposition of assets that resulted
from adjustments necessary to balance the Army General Fund’s feeder systems with DoD’s financial reporting system and to
correct inherent limitations of the current financial systems.

Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other includes financing
sources transferred in and out without reimbursement and other gains and losses and gains and losses on disposition of assets.

Components Requiring or Generating Resources in Future Period, Other represents increases in future funded expenses for
conventional disposal costs and contingent liabilities for contract appeals and tort claims.

Components not Requiring or Generating Resources, Other is comprised of other expenses not requiring budgetary resources
for the Iraqi Relief and Reconstruction Fund. The Iraqi Relief and Reconstruction Fund is a transfer fund where the Army
General Fund executes the funding on behalf of the Executive Office of the President. The U.S. Treasury requires that the
execution for this type of transfer is presented on the Army General Fund financial statements.


Note 22.	 Disclosures Related to Incidental Custodial Collections
Army General Fund does not collect incidental custodial revenues.




68 Fiscal Year 2009 United States Army Annual Financial Statement
Note 23.	 Earmarked Funds
                                                                                            2009
BALANCE SHEET
As of September 30                                    Military    Medicare Eligible         Other
                                                     Retirement    Retiree Health         Earmarked
(Amounts in thousands)                                 Fund         Care Fund               Funds         Eliminations       Total

ASSETS
Fund balance with Treasury                           $        0   $              0    $      56,662       $          0   $    56,662
Investments                                                   0                  0             3,241                 0          3,241
Accounts and Interest Receivable                              0                  0             2,849          (2,756)                93
Other Assets                                                  0                  0                    0              0                0
Total Assets                                         $        0   $              0    $      62,752       $   (2,756)    $    59,996
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
    Employment Benefits                              $        0   $              0    $               0   $          0   $            0
Other Liabilities                                             0                  0             5,081            (211)           4,870
Total Liabilities                                    $        0   $              0    $        5,081      $     ( 211)   $      4,870
Unexpended Appropriations                                     0                  0                    0              0                0
Cumulative Results of Operations                              0                  0           57,671                  0        57,671
Total Liabilities and Net Position                   $        0   $              0    $      62,752       $     ( 211)   $    62,541


STATEMENT OF NET COST
For the period ended September 30
Program Costs                                        $        0   $              0    $      12,293       $          0   $    12,293
Less Earned Revenue                                           0                  0               602                 0               602
Net Program Costs                                    $        0   $              0    $      12,895       $          0   $    12,895
Less Earned Revenues Not Attributable to
   Programs                                                   0                  0                    0              0                 0
Net Cost of Operations                               $        0   $              0    $      12,895       $          0   $    12,895


STATEMENT OF CHANGES IN NET
    POSITION
For the period ended September 30
Net Position Beginning of the Period                 $        0   $              0    $      52,946       $          0   $    52,946
Net Cost of Operations                                        0                  0           12,895                  0        12,895
Budgetary Financing Sources                                   0                  0           18,734                  0        18,734
Other Financing Sources                                       0                  0           (1,114)                 0        (1,114)
Change in Net Position                               $        0   $              0    $        4,725      $          0   $      4,725
Net Position End of Period                           $        0   $              0    $      57,671       $          0   $    57,671




                             General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report          69
                                                                                              2008
 BALANCE SHEET                                                         Medicare
 As of September 30                                     Military    Eligible Retiree         Other
                                                       Retirement    Health Care           Earmarked
 (Amounts in thousands)                                  Fund             Fund               Funds         Eliminations         Total

 ASSETS
 Fund balance with Treasury                            $        0   $             0    $       48,123      $              0 $    48,123
 Investments                                                    0                 0             2,597                     0        2,597
 Accounts and Interest Receivable                               0                 0             2,886           (2,886)                   0
 Other Assets                                                   0                 0               935                     0             935
 Total Assets                                          $        0   $             0    $       54,541      $    (2,886) $        51,655
 LIABILITIES and NET POSITION
 Military Retirement Benefits and Other Federal
     Employment Benefits                               $        0   $             0    $               0   $              0 $            0
 Other Liabilities                                              0                 0             1,595                     0        1,595
 Total Liabilities                                     $        0   $             0    $        1,595      $              0 $      1,595
 Unexpended Appropriations                                      0                 0                    0                  0              0
 Cumulative Results of Operations                               0                 0            52,946                     0      52,946
 Total Liabilities and Net Position                    $        0   $             0    $       54,541      $              0 $    54,541


 STATEMENT OF NET COST
 For the period ended September 30
 Program Costs                                         $        0   $             0    $       17,405      $              0 $    17,405
 Less Earned Revenue                                            0                 0            (1,216)                    0      (1,216)
 Net Program Costs                                     $        0   $             0    $       16,189      $              0 $    16,189
 Less Earned Revenues Not Attributable to
    Programs                                                    0                 0                    0                  0              0
 Net Cost of Operations                                $        0   $             0    $       16,189      $              0 $    16,189


 STATEMENT OF CHANGES IN NET
     POSITION
 For the period ended September 30
 Net Position Beginning of the Period                  $        0   $             0    $       24,621      $              0 $    24,621
 Net Cost of Operations                                         0                 0            16,189                     0      16,189
 Budgetary Financing Sources                                    0                 0            18,168                     0      18,168
 Other Financing Sources                                        0                 0            26,346                     0      26,346
 Change in Net Position                                $        0   $             0    $       28,325      $              0 $    28,325
 Net Position End of Period                            $        0   $             0    $       52,946      $              0 $    52,946


Earmarked Funds represent funds received from outside sources for specific purposes. The Army General Fund receives
earmarked funds for the following appropriations:

     n	 Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and
          fishing permits. The funds for this account are used for wildlife, fish, and game conservation and rehabilitation on
          military reservations. Title 10, United States Code (USC) 670b gives the authority to collect funds for this purpose
          and distribute the funds for the intended purposes.

     n	 Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of contamination
          areas of Rocky Mountain Arsenal. Public Law (PL) 99 661, Section 1367 provides the authority for this explicit use.

70 Fiscal Year 2009 United States Army Annual Financial Statement
     n	 Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative
          memorabilia, trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and
          other related Commemorative Program expenses. The authority to create expenditures originates from PL 102 484,
          Section 378.

     n	 Forest and Wildlife Conservation, Military Reservations. These funds are produced from the sale of forest products
          that are in excess of operation and maintenance expenses at fiscal year-end for the payment of entitlements to states.
          The authority and directive for this fund originates from Title 10, USC 2665.

     n	 National Science Center. Funds received from the collection of fees for the use of the National Science Center and
          use for the operation and maintenance of the National Science Center as authorized under PL 99-145, Defense
          Authorization Act, 1986, Section 1459.

     n	 Department of the Army General Gift Fund. Funds are received from private parties and estates and used for various
          purposes. Title 10, USC 2601 establishes the authority governing the use of this fund.


The total earmarked funds column is shown as consolidated and relates only to earmarked funds. The elimination column on
this note includes only eliminations associated with earmarked funds and excludes the offsetting eliminations from all other
funds. This exclusion causes assets to not equal liabilities and net position in the note. However, the amounts in the total
column equal the amounts reported for earmarked funds on the Balance Sheet.


Note 24.	 Fiduciary Activities
Schedule of Fiduciary Activity

 As of September 30                                                                                       2009
 (Amounts in thousands)

 1. Fiduciary net assets, beginning of year                                               $                            128,313
 2. Fiduciary revenues                                                                    $                                    0
 3. Contributions                                                                                                      188,004
 4. Investment earnings                                                                                                  12,615
 5. Gain (Loss) on disposition of investments, net                                                                             0
 6. Administrative and other expenses                                                                                          0
 7. Distributions to and on behalf of  beneficiaries                                                                  (193,688)
 8. Increase/(Decrease) in fiduciary net assets                                           $                               6,931
 9. Fiduciary net assets, end of period                                                   $                            135,244


Schedule of Fiduciary Net Assets
 As of September 30                                                                                       2009
 (Amounts in thousands)

 Fiduciary Assets
 1. Cash and cash equivalents                                                             $                            135,244
 2. Investments                                                                                                                0
 3. Other Assets                                                                                                               0
 Fiduciary Liabilities
 4. Less: Liabilities                                                                                                          0
 5. Total Fiduciary Net Assets                                                            $                            135,244




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   71
Fiduciary activities are those Federal Government activities that relate to the collection or receipt, and the subsequent
management, protection, accounting, investment and disposition of cash or other assets in which nonfederal individuals or
entities have an ownership interest that the federal government must uphold. The DoD has a fiduciary duty to the Savings
Deposit Program, of which the Army General Fund participates. Public Law 89538 authorizes DoD, through the Savings
Deposit Program, to collect a voluntary allotment from the current pay of members of the Armed Forces deployed outside the
United States or its possessions in designated areas. The Army General Fund collects the savings and allotments of soldiers,
and the collections and accrued earned interest are transferred to the program’s executive agent, the Navy General Fund. These
fiduciary assets are not assets of the Army General Fund and are not recognized on the Army General Fund’s balance sheet.


Note 25.	 Other Disclosures
                                                                                                     2009
 As of September 30                                                                            Asset Category
                                                                        Land and
 (Amounts in thousands)                                                 Buildings            Equipment           Other           Total

 1. ENTITY AS LESSEE-Operating Leases
    Future Payments Due
    Fiscal Year
    2010                                                            $        2,118       $               0   $           0   $      2,118
    2011                                                                            67                   0               0               67
    2012                                                                            67                   0               0               67
    2013                                                                            67                   0               0               67
    2014                                                                            67                   0               0               67
    After 5 Years                                                          15,284                        0               0        15,284
 Total Future Lease Payments Due                                    $      17,670        $               0   $           0   $    17,670


Note 26.	 Restatements
During 4th Quarter, FY 2009, an accounting error was discovered. As a result, prior year changes have been made
retrospectively in accordance with generally accepted accounting principles (GAAP).

Correction of an Accounting Error

In September 2008, values for Accounts Payable were understated due to accruals not being posted for undistributed
disbursements in FY 2008. During a review of the financial statements, the Office of the Under Secretary of Defense
Comptroller, OUSD(C) discovered that the Accounts Payable was understated for FY 2008. OUSD(C) determined that the
Army General Fund would need to correct their records to reflect the correct balance for Accounts Payable for FY 2008.

Per OMB Circular A-136 Section II.4.5.4, errors in financial statements result from mathematical mistakes, mistakes in the
application of accounting principles, or oversight or misuse of facts that existed at the time the financial statements were
prepared. Prior period financial statements should be restated for corrections of errors that would have caused any statements
presented to be materially misstated, consistent with Statement of Federal Financial Accounting Standards No. 21, “Reporting
Corrections of Errors and Changes in Accounting Principles.”




72 Fiscal Year 2009 United States Army Annual Financial Statement
                            Consolidated Balance Sheet
                            Accounts Payable                                        $1,065,869,989.02
                            Cumulative Result of Operations                         $1,065,869,989.02
                            Statement of Budgetary Resources
                            Delivered Orders Obligations Unpaid                     $1,065,869,989.02
                            Undelivered Orders Obligations Unpaid                  ($1,065,869,989.02)
                            Statement of Changes in Net Position
                            Cumulative Result of Operations                         $1,065,869,989.02

The adjustment to correct the Accounts Payable increases Cumulative Results of Operations, Expended Appropriations, and
Delivered Orders Obligations Unpaid. A comparative account adjustment has been prepared in 4th Quarter, FY 2009 to
correct the FY 2008 Accounts Payable and Delivered Orders Obligations Unpaid accounts.

To prevent the reoccurrence of this error, accruals are being posted for undistributed disbursements.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   73
74 Fiscal Year 2009 United States Army Annual Financial Statement
FY 2008 Required Supplementary Stewardship Information (RSSI)
The following summarizes Nonfederal Physical Property. Investments in Non-federal Physical Property refers to those
expenses incurred by the Army for the purchase, construction, or major renovation of physical property owned by State and
Local Governments, including major additions, alterations and replacements; the purchase of major equipment; and the
purchase of improvement of other physical assets. A schedule of estimated investments value of state-owned properties that are
used by the Federal Government is shown below.

                                              Non-federal Physical Property
                                   Yearly Investment in State and Local Governments
                                       For Fiscal Years FY 2005 through FY 2009
                                                      (Amounts in millions)


         (a)                                            (b)            (c)         (d)            (e)            (f)
         Categories                                   FY 2009        FY 2008     FY 2007        FY 2006       FY 2005
         Transferred Assets:
         1. National Defense Mission Related             $26.7           $34.2      $23.0         $66.5         $70.7
         Funded Assets:
         2. National Defense Mission Related             0               0          0             0             0
         Total                                           $26.7           $34.2      $23.0         $66.5         $70.7

The Army General Fund incurs investments in Nonfederal Physical Property for the purchase, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations, and
replacements, the purchases of major equipment, and the purchases or improvement of other nonfederal assets. In
addition, Nonfederal Physical Property Investments include federally-owned physical property transferred to state and local
governments.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current Department accounting systems are unable to capture and summarize costs in accordance with federal
accounting standards.

The following summarizes Basic Research, Applied Research, and Development Investments and provides examples of each.

                                      Investments in Research and Development
                                    Yearly Investment in Research and Development
                                       For Fiscal Years FY 2005 through FY 2009
                                                      (Amounts in millions)


     (a)                                               (b)              (c)          (d)            (e)            (f)
     Categories                                     FY 2009          FY 2008      FY 2007        FY 2006        FY 2005
     Basic Research                                   $392.7           $345.9       $348.9         $355.4        $360.0
     Applied Research                                1,191.1          1,147.4      1,115.2        1,006.8          995.1
     Development
         Advanced Technology Development              1,341.8          1,336.5      1,576.2       1,369.3           1,185.8
         Advanced Component Development
           and Prototypes                             1,023.8            719.8          585.3         659.7          830.3
         Systems Development and
           Demonstration                              4,883.9          4,981.4      5,026.1       4,963.5           4,309.4
         Research, Development, Test and
           Evaluation Management Support             1,387.1         1,317.1       1,336.7        1,287.5        1,157.3
         Operational Systems Development             1,700.9         1,459.2       1,380.5        1,218.7        1,156.7
     Total                                         $11,921.4       $11,307.3     $11,368.9      $10,860.9       $9,994.6




                             General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   75
Narrative Statement:

Investment values included in this report are based on Research and Development outlays (expenditures). Outlays are used
because current Department accounting systems are unable to capture and summarize costs in accordance with federal
accounting standards. Research and Development (R&D) programs are classified in the following categories: Basic Research,
Applied Research and Development. The definition for each type of Research and Development Category and subcategories
are explained below:

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and of
observable facts without specific applications, processes, or products in mind. Basic Research involves the gathering of a fuller
knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.

The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes to the
sustainment of US Army scientific and technological superiority in land warfighting capability, provides new concepts and
technologies for the Army’s Future Force, and provides the means to exploit scientific breakthroughs and avoid technological
surprises. It fosters innovation in Army niche areas (such as lightweight armor, energetic materials, night vision) and where the
commercial incentive to invest is lacking due to limited markets (e.g., vaccines for tropical diseases). It also focuses university
single investigators on research areas of Army interest, such as high-density compact power and novel sensor phenomenologies.
The in-house portion of the program capitalizes on the Army’s scientific talent and specialized facilities to expeditiously
transition knowledge and technology into the appropriate developmental activities. The extramural program leverages
the research efforts of other government agencies, academia, and industry. This translates to a coherent, well-integrated
program which is executed by four primary contributors: 1) the Army Research, Development, and Engineering Command
(RDECOM); 2) the US Army Engineer Research and Development Center (ERDC); 3) the Army Medical Research and
Materiel Command (MRMC) laboratories; and 4) the Army Research Institute for Behavioral and Social Sciences (ARI). The
basic research program is coordinated with the other Services via Defense Science and Technology Reliance (Defense Basic
Research Advisory Group), and other inter-service working groups. This program responds to the scientific and technological
requirements of the Department of Defense Basic Research Plan by enabling technologies that can significantly improve joint
war fighting capabilities. The projects in this program involve basic research efforts directed toward providing fundamental
knowledge that will contribute to the solution of military problems related to long-term national security needs.

University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this
program directly supports Future Force requirements by providing research that supports enabling technologies for Future
Force capabilities. Broadly, the work in this project falls into three categories: Collaborative Technology Alliances (CTAs),
University Centers of Excellence (COE), and paradigm-shifting centers - University-Affiliated Research Centers (UARCs).
The Army has formed CTAs to leverage large investments by the commercial sector in basic research areas that are of
great interest to the Army. CTAs involve partnerships between industry, academia, and the Army Research Laboratory to
incorporate the practicality of industry, the expansion of the boundaries of knowledge from universities, and Army scientist
to shape, mature and transition technology. CTAs have been competitively established in the areas of Advanced Sensors,
Advanced Decision Architecture, Communications and Networks, Power and Energy, and Robotics. This program element
(PE) includes the Army’s COE, which focus on expanding the frontiers of knowledge in research areas where the Army has
enduring needs, such as rotorcraft, automotive, microelectronics, materials, and information sciences. COEs couple state-
of-the-art research programs at academic institutions with broad-based graduate education programs to increase the supply
of scientists and engineers in information sciences, materials science, electronics, automotive, and rotary wing technology.
Also included is eCYBERMISSION, the Army’s national web-based competition to stimulate interest in science, math,
and technology among middle and high school students. This program also includes the four Army UARCs, which have
been created to exploit opportunities to advance new capabilities through a sustained long-term multidisciplinary effort.
The Institute of Advanced Technology funds basic research in electromagnetics and hypervelocity physics. The Institute
for Soldier Nanotechnologies focuses on Soldier protection by emphasizing revolutionary materials research for advanced
Soldier protection and survivability. The Institute for Collaborative Biotechnologies, focusing on enabling network centric-
technologies, will broaden the Army’s use of biotechnology for the development of bio-inspired materials, sensors, and
information processing. The Institute for Creative Technologies is a partnership with academia and the entertainment and
gaming industries to leverage innovative research and concepts for training and simulation.

76 Fiscal Year 2009 United States Army Annual Financial Statement
Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by which
a recognized and specific need may be met. It is the practical application of such knowledge or understanding for the purpose
of meeting a recognized need. This research points toward specific military needs with a view toward developing and evaluating
the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are scientific studies,
investigations, and research papers, hardware components, software codes, and limited construction of, or part of, a weapon
system to include nonsystem specific development efforts.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor
and armaments that will significantly enhance the survivability and lethality of Future Force systems and where feasible, can
be exploited to enhance the Current Force. This program builds on materials research transitioned from Defense Research
Sciences Materials and Mechanics project and applies it to specific Army platforms and the individual Soldier. This program is
directed toward developing materials technology that contributes to making heavy forces lighter and more deployable and light
forces more lethal and survivable. The program provides the technology base required for solving materials-related problems
in individual Soldier support equipment, armor, armaments, aircraft, ground and combat vehicles, and combat support. This
program also funds collaborative research efforts in nanomaterials technology between the Army Research Laboratory (ARL)
and the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts Institute of Technology and the ISN industry
partners. The effort is focused specifically on the improvement in individual Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and applies combat
vehicle and automotive component technologies that enhance survivability, mobility, sustainability, and maintainability of
Army ground combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and tactical vehicles are
more often exposed to combat conditions, one of the greatest technological and operational challenges is providing adequate
crew protection without reliance on heavy passive armor. This challenge will be met using a layered approach, including
long-range situational awareness, advanced lightweight opaque and transparent armors, Active Protection Systems (APS), and
multi-spectral signature reduction. This program focuses on designing, fabricating, and evaluating performance of integrated
and add-on lightweight armor packages needed to provide lightweight combat vehicles protection against Chemical Energy
(CE) and Kinetic Energy (KE) threats with less than one fourth the weight of conventional heavy armor. This program
also designs, fabricates, and evaluates structural and add-on armors for tactical vehicles. This program funds the National
Automotive Center (NAC). The goal of the NAC is to leverage large commercial investments in automotive technology,
research, and development by pursuing automotive-oriented technology programs that have potential benefit to military
ground vehicles. This program researches and investigates a variety of enabling technologies in the areas of hybrid electric
propulsion, mobility, thermal management, intelligent systems, vehicle diagnostics, fuels/lubricants, and water purification.
Future Force vehicles and new tactical vehicles are being designed with hybrid electric architectures, advanced high power
density engines, and auxiliary power units that provide power for propulsion, control systems, communications, life support
systems, electromagnetic (EM) armor, Soldier battery charging, and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technological
feasibility, assessment of operability, and production capability. Development is comprised of five stages defined below:

     1.	 Advanced Technology Development: is the systematic use of the knowledge or understanding gained from research
         directed toward proof of technological feasibility and assessment of operational and productibility rather than the
         development of hardware for service use. Employs demonstration activities intended to prove or test a technology or
         method.

     2.	 Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic
         an operating environment as possible to assess the performance or cost reduction potential of advanced technology.
         Programs in this phase are generally system specific. Major outputs of Advanced Component Development
         and Prototypes are hardware and software components, or complete weapon systems, ready for operational and
         developmental testing and field use.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   77
     3.	 System Development and Demonstration concludes the program or project and prepares it for production. It
         consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons systems
         finalized for complete operational and developmental testing.

     4.	 Research, Development, Test & Evaluation Management Support is support for installations and operations for
         general research and development use. This category includes costs associated with test ranges, military construction
         maintenance support for laboratories, operation and maintenance of test aircraft and ships, and studies and analyses
         in support of the R&D program.

     5.	 Operational Systems Development is concerned with development projects in support of programs or upgrades still
         in engineering and manufacturing development, which have received approval for production, for which production
         funds have been budgeted in subsequent fiscal years.


The following are five representative program examples of development:

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide enabling technologies for
a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all environments for the Army’s
Future Force and, where feasible, exploit opportunities to enhance Current Force capabilities. Technologies will be matured
and demonstrated to address this challenge with distributed, mobile, secure, self-organizing communications networks. A
key objective is to demonstrate seamlessly integrated communications technologies across all network tiers, ranging from
unattended networks and sensors through maneuver elements and airborne/space assets. To accomplish the goal this program
will investigate and leverage external communication technologies and combine technology options in a series of Command,
Control, Communications, and Computers Intelligence, Surveillance, and Reconnaissance (C4ISR) On-The-Move (OTM)
experiments to measure the battlefield effectiveness for the Future Force. This program also provides: protection technologies
for tactical wireless networks against modern network attacks; smart communication technologies to network and control
unmanned systems anywhere on the battlefield enabling timely sensor-decider-engagement linkage to defeat critical targets;
advanced antenna technologies for greater communications mobility, range and throughput; and automated network
management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation support of
tactical programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew Integrated
Systems. This program demonstrates the feasibility and maturity of new technology and gains understanding in order to
evaluate utility of this technology to expedite delivery of new capabilities for Army Aviation rotary wing assets. Additionally,
the Aviation Ground Support Equipment assets enhance the functionality of current and future aircraft by improving the
effectiveness of maintenance and servicing operations through validating new maintenance concepts to improve man and
machine interfaces, improve aircraft maintenance processes, reduce Operation and Support costs and insert diagnostics
technologies to replace obsolete and unsupportable equipment.

Patriot/MEADS Combined Aggregate Program (CAP) (PE 0604869A): The Medium Extended Air Defense System
(MEADS) program is a tri-national co-development program between the United States, Germany, and Italy to replace the
U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and NIKE Hercules systems in Italy. The NATO
MEADS Management Agency (NAMEADSMA) is the NATO contracting authority providing management of the MEADS
program on behalf of the participating nations and is responsible for managing the system acquisition. Within the Patriot/
MEADS CAP there are two synergistic efforts: an international MEADS development effort managed by NAMEADSMA,
and a U.S. effort to inject U.S.-specific capability requirements into the MEADS Major End Items.

MEADS will provide joint and coalition forces, critical asset and defended area protection against multiple and simultaneous
attacks by short to medium range ballistic missiles, cruise missiles, unmanned aerial vehicles and tactical air-to-surface missiles.
The Missile Segment Enhancement missile has been accepted as the baseline missile for MEADS. It is being developed by the
U.S. for Patriot to meet U.S. operational requirements. MSE will provide a more agile and lethal interceptor that increases the
engagement envelope/defended area of Patriot and the MEADS systems. The PAC-3 MSE improves upon the current PAC-3
missile capability with a higher performance solid rocket motor, modified lethality enhancer, more responsive control surfaces,
upgraded guidance software, and insensitive munitions improvements.


78 Fiscal Year 2009 United States Army Annual Financial Statement
Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly testing field
systems and equipment needed in support of the Global War on Terrorism such as individual soldier protection equipment
and Counter Measures for Improvised Explosive Devices and up-armoring the Army’s wheeled vehicle fleet. This project
sustains the developmental Test and Evaluation capability required to support Army as well as joint Service or other Service
systems, hardware, and technologies. Unclassified systems scheduled for developmental testing encompass the entire spectrum
of weapons systems such as: up-armoring vehicle ballistic protection on the Buffalo, Cougar, Family of Medium Tactical
Vehicles Long Term Armor Strategy, and Joint Light Tactical Vehicle; Stryker upgrades; armor gun shields for tactical vehicles;
reactive and active armor on the Stryker; Personnel Screening Systems; the Mine Resistant Ambush Protected Vehicles;
Intelligence Surveillance and Reconnaissance; Electronic Countermeasure Devices; body armor; High Mobility Multipurpose
Wheeled Vehicle; Aviation Transformation; aviation protection systems; missile defense; and Unmanned Systems. Capabilities
are also required to support System-of-Systems and network centric systems to include Future Combat System (FCS) testing.

This project provides the institutional funding required to operate the developmental test activities required by Department of
Defense (DoD) Program Executive Officers, Program and Product Managers, and Research, Development, and Engineering
Centers. This project provides resources to operate four DoD Major Range and Test Facility Bases: White Sands Missile
Range, NM; Aberdeen Test Center, MD; Electronic Proving Ground, AZ; and Yuma Proving Ground, AZ (to include
management of Army natural environmental testing at Cold Regions Test Center, Fort Greely and Fort Wainwright, AK, and
Tropic Regions Test Center at various locations). This project also funds the Army’s developmental test capability at Aviation
Technical Test Center, AL; and Redstone Technical Test Center, AL. Test planning and safety verification at Headquarters,
U.S. Army Developmental Test Command (DTC), MD is also supported by this program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program develops
Information Systems Security (ISS) equipment and techniques required to combat threat Signal Intelligence capabilities and
to insure the integrity of data networks. The Army’s RDTE ISS program objective is to implement National Security Agency
(NSA) developed security technology in Army information systems. Communications Security Equipment (COMSEC)
technology ensures total signal and data security for all Army information systems to include any operational enhancement
and specialized Army configurations.

National Defense Property, Plant, and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting Standards
No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense Property, Plant and
Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and encouraged early implementation.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   79
FY 2009 Required Supplementary Information (RSI)
                                         General Property, Plant, and Equipment
                                      Real Property Deferred Maintenance Amounts
                                       For Fiscal Year Ended September 30, 2009
                                                       (Amounts in thousands)


                                                                       Current Fiscal Year
                                             1. Plant                 2. Required Work
             Property Type              Replacement Value          (deferred maintenance)            3. Percentage
             Category 1                      $176,819                           $24,685                     14%
             Category 2                        $27,011                             $7,327                   27%
             Category 3                         $1,199                                $0                     0%

Narrative Statement:

The deferred maintenance estimates are based on the facility Q-ratings found in the Army’s real property inventory. For
FY 2009, the Q-rating values range from 0 to 100. Deferred maintenance is calculated as follows:

	        Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value (PRV).

Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities, and by business rule for the
remaining facilities. During ISR data collection, facility occupants evaluate the condition of each facility against published
standards. The inspection generates a quality improvement cost estimate for each facility based on the condition rating of
each component of the facility, and the component improvement cost factor. Improvement cost factors are developed using
industry standards for each facility component within each facility type. The business rule assignment of Q-ratings is as
follows: 95 if the facility is no more than 5 years old; 85 if the facility is permanent or semi-permanent construction and
between 5 and 15 years old; 70 if the facility is permanent or semi-permanent construction and more than 15 years old; 40
if the facility is temporary construction and more than 5 years old; 95 if the asset is a lease. For assets with a Non-Functional
operational status, assigned Q-ratings are 95 if the reason code is RENO, 70 if the reason code is ENVR, and 40 if the reason
code is DAMG. Acceptable operating condition represents facilities with no deferred maintenance.

The business rule Q-rating assignment of 85 for facilities between 5 and 15 years old and the business rules for non-functional
facilities are new for the 2009 report.

Property Categories are as follows:
    - Category 1: Buildings, Structures, and Utilities that are enduring and required to support an ongoing mission including
         multi-use Heritage Assets

     - Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for replacement or disposal
         including multi-use Heritage Assets

     - Category 3: Buildings, Structures, and Utilities that are Heritage Assets




80 Fiscal Year 2009 United States Army Annual Financial Statement
                                         Military Equipment Deferred Maintenance
                                         For Fiscal Year Ended September 30, 2009
                                                        (Amounts in thousands)

                              Major Categories
                                1. Aircraft                                                  $392,902
                                2. Automotive Equipment                                          7,864
                                3. Communication-Electronics                                  417,128
                                4. Missiles                                                   133,415
                                5. Combat Vehicles                                            428,322
                                6. Construction                                                 18,205
                                7. General Purpose Equipment                                    41,909
                                8. Ordnance Weapons and Munitions                               38,051
                                9. Other Weapons Systems                                        66,315
                                    Total                                                  $1,544,111


The Op-30 from the FY2009 President Budget was used to compile the deferred depot level maintenance. Depot
Maintenance Operations and Planning System (DMOPS). DMOPS is the automated system for capturing depot-level
deferred maintenance data. The data is for SAG 123, all active components.

                            Heritage Assets and Stewardship Land Condition Information
                                     For Fiscal Year Ended September 30, 2009

The conditions of archeological sites across the Army remain varied from poor to excellent based on a number of factors
including the environmental setting, the type of the site, and impacts from Army activities. If an Army activity has the
potential to adversely impact an archeological site eligible for the National Register of Historic Places, the installation’s
Installation Cultural Resource Management Plan (ICRMP) contains provisions for how the installation would proceed
to mitigate those impacts. The ICRMP is the plan that installations use to manage their cultural resources including
archeological sites in compliance with federal requirements. These plans provide for site protection, site conditions
monitoring, and mitigation procedures for adverse impacts to sites. Overall, the conditions of sites on Army installations are
fair based on the Army’s cultural resource management procedures.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   81
82 Fiscal Year 2009 United States Army Annual Financial Statement
                                                         Inspector General
                                                       Department of Defense
                                                         200 Army Navy Drive
                                                    Arlington, Virginia 22202-4704



                                                                                                                            November 8, 2009


MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND
			             COMPTROLLER)


SUBJECT: Independent Auditor’s Report on the Army General Fund FY 2009 and FY 2008
	         Basic Financial Statements (Report No. D 2010 010)


The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army General Fund Consolidated Balance Sheet as of September 30, 2009 and 2008, and the Consolidated
Statement of Net Cost, the Consolidated Statement of Changes in Net Position, and the Combined Statement of Budgetary
Resources, and related notes for the fiscal years then ended. The financial statements are the responsibility of Army
management. The Army is also responsible for implementing effective internal control and for complying with laws and
regulations.


We are unable to express an opinion on the Army General Fund FY 2009 and FY 2008 Basic Financial Statements because
of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer of
opinion on the financial statements, we are including the required Report on Internal Control and Compliance with Laws and
Regulations (Report). The Report is an integral part of our disclaimer of opinion on the financial statements and should be
considered in assessing the results of our work.



Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the Army General
Fund FY 2009 and FY 2008 Financial Statements would not substantially conform to accounting principles generally
accepted in the United States of America (U.S. GAAP) and that Army financial management and feeder systems were unable
to adequately support material amounts on the financial statements as of September 30, 2009. Section 1008(d) of the
FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to perform only those audit
procedures required by generally accepted government auditing standards that are consistent with the representations made by
management. Accordingly, we did not perform auditing procedures required by the U.S. Government Accountability Office,
“Government Auditing Standards,” and Office of Management and Budget (OMB) Bulletin 07-04, “Audit Requirements for
Federal Financial Statements,” as amended1 to determine whether material amounts on the financial statements were presented
fairly.


Prior audits have identified, and the Army has acknowledged, the long-standing material internal control weaknesses identified
in the Summary of Internal Control. These pervasive material weaknesses may affect the reliability of certain information




1
    OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,”
      September 23, 2009.


                                    General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report       83
contained in the annual financial statements, much of which is taken from the same data sources as the Basic Financial
Statements.2 Therefore, we are unable to express, and we do not express, an opinion on the Basic Financial Statements.
Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis, Required
Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying Information
presented with the Basic Financial Statements. Accordingly, we express no opinion on that information.


OMB Circular A-136, “Financial Reporting Requirements,” states that prior-period financial statements should be restated
for corrections of errors that would have caused any statements presented to be materially misstated. In September 2008,
the Army General Fund understated values for Accounts Payable caused by accruals not being posted for undistributed
disbursements in FY 2008. As a result of this error, the Army General Fund had a prior-period adjustment to increase
Accounts Payable by $1.1 billion. This is discussed in detail in Note 26.



Summary of Internal Control
In planning our work, we considered Army internal control over financial reporting and compliance with applicable laws
and regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB
guidance, but our purpose was not to express an opinion on internal control.


Accordingly, we do not express an opinion on internal control over financial reporting and compliance with applicable laws
and regulations. However, previously identified significant deficiencies, all of which are material, continued to exist in the
following areas:


        n	 Financial Management Systems

        n	 Fund Balance with Treasury

        n	 Inventory and Related Property

        n	 General Property, Plant, and Equipment

        n	 Environmental Liabilities

        n	 Intragovernmental Eliminations
        n	 Accounting Adjustments

        n	 Statement of Net Cost

        n	 Abnormal Account Balances

        n	 Accounts Receivable

        n	 Accounts Payable

        n	 Statement of Budgetary Resources




2
    The annual financial statements include the Basic Financial Statements, Management’s Discussion and Analysis, Required Supplementary Stewardship
       Information, Required Supplementary Information, and Other Accompanying Information.


84 Fiscal Year 2009 United States Army Annual Financial Statement
        n	 Reconciliation of Net Cost of Operations to Budget

        n	 Contingency Payment Audit Trails


A material weakness is a significant deficiency, or a combination of significant deficiencies, resulting in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected.3


A significant deficiency is a control deficiency,4 or a combination of control deficiencies, adversely affecting the entity’s
ability to initiate, authorize, record, process, or report financial data reliably in accordance with U.S. GAAP. Significant
deficiencies result in more than a remote likelihood that a misstatement of an entity’s financial statements that is more than
inconsequential will not be prevented or detected. One previously identified significant deficiency, the legal representation
process, continued to exist.


Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant deficiencies.
The Attachment offers additional details on significant deficiencies, most of which we consider to be material internal control
weaknesses.


The Army reported the above weaknesses in its FY 2009 Statement of Assurance.



Summary of Compliance with Laws and Regulations
We limited our work to determine compliance with selected provisions of applicable laws and regulations related to financial
reporting because management acknowledged that instances of noncompliance identified in prior audits continued to exist.
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that Army financial
management systems do not substantially comply with Federal financial management system requirements, U.S. GAAP,
and the U.S. Government Standard General Ledger at the transaction level. Therefore, we did not determine whether the
Army complied with all applicable laws and regulations related to financial reporting. Providing an opinion on compliance
with certain provisions of laws and regulations was not an objective of our audit, and accordingly, we do not express such an
opinion. See the Attachment for additional details on compliance with laws and regulations.




3
    The term “remote” is defined as when the chance of a future event or events occurring is slight. Therefore, the likelihood of an event is “more than remote”
       when it is at least reasonably possible.
4
    A control deficiency exists when the design or operation of a control does not allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.


                                       General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report                        85
Management’s Responsibilities
Management is responsible for:


    n	 preparing the financial statements in conformity with U.S. GAAP;

    n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
         objectives of the Federal Managers’ Financial Integrity Act are met; and

    n	 complying with applicable laws and regulations.


We provided a draft of this report to the Office of the Deputy Secretary of the Army (Financial Operations), who provided
technical comments that we have incorporated as appropriate. Army officials expressed their continuing commitment to
address the problems this report outlines.




                                                        Patricia A. Marsh, CPA
                                                        Assistant Inspector General
                                                        Defense Business Operations




Attachment:
As stated




86 Fiscal Year 2009 United States Army Annual Financial Statement
  Report on Internal Control and Compliance with Laws
                     and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws
and regulations are met; and that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we
do not, express an opinion on internal control over financial reporting. However, we have identified the following material
weaknesses and significant deficiency that could adversely affect the Army financial management operations.



Previously Identified Material Weaknesses

Management acknowledged that previously identified significant deficiencies, all of which are material, continued to exist in
the following areas.


Financial Management Systems
Army accounting systems lack a single, standard, transaction-driven general ledger. The Army also needs to upgrade or replace
many of its nonfinancial feeder systems so that financial statement reporting requirements can be met. The lack of a single,
standard, transaction-driven, general ledger will continue to prevent the Army from preparing auditable financial statements.


The Army acknowledges that its financial management systems are unable to provide adequate evidence supporting various
material amounts on the financial statements and do not comply with the Federal financial management systems requirements,
U.S. GAAP, and the U.S. Government Standard General Ledger at the transaction level. Until the Army’s systems and
processes are updated to comply with U.S. GAAP, the Army’s financial data will be based on budgetary, nonfinancial feeder
system transactions and adjustments for known accruals of major items. The Army derives its reported values and information
for major asset and liability accounts from nonfinancial feeder systems, such as inventory and logistics systems. (Major assets
include General Property, Plant, and Equipment, and Inventory and Related Property.) In addition, budgetary transactions
are recorded in line items such as Fund Balance with Treasury, Accounts Receivable, Accounts Payable, Gross Costs, and
Earned Revenue.


Fund Balance With Treasury
DOD and its Components, including the Army, have had long-standing problems with reconciling transaction activity in their
Fund Balance with Treasury accounts. Appropriation balances recorded in the accounting records do not agree with balances
held at the Department of the Treasury.


Inventory and Related Property
Army systems do not maintain historical cost data necessary to comply with Statement of Federal Financial Accounting
Standards No. 3, “Accounting for Inventory and Related Property.” Army systems also are unable to produce financial
transactions using the U.S. Government Standard General Ledger. Statement of Federal Financial Accounting Standards
No. 3 states that Operating Materials and Supplies must be expensed when the items are consumed. However, the Army has
acknowledged that a significant portion of Operating Materials and Supplies is expensed when purchased, instead of when
consumed.


General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant, and Equipment,” requires that
all General Property, Plant, and Equipment be recorded at cost, and that depreciation expense be recognized on all General
Property, Plant, and Equipment. For the Army General Fund, real property and military equipment are not recorded at

                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   87
acquisition or historical cost and do not include all costs needed to bring real property to a form suitable for the intended use.
Also, the Army cannot support the reported cost of Military Equipment in accordance with Statement of Federal Financial
Accounting Standards No. 6. The Army also lacks financial accountability systems that comply with the Federal Financial
Management Improvement Act of 1996 for all of its Military Table of Equipment unit property books.


Environmental Liabilities
The Army has not properly estimated and reported its environmental liabilities. For example, the processes used to report
environmental liabilities for the Defense Environmental Restoration Program, Base Realignment and Closure, and the
non-Defense Environmental Restoration Program on the financial statements were not adequate to establish or maintain
sufficient documentation and audit trails. Although estimators were properly qualified to perform estimates, the Army did not
document supervisory reviews of estimates and did not have adequate quality control programs in place to ensure the reliability
of data.


Intragovernmental Eliminations
DOD is unable to collect, exchange, and reconcile buyer and seller intragovernmental transactions, resulting in adjustments
that cannot be verified. This is primarily because of systems limitations, as the majority of the systems currently used within
DOD do not allow for the capture of buyer-side information for use in reconciliations and eliminations. DOD and Army
accounting systems are unable to capture trading partner data at the transaction level in a manner that facilitates required
trading partner eliminations, and DOD guidance does not require adequate support for eliminations. In addition, DOD
procedures required that buyer-side transaction data be forced to agree with seller-side transaction data without performing
proper reconciliations. Therefore, Defense Finance and Accounting Service (DFAS), Indianapolis made $15.7 billion in
unsupported adjustments to intragovernmental accounts to force the accounts to agree with the records of Army’s trading
partners.


Accounting Adjustments
Because of inadequate financial management systems and processes, DFAS, Indianapolis uses journal voucher adjustments and
data calls to prepare the Army General Fund financial statements. DFAS, Indianapolis did not adequately support $311.3
billion in journal voucher adjustments used to prepare the Army General Fund financial statements. Specifically, DFAS,
Indianapolis made the following unsupported adjustments:


     n	 $125.6 billion to force amounts to agree with other sources of information and records or financial statement lines,

     n	 $15.7 billion to force intragovernmental accounts to agree with the records of the Army’s trading partners,

     n	 $115.5 billion to correct errors and reclassify amounts to other accounts, and

     n	 $54.4 billion to force the general ledger account to agree with status of appropriations data (or ending balance
         adjustments) without reconciling the differences or determining which data source was correct.



Statement of Net Cost
The financial information contained in the Statement of Net Cost is not presented by program, in alignment with major goals
and outputs described in the DOD strategic and performance plans, as required by the Government Performance and Results
Act. Because financial processes and systems do not correlate costs with performance measures, revenues and expenses are
reported by appropriation category. Army systems do not always record transactions on an accrual basis, as required by U.S.
GAAP, and the amounts presented in the Statement of Net Cost are based on funding, obligation, and disbursing transactions.
To capture all cost and financing sources for the


Army, the information presented also includes data from nonfinancial feeder systems. In FY 2009, DFAS, Indianapolis
prepared $42.9 billion in unsupported adjustments that affected general ledger accounts used in the Statement of Net Cost.



88 Fiscal Year 2009 United States Army Annual Financial Statement
Abnormal Account Balances
DFAS, Indianapolis did not detect or take action to eliminate abnormal balances included in the Army General Fund
accounting records. The FY 2009 trial balance data for the Army General Fund included 123 general ledger accounts, with
$30.6 billion of unresolved abnormal balances for proprietary accounts used by DFAS, Indianapolis as part of the compilation
of the Army General Fund financial statements. The FY 2009 trial balance data for the Army General Fund included an
additional $34.3 billion of abnormal balances in 41 budgetary general ledger accounts that were not used to compile the Army
General Fund financial statements. DFAS, Indianapolis considers this budgetary data so unreliable that the trial balance for
budgetary accounts must be constructed from other budgetary reports.


Accounts Receivable
The Army has acknowledged weaknesses in its accounts receivable management. The weaknesses are considered to be DOD-
wide and apply to both public and intragovernmental receivables at the Army General Fund level. Weaknesses include:


     n	 noncompliance with policies and procedures regarding referrals to the Debt Management Office and the Department
         of Treasury and for write-offs of debt more than 2 years old;

     n	 a lack of controls to ensure that all entitlement system receivables (vendor pay, civilian pay, and interest) are recorded
         in the accounting systems; and

     n	 a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.


Accounts Payable
The Army is unable to properly account for and report Accounts Payable. Army accounting systems do not capture trading
partner data at the transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. The Army
has acknowledged that it is unable to reconcile intragovernmental accounts payable to the related intragovernmental accounts
receivable that generated the payables.


Statement of Budgetary Resources
Army accounting systems do not provide or capture data needed for obligations incurred or prior-year obligations recovered, as
required by OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget Requirements.” Although the
Army developed an alternative methodology to calculate these items, the amount of distortion cannot be reliably determined.
The Army uses budget execution data to prepare the monthly Standard Form (SF) 133 and to populate the quarterly Federal
Agencies Centralized Trial Balance System (FACTS) II budgetary general ledger accounts. DFAS, Indianapolis personnel then
used the Federal Agencies Centralized Trial Balance System II data, rather than general ledger data, to prepare the Statement
of Budgetary Resources. Because the SF 133 and the Statement of Budgetary Resources were prepared using the same budget
execution data, a true reconciliation between the two reports cannot be performed. According to OMB Circular No. A-136,
“Financial Reporting Requirements,” the Statement of Budgetary Resources should be predominantly derived from an entity’s
budgetary general ledger, instead of being based on budget execution data. In FY 2009, DFAS, Indianapolis prepared $2.7
billion in unsupported adjustments that affected general ledger accounts used in the Statement of Budgetary Resources.


DFAS, Indianapolis reported budget execution data to the Department of the Treasury that did not agree with the data
reported on the Army financial statements. The differences between the amounts reported on the SF 133 provided to OMB
and the Army General Fund Statement of Budgetary Resources (and its related footnote) totaled $1.4 billion for third quarter
FY 2009. This difference occurred because DFAS, Indianapolis did not perform an effective reconciliation among FACTS
II data, the Army General Fund Statement of Budgetary Resources, and the Army SF 133. As a result, DFAS, Indianapolis
used one set of budget execution data to manage Army funds, but provided the Department of the Treasury a different set of
budget execution data for OMB’s use. Also, DFAS, Indianapolis reported inaccurate and misleading budget execution data on
the Army SF 133, Army Statement of Budgetary Resources and related footnote, and to the Department of the Treasury for
the OMB SF 133. In addition, DFAS, Indianapolis will perpetuate the material differences in the newly fielded accounting
systems if the differences are not corrected.


                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   89
Reconciliation of Net Cost of Operations to Budget
The Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and Other Financing Sources,”
requires a reconciliation of proprietary and budgetary information to assist users in understanding the relationship of the
data. During FY 2007, OMB rescinded the requirement to report this reconciliation as a Statement of Financing and now
requires the disclosure of the information as a note to the financial statements. The Army acknowledged that it is unable to
accurately represent the relationship between budgetary obligations incurred and its Statement of Net Costs without making
unsupported adjustments.


Contingency Payment Audit Trails
DOD Office of the Inspector General Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq, Kuwait,
and Egypt,” May 22, 2008, determined that the Army made $1.4 billion in commercial payments that lacked the minimum
supporting documentation and information for a valid payment, such as certified vouchers, proper receiving reports, and
invoices. Payments that are not properly supported do not provide the necessary assurance that funds were used as intended.
In addition, we estimated that $6.3 billion of commercial payments contained the minimum supporting documentation but
did not comply with other statutory and regulatory requirements. The Army closed this material weakness in its FY 2009
Army Statement of Assurance as corrected. The U.S. Army Audit Agency recommended that the Contingency Payment Audit
Trails material weakness be restructured following a series of audits performed by that agency. Based on Army Audit Agency
report, A-2009-0173-ALL, “Audit of Controls Over Vendor Payments – Kuwait,” July 29, 2009, the Army continues to have
deficiencies in the maintenance of supporting documents, creating significant challenges in tracing audit trails for support of
financial statements.



Previously Identified Significant Deficiencies

As part of our financial-related audits, we noted the following significant deficiency that continued to exist.


Legal Representation Process
The Army legal representation process did not provide meaningful assessments of potential liabilities and was not linked to the
Army process for reporting and disclosing contingent legal liabilities on the financial statements. The legal representation letter
from the Army Office of General Counsel and the Army management schedule did not corroborate either the $508.4 million
reported on the Balance Sheet as part of Non-Federal Other Liabilities or the $639.5 million disclosed as contingent legal
liabilities on Note 16 in the FY 2009 Army General Fund Financial Statements.


These financial management deficiencies may cause inaccurate management information. As a result, Army management
decisions based in whole or in part on this information may be adversely affected. Financial information reported by DOD
may also contain misstatements resulting from these deficiencies.



Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited
our work to determine compliance with selected provisions of the applicable laws and regulations because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continued to exist. Therefore,
we did not determine whether the Army was in compliance with selected provisions of all applicable laws and regulations
related to financial reporting. Our objective was not to, and we do not, express an opinion on overall compliance with
applicable laws and regulations.



Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DOD to establish and maintain financial
management systems that comply substantially with Federal financial management systems requirements, applicable Federal


90 Fiscal Year 2009 United States Army Annual Financial Statement
accounting standards, and the U.S. Government Standard General Ledger at the transaction level. For FY 2009, the Army did
not fully comply with FFMIA. The Army acknowledged that many of its critical financial management and feeder systems did
not substantially comply with Federal financial management systems requirements, Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level as of September 30, 2009.



Government Performance and Results Act

Congress enacted the Government Performance and Results Act of 1993 (GPRA) to establish strategic planning and
performance measurement in the Federal Government. Strategic plans, annual performance plans, and annual program
performance reports comprise the main elements of GPRA. The Army did not comply with GPRA because it did not have
cost accounting systems in place to collect, process, and report operating costs. This resulted in the Army being unable to
present cost-of-operations data on the Army General Fund Statement of Net Cost that were consistent with the GPRA goals
and measures.


Antideficiency Act

Section 1341, title 31, United States Code (31 U.S.C. § 1341) limits the Army and its agents to making or authorizing only
expenditures or obligations that do not exceed the available appropriations or funds. Additionally, the Army or its agents may
not contract or obligate for the payment of money before an appropriation is made available for that contract or obligation
unless otherwise authorized by law. As stated in 31 U.S.C. § 1517, the Army and its agents are prohibited from making or
authorizing expenditures or obligations exceeding an apportionment or the amount permitted by prescribed regulations.
According to 31 U.S.C. § 1351, if an officer or employee of an executive agency violates the Antideficiency Act (ADA), the
head of the agency must report immediately to the President and Congress all relevant facts and a statement


of actions taken. During FY 2009, the Army General Fund reported four cases of violation of the ADA. Therefore, the Army
did not comply with 31 U.S.C. § 1341, 31 U.S.C. § 1351, and 31 U.S.C. § 1517.


DOD internal guidance limits the time from identification to reporting of ADA violations to 12 months. Our review of the
Army General Fund ADA investigations of potential violations showed that the Army did not process three of the four ADA
violation cases within 12 months.



Audit Disclosures
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on March 19, 2009, that
the Army financial management and feeder systems could not provide adequate evidence supporting various material amounts
on the financial statements, and previously identified material weaknesses continued to exist. Therefore, we did not perform
detailed testing related to previously identified material weaknesses. In addition, we did not perform audit work related to
the following selected provisions of laws and regulations: Provisions Governing Claims of the United States Government
(including provisions of the Debt Collection Improvement Act of 1996), Federal Credit Reform Act of 1990, Pay and
Allowance System for Civilian Employees, Prompt Payment Act, and the Improper Payment Act.


This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance with laws and regulations because previous audit reports contained recommendations for corrective actions or
because audit projects currently in progress will include appropriate recommendation.




                             General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   91
92 Fiscal Year 2009 United States Army Annual Financial Statement
Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the
financial position and results of operations for the entity,
pursuant to the requirements of Title 31, United States
Code, section 3515(b).

While the statements have been prepared from the books
and records of the entity, in accordance with the formats
prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used
to monitor and control budgetary resources which are
prepared from the same books and records.

The statements should be read with the realization that they
are for a component of the United States Government, a
sovereign entity.




        Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   93
 Department of Defense - Army Working Capital Fund

 CONSOLIDATED BALANCE SHEET
 As of September 30, 2009 and 2008 (Amounts in thousands)                         2009 Consolidated       2008 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
      Fund Balance with Treasury (Note 3)                                     $             1,349,591     $         2,571,441
      Accounts Receivable (Note 5)                                                            343,430                 297,458
      Other Assets (Note 6)                                                                           0                 1,879
      Total Intragovernmental Assets                                          $             1,693,021     $         2,870,778


 Cash and Other Monetary Assets (Note 7)                                                              0                       0
 Accounts Receivable,Net (Note 5)                                                              49,624                  16,972
 Loans Receivable (Note 8)                                                                            0                       0
 Inventory and Related Property,Net (Note 9)                                               23,164,252              20,279,681
 General Property, Plant and Equipment,Net (Note 10)                                        1,260,198               1,097,692
 Investments (Note 4)                                                                                 0                       0
 Other Assets (Note 6)                                                                        885,062                 559,932
 TOTAL ASSETS                                                                 $            27,052,157     $        24,825,055


 LIABILITIES (Note 11)
 Intragovernmental:
      Accounts Payable (Note 12)                                              $                84,576     $            85,510
      Other Liabilities (Note 15 & 16)                                                         82,570                  60,493
      Total Intragovernmental Liabilities                                     $               167,146     $           146,003


 Accounts Payable (Note 12)                                                                 1,606,340                 946,005
 Military Retirement and Other Federal                                                        231,234                 254,518
 Employment Benefits (Note 17)
 Other Liabilities (Note 15 and Note 16)                                                      342,716                 382,465
 TOTAL LIABILITIES                                                            $             2,347,436     $         1,728,991


 NET POSITION
 Unexpended Appropriations - Other Funds                                      $               440,722     $           719,900
 Cumulative Results of Operations - Other Funds                                            24,263,999              22,376,164
 TOTAL NET POSITION                                                           $            24,704,721     $        23,096,064


 TOTAL LIABILITIES AND NET POSITION                                           $            27,052,157     $        24,825,055


 The accompanying notes are an integral part of these financial statements.




94 Fiscal Year 2009 United States Army Annual Financial Statement
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2009 and 2008 (Amounts in thousands)                     2009 Consolidated             2008 Consolidated
Program Costs
Gross Costs                                                              $              30,247,547     $             19,466,040
(Less: Earned Revenue)                                                                 (29,560,443)                 (20,370,296)
Net Program Costs                                                        $                 687,104     $               (904,256)
Net Cost of Operations                                                   $                 687,104     $               (904,256)


The accompanying notes are an integral part of these financial statements.




                              General Fund | Principal Financial Statements, Notes, Supplementary Information and Auditor’s Report   95
 Department of Defense - Army Working Capital Fund

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 As of September 30, 2009 and 2008                        2009 Earmarked      2009 All Other               2009              2009
 (Amounts in thousands)                                        Funds             Funds                 Eliminations       Consolidated
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                        $              0   $    22,376,164      $                  0   $   22,376,164
 Prior Period Adjustments:
      Changes in accounting principles (+/-)                              0         1,689,600                         0        1,689,600
 Beginning balances, as adjusted                           $              0   $    24,065,764      $                  0   $   24,065,764
 Budgetary Financing Sources:
      Appropriations used                                  $              0   $      824,578       $                  0   $     824,578
      Transfers-in/out without reimbursement                              0        (1,023,000)                        0       (1,023,000)
 Other Financing Sources:
      Transfers-in/out without reimbursement (+/-)                        0         (119,665)                         0        (119,665)
      Imputed financing from costs absorbed by others                     0          174,567                          0         174,567
      Other (+/-)                                                         0         1,028,859                         0        1,028,859
 Total Financing Sources                                   $              0   $      885,339       $                  0   $     885,339
 Net Cost of Operations (+/-)                                             0          687,104                          0         687,104
 Net Change                                                $              0   $      198,235       $                  0   $     198,235
 Cumulative Results of Operations                          $              0   $    24,263,999      $                  0   $   24,263,999


 UNEXPENDED APPROPRIATIONS
 Beginning Balances                                        $              0   $      719,900       $                  0   $     719,900
 Beginning balances, as adjusted                           $              0   $      719,900       $                  0   $     719,900
 Budgetary Financing Sources:
      Appropriations received                              $              0   $      545,400       $                  0   $     545,400
      Appropriations transferred-in/out                                   0                    0                      0                0
      Other adjustments (rescissions, etc)                                0                    0                      0                0
      Appropriations used                                                 0         (824,578)                         0        (824,578)
 Total Budgetary Financing Sources                         $              0   $     (279,178)      $                  0   $    (279,178)
 Unexpended Appropriations                                                0          440,722                          0         440,722
 Net Position                                              $              0   $    24,704,721      $                  0   $   24,704,721


 The accompanying notes are an integral part of these financial statements.




96 Fiscal Year 2009 United States Army Annual Financial Statement
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2009 and 2008                        2008 Earmarked          2008 All Other               2008              2008
(Amounts in thousands)                                        Funds                 Funds                 Eliminations       Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                        $                  0   $    21,893,734      $                  0   $   21,893,734
Prior Period Adjustments:
     Changes in accounting principles (+/-)                                  0                    0                      0                  0
Beginning balances, as adjusted                           $                  0   $    21,893,734      $                  0   $   21,893,734
Budgetary Financing Sources:
     Appropriations used                                  $                  0   $      604,496       $                  0   $     604,496
     Transfers-in/out without reimbursement                                  0        (1,450,000)                        0       (1,450,000)
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                            0         (272,573)                         0        (272,573)
     Imputed financing from costs absorbed by others                         0          155,381                          0         155,381
     Other (+/-)                                                             0          540,870                          0         540,870
Total Financing Sources                                   $                  0   $     (421,826)      $                  0   $    (421,826)
Net Cost of Operations (+/-)                                                 0         (904,256)                         0        (904,256)
Net Change                                                $                  0   $      482,430       $                  0   $     482,430
Cumulative Results of Operations                          $                  0   $    22,376,164      $                  0   $   22,376,164


UNEXPENDED APPROPRIATIONS
Beginning Balances                                        $                  0   $                0   $                  0   $              0
Beginning balances, as adjusted                           $                  0   $                0   $                  0   $              0
Budgetary Financing Sources:
     Appropriations received                              $                  0   $     1,375,471      $                  0   $    1,375,471
     Appropriations transferred-in/out                                       0                    0                      0                  0
     Other adjustments (rescissions, etc)                                    0           (51,075)                        0          (51,075)
     Appropriations used                                                     0         (604,496)                         0        (604,496)
Total Budgetary Financing Sources                         $                  0   $      719,900       $                  0   $     719,900
Unexpended Appropriations                                                    0          719,900                          0         719,900
Net Position                                              $                  0   $    23,096,064      $                  0   $   23,096,064


The accompanying notes are an integral part of these financial statements.




                                              Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report            97
 Department of Defense - Army Working Capital Fund

 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                            Non-Budgetary Financing
                                                                  Budgetary Financing Accounts                    Accounts
 As of September 30, 2009 and 2008 (Amounts in thousands)      2009 Combined       2008 Combined        2009 Combined    2008 Combined
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1              $      3,359,578     $     2,516,314      $            0   $            0
 Recoveries of prior year unpaid obligations                           708,538             800,094                   0                0
 Budget authority
      Appropriation                                                    545,400           1,375,471                   0                0
      Contract authority                                             9,779,733          12,348,540                   0                0
      Spending authority from offsetting collections
          Earned
            Collected                                              16,681,563           16,375,333                   0                0
            Change in receivables from Federal sources                 99,300                8,923                   0                0
          Change in unfilled customer orders
            Advance received                                             (4,834)             (22,477)                0                0
            Without advance from Federal sources                      (158,236)             390,797                  0                0
      Subtotal                                                $    26,942,926      $    30,476,587      $            0   $            0
 Nonexpenditure transfers, net, anticipated and actual              (1,023,000)          (1,450,000)                 0                0
 Permanently not available                                        (11,269,622)         (10,164,456)                  0                0
 Total Budgetary Resources                                    $    18,718,420      $    22,178,539      $            0   $            0

 Status of Budgetary Resources:
 Obligations incurred:
      Reimbursable                                            $     16,895,570     $    18,818,961      $            0   $            0
      Subtotal                                                $     16,895,570     $    18,818,961      $            0   $            0
 Unobligated balance:
      Apportioned                                                    1,822,850           3,359,578                   0                0
      Subtotal                                                $      1,822,850     $     3,359,578      $            0   $            0
 Total status of budgetary resources                          $     18,718,420     $    22,178,539      $            0   $            0
 Change in Obligated Balance:
 Obligated balance, net
      Unpaid obligations, brought forward, October 1          $     12,938,885     $    10,854,914      $            0   $            0
      Less: Uncollected customer payments
      from Federal sources, brought forward, October 1              (5,937,173)          (5,537,453)                 0                0
      Total unpaid obligated balance                          $      7,001,712     $      5,317,461     $            0   $            0
 Obligations incurred net (+/-)                                    16,895,570           18,818,961                   0                0
 Less: Gross outlays                                              (17,420,981)         (15,934,896)                  0                0
 Less: Recoveries of prior year unpaid obligations, actual            (708,538)            (800,094)                 0                0
 Change in uncollected customer
 payments from Federal sources (+/-)                                    58,938            (399,720)                  0                0
 Obligated balance, net, end of  period
      Unpaid obligations                                      $     11,704,936     $    12,938,885      $            0   $            0
      Less: Uncollected customer payments
      from Federal sources (-)                                      (5,878,237)         (5,937,173)                  0                0
      Total, unpaid obligated balance, net, end of period     $      5,826,699     $     7,001,712      $            0   $            0

 Net Outlays:
 Gross outlays                                                $    17,420,981      $    15,934,896      $            0   $            0
 Less: Offsetting collections                                     (16,676,731)         (16,352,856)                  0                0
 Net Outlays                                                  $       744,250      $      (417,960)     $            0   $            0

 The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.




98 Fiscal Year 2009 United States Army Annual Financial Statement
Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army Working
Capital Fund (AWCF), as required by the “Chief Financial Officers Act of 1990,” expanded by the Government Management
Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and
records of the AWCF in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board (FASAB); the Office of Management and Budget
(OMB) Circular A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management
Regulation (FMR). The accompanying financial statements account for all resources for which the AWCF is responsible
unless otherwise noted.

The AWCF is unable to fully implement all elements of USGAAP and the OMB Circular A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The AWCF derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory
systems and logistic systems. These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial statements in accordance with
USGAAP. The AWCF continues to implement process and system improvements addressing these limitations.

The AWCF currently has nine auditor identified financial statement material weaknesses: (1) Financial Management
Systems; (2) Inventory; (3) General Property, Plant, and Equipment; (4) Accounts Payable; (5) Statement of Net Cost; (6)
Intragovernmental Eliminations; (7) Accounting Adjustments; (8) Reconciliation of Net Cost of Operations to Budget; (9)
and Abnormal Account Balances.


1.B.	 Mission of the Reporting Entity
The AWCF is part of the Defense Working Capital Fund, and is divided into two separate business areas: Supply Management
and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products, repair parts,
consumable supplies, depot maintenance services, munitions, and weapons to support the deployment and projection of lethal
force as when required by the nation.


1.C.	 Appropriations and Funds
In second quarter 2008, AWCF received $719.9 million in a three-year appropriation. The AWCF uses these appropriations
and funds to execute its missions and subsequently report on resource usage.

Working capital funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of
resources from existing appropriations or funds. The corpus finances operations and transactions that flow through the fund.
The WCF resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action. At
various times, Congress provides additional appropriations to supplement the WCF as an infusion of cash when revenues are
inadequate to cover costs within the corpus.


1.D.	 Basis of Accounting
The AWCF’s financial management systems are unable to meet all full accrual accounting requirements. Many of the AWCF’s
financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full accrual accounting basis as required
by USGAAP. Most of AWCF’s financial and nonfinancial legacy systems were designed to record information on a budgetary
basis.


                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   99
The financial statements and supporting trial balances are compiled from the underlying financial data and trial balances of the
sub-entities. The underlying data is largely derived from budgetary transactions (obligations, disbursements, and collections),
from nonfinancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable and FECA
liabilities. Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from business and
system processes. At the consolidated level these abnormal balances may not be evident. Disclosures of abnormal balances are
made in the applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based
on the United States Standard General Ledger (USSGL). At this time, not all AWCF accounting systems are USSGL
compliant. However, the Army has implemented the Logistics Modernization Program (LMP) at Tobyhanna Army Depot,
Communications Electronics Life Cycle Management Command, Corpus Christi Army Depot, Letterkenny Army Depot,
Aviation and Missile Life Cycle Management Command, and other Army Materiel Command activities. The LMP is
substantially compliant with the Federal Financial Management Improvement Act (FFMIA) as determined by the Army
Audit Agency (AAA). Until LMP is fully implemented and all of the processes are updated to collect and report financial
information as required by USGAAP, AWCF’s financial data will be derived from a combination of proprietary systems, cost
systems, and feeder systems.


1.E.	 Revenues and Other Financing Sources
The AWCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply
Management activities recognize revenue when an inventory item is sold. Prices set for products and services offered through
the AWCF are intended to recover the full costs (cost plus administrative fees) incurred by these activities. Unearned revenue
is recorded as deferred revenue until earned.


1.F.	    Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental liabilities, and
unbilled revenue.


1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements
in order to prevent overstatement for business with itself. However, the AWCF cannot accurately identiFY intragovernmental
transactions by customer because AWCF’s systems do not track buyer and seller data at the transaction level. Generally, seller
entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the
buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-
side balances and are then eliminated. The volume of intragovernmental transactions is so large that reconciliations cannot
be accomplished effectively. The DoD is developing long-term system improvements to ensure accurate intragovernmental
information, including developing sufficient up-front edits and controls to eliminate the need for reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and Treasury Financial Manual,
Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United States Government,”
provide guidance for reporting and reconciling intragovernmental balances. While AWCF is unable to fully reconcile
intragovernmental transactions with all federal agencies, AWCF is able to reconcile balances pertaining to Federal Employees’
Compensation Act transactions with the Department of Labor and benefit program transactions with the Office of Personnel
Management.




100 Fiscal Year 2009 United States Army Annual Financial Statement
The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements, do not report
any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.
Treasury does not allocate such costs to DoD.


1.H.	 Transactions with Foreign Governments and International Organizations
Each year, AWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.


1.I. Funds with the U.S. Treasury
The AWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance and
Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the AWCF’s cash collections, disbursements, and adjustments worldwide.
Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund
Balance with Treasury (FBWT) account. On a monthly basis, AWCF’s FBWT is adjusted to agree with the U.S. Treasury
accounts.


1.J.	    Foreign Currency
Not applicable.


1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of past collection experiences.
The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
other federal agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.
pdf.


1.L.	    Direct Loans and Loan Guarantees
Not applicable.


1.M.	 Inventories and Related Property
The AWCF values approximately 65% of resale inventory using the moving average cost method. The AWCF reports the
remaining 35% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for holding
gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for materiel


                                           Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   101
management rather than accounting. Although these systems provide visibility and accountability over inventory items, they
do not maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce financial transactions using the USSGL, as required by the Federal Financial
Management Improvement Act of 1996 (P.L. 104-208). The AWCF is continuing to transition the balance of the inventories
to the moving average cost method through the use of new inventory systems. Some transitioned balances, however, were not
baselined to auditable historical cost and may be noncompliant with SFFAS No. 3.

The AWCF manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and
related spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are
not managed in AWCF materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The AWCF holds materiel based on military need and support for
contingencies. The DoD is currently developing a methodology to be used to account for “inventory held for sale” and
“inventory held in reserve for future sale” with a completion date of year end FY 2010 reporting.

Inventory held for repair and future resale is now “inventory held for remanufacture.” Inventory held for remanufacture
capitalizes repair and rebuild costs, values unrepaired carcasses at cost, and provides for exchange pricing concepts for customer
returns. AWCF is unable to comply with the accounting requirements for remanufacturing until such time as LMP is fully
implemented and all inventory related tasks in the Army Financial Improvement Plan have been addressed, to include logistics
interfaces.

The AWCF recognizes condemned materiel as “Excess, Obsolete, or Unserviceable.” The cost of disposal is greater than the
potential scrap value; therefore, the net value of condemned materiel is zero.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by AWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The AWCF often relies on weapon systems and machinery no longer in production. As a result, AWCF
supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a
ready, mobile, and armed military force. Work in process balances include (1) costs related to the production or servicing of
items, including direct materiel, direct labor, applied overhead; (2) the value of finished products or completed services that are
yet to be placed in service; and (3) munitions in production and depot maintenance work with its associated costs incurred in
the delivery of maintenance services.


1.N.	 Investments in U.S. Treasury Securities
Not applicable.


1.O.	 General Property, Plant and Equipment
The DoD’s General Property, Plant & Equipment (PP&E) capitalization threshold is $100 thousand except for real property,
which is $20 thousand. The AWCF has fully implemented the threshold for real property.

The AWCF capitalizes all General PP&E used in the performance of their mission. These capitalized assets are categorized as
General PP&E, whether or not it meets the definition of any other General PP&E categories.

When it is in the best interest of the government, the AWCF provides government property to contractors to complete
contract work. The AWCF either owns or leases such property, or it is purchased directly by the contractor for the government
based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD capitalization
threshold, federal accounting standards require that it be reported on AWCF’s Balance Sheet.




102 Fiscal Year 2009 United States Army Annual Financial Statement
The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires the AWCF to maintain, in their
property systems, information on all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards. The AWCF has not fully implemented this policy
primarily due to system limitations.


1.P.	    Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should
be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
goods and services are received. The AWCF has implemented this policy for advances identified in contract feeder systems, but
has not fully implemented the policy primarily due to system limitations.


1.Q.	 Leases
Not applicable.


1.R.	 Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain contract
financing payments that are not reported elsewhere on AWCF’s Balance Sheet.

The AWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AWCF may
provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract financing
payments clauses are incorporated in the contract terms and conditions and may include advance payments, performance-
based payments, commercial advance and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts. It is DoD policy to record certain contract financing payments as other assets. The
AWCF has fully implemented this policy for recording contract financing payments as Other Assets.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage or stage of completion only for construction of real property, shipbuilding,
and ship conversion, alteration, or repair. Progress payments based on percentage or stage of completion are reported as
Construction in Progress.


1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The AWCF recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses. The AWCF’s risk of loss and resultant contingent liabilities
arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents;
medical malpractice; property or environmental damages; and contract disputes.



                                            Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report    103
1.T.	    Accrued Leave
The AWCF reports liabilities for accrued compensatory and annual leave for civilians. Sick leave for civilians is expensed as
taken. The liabilities are based on current pay rates.


1.U.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Cumulative Results of Operations
represent the net difference between expenses and losses, and financing sources (including appropriations, revenue, and gains),
since inception. Beginning with FY 1998, the cumulative results of operations also include donations and transfers in and out
of assets that were not reimbursed.


1.V.	    Treaties for Use of Foreign Bases
Not applicable.


1.W.	 Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. Unless the title has
passed, the financial statements do not reflect a liability for payment for goods and services not yet delivered. Unexpended
obligations includes both obligations for which goods and services have been delivered (title passed) and a liability recognized,
and obligations for which no delivery has occurred and no liability recognized. The balance of unexpended obligations
appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to as “Total, unpaid obligated
balances, net, end of period.”


1.X.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a specific obligation, payable, or receivables in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.
Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities. The AWCF has fully implemented this
policy for allocating undistributed disbursements and collections between federal and nonfederal categories based on the
percentage of distributed federal and nonfederal accounts payable and accounts receivable.


1.Y.	    Significant Events
During 3rd Quarter, FY 2009, AWCF changed the inventory accounting method from latest acquisition cost (LAC) to
moving average cost (MAC) for one of its major commands. This was a business process change from a value-based to a
quantity-based unit-of-measure accounting system in LMP. The process change has led to differences which can occur on
purchase requisitions and purchase orders for repair and maintenance of inventory items. As a result, contract dollar values are
not properly adjusted to reflect unit cost in LMP resulting in misstated inventory values, accounts payable, and undelivered
orders. At this time, we are unable to determine the monetary impact to the financial statements and Notes 9, 12, 18, and 20.




104 Fiscal Year 2009 United States Army Annual Financial Statement
1.Z.	 Fiduciary Activities
Not applicable.


Note 2.	 Nonentity Assets
 As of September 30                                                            2009                           2008
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                                   $                          0   $                         0
    B. Accounts Receivable                                                                     0                             0
    C. Total Intragovernmental Assets                               $                          0   $                         0
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                               $                          0   $                         0
    B. Accounts Receivable                                                                     0                             0
    C. Other Assets                                                                            0                             0
    D. Total Nonfederal Assets                                      $                          0   $                         0
 3. Total Nonentity Assets                                          $                          0   $                         0
 4. Total Entity Assets                                             $               27,052,157     $              24,825,055
 5. Total Assets                                                    $               27,052,157     $              24,825,055

Nonentity assets are assets for which the AWCF maintains stewardship accountability and reporting responsibility, but are not
available for the AWCF’s normal operations.


Note 3.	 Fund Balance with Treasury
 As of September 30                                                            2009                           2008
 (Amounts in thousands)

 1. Fund Balances
    A. Appropriated Funds                                           $                   232,023 $                     719,900
    B. Revolving Funds                                                                1,117,568                      1,851,541
    C. Trust Funds                                                                             0                             0
    D. Special Funds                                                                           0                             0
    E. Other Fund Types                                                                        0                             0
    F. Total Fund Balances                                          $                 1,349,591 $                    2,571,441
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                    $                 1,349,591 $                    2,571,441
    B. Fund Balance per Agency                                                        1,349,591                      2,571,441
 3. Reconciling Amount                                              $                          0 $                           0




                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   105
Status of Fund Balance with Treasury
 As of September 30                                                                2009                            2008
 (Amounts in thousands)

 1. Unobligated Balance
    A. Available                                                      $                   1,822,850      $                3,359,578
    B. Unavailable                                                                                 0                                0
 2. Obligated Balance not yet Disbursed                                               11,704,936                        12,938,885
 3. Nonbudgetary FBWT                                                                              0                                0
 4. Non-FBWT Budgetary Accounts                                                      (12,178,195)                      (13,727,022)
 5. Total                                                             $                   1,349,591      $                2,571,441



The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The
balances reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that
has not been set aside to cover outstanding obligations.

Obligated Balance not yet disbursed represents funds that have been obligated for goods and services not received, and those
received but not paid.

NonFBWT Budgetary Accounts reduces the Status of FBWT. NonFBWT Budgetary Accounts consists of unfilled orders,
reimbursements earned and contract authority.


Note 4.	 Investments and Related Interest
Not applicable.


Note 5.	 Accounts Receivable
 As of September 30                                                                         2009
                                                                               Allowance For Estimated
 (Amounts in thousands)                                    Gross Amount Due         Uncollectibles           Accounts Receivable, Net

 1. Intragovernmental Receivables                      $            343,430                            N/A   $              343,430
 2. Nonfederal Receivables (From the Public)                         55,031    $                (5,407)                      49,624
 3. Total Accounts Receivable                          $            398,461    $                (5,407)      $              393,054


 As of September 30                                                                         2008
                                                                               Allowance For Estimated
 (Amounts in thousands)                                    Gross Amount Due         Uncollectibles           Accounts Receivable, Net

 1. Intragovernmental Receivables                      $            297,458                            N/A   $              297,458
 2. Nonfederal Receivables (From the Public)                          21,346   $                   (4,374)                   16,972
 3. Total Accounts Receivable                          $            318,804    $                   (4,374)   $              314,403




106 Fiscal Year 2009 United States Army Annual Financial Statement
Note 6.	 Other Assets
 As of September 30                                                                2009                       2008
 (Amounts in thousands)

 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                       $                         0 $                     1,879
    B. Other Assets                                                                             0                            0
    C. Total Intragovernmental Other Assets                           $                         0 $                     1,879
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                        $                   483,135 $                   555,275
    B. Advances and Prepayments                                                           397,991                         719
    C. Other Assets (With the Public)                                                       3,936                       3,938
    D. Total Nonfederal Other Assets                                  $                   885,062 $                   559,932
 3. Total Other Assets                                                $                   885,062 $                   561,811

Other Assets (With the Public) consists of travel advances and prepaid expenses.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership
of the contractor’s work has transferred to the Federal Government. The Federal Government does not have the right to take
the work, except as provided in contract clauses related to termination or acceptance, and the AWCF is not obligated to make
payment to the contractor until delivery and acceptance of a satisfactory product.

The Contract Financing Payment balance of $483.1 million is comprised of $447.5 million in contract financing payments
and an additional $35.6 million in estimated future payments that will be paid to the contractor upon future delivery and
Federal Government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.


Note 7.	 Cash and Other Monetary Assets
Not applicable.


Note 8.	 Direct Loan and Loan Guarantees
Not applicable.


Note 9.	 Inventory and Related Property
 As of September 30                                                                2009                       2008
 (Amounts in thousands)

 1. Inventory, Net                                                   $                23,164,252    $             20,279,681
 2. Operating Materiel & Supplies, Net                                                         0                             0
 3. Stockpile Materiel, Net                                                                    0                             0
 4. Total                                                            $                23,164,252    $             20,279,681




                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   107
Inventory, Net
 As of September 30                                                                   2009
 (Amounts in thousands)                                   Inventory, Gross       Revaluation                                   Valuation
                                                               Value             Allowance              Inventory, Net          Method

 1. Inventory Categories
    A. Available and Purchased for Resale                 $   19,368,592 $            (3,143,145)   $     16,225,447          LAC, MAC

    B. Held for Repair                                         7,285,566              (1,037,902)           6,247,664         LAC, MAC

    C. Excess, Obsolete, and Unserviceable                       473,341               (473,341)                         0       NRV

    D. Raw Materiel                                              490,280                       0              490,280        MAC, SP, LAC

    E. Work in Process                                           200,861                       0              200,861            AC

    F. Total                                              $   27,818,640 $            (4,654,388)   $     23,164,252


 As of September 30                                                                   2008
 (Amounts in thousands)                                   Inventory, Gross       Revaluation                                   Valuation
                                                               Value             Allowance              Inventory, Net          Method

 1. Inventory Categories
    A. Available and Purchased for Resale                 $   24,260,857 $            (7,796,050)   $     16,464,807          LAC, MAC

    B. Held for Repair                                         5,569,787              (2,025,250)           3,544,537         LAC, MAC

    C. Excess, Obsolete, and Unserviceable                       546,527               (546,527)                         0       NRV

    D. Raw Materiel                                              103,529                       0              103,529        MAC, SP, LAC

    E. Work in Process                                           166,808                       0              166,808            AC

    F. Total                                              $   30,647,508 $        (10,367,827)      $     20,279,681


 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                           NRV = Net Realizable Value
 SP = Standard Price                                     LCM = Lower of Cost or Market
 AC = Actual Cost                                        O = Other


Restrictions of Inventory Use, Sale, or Disposition

There are restrictions on the use, sale, and disposition of inventory classified as war reserve materiels of $779.3 million which
includes petroleum products, subsistence items, spare parts, and medical materiels.

Other Information

The categories listed below comprise Inventory, Net. The AWCF assigns Inventory items to a category based upon the type
and condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing and textiles,
and petroleum products. Inventory Held for Repair consists of damaged materiel held as inventory that is more economical
to repair than to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or items that cannot be
economically repaired and are awaiting disposal. Raw Materials consist of items consumed in the production of goods for sale
or in the provision of services for a fee.

Work in process includes costs related to the production or servicing of items, including direct material, direct labor, applied
overhead and other direct costs. Work in process also includes the value of finished products or completed services pending
the submission of bills to the customer. The work in process designation may also be used to accumulate the amount paid to a
contractor under cost reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts
paid to other government plants for accrued costs of end items of materiel ordered but not delivered. Work in process includes
munitions in production and depot maintenance work with its associated labor, applied overhead, and supplies used in the
delivery of maintenance services.

108 Fiscal Year 2009 United States Army Annual Financial Statement
During 3rd Quarter, FY 2009, AWCF changed the inventory accounting method from latest acquisition cost (LAC) to
moving average cost (MAC) for one of its major commands. This migration and revaluation resulted in a $2.7 billion increase
in the net inventory values for the Aviation and Missile Life Cycle Management Command activities involved with the
second deployment of the Logistic Modernization Program (LMP). This adjustment included a $2.8 billion decrease in gross
inventory due to baselining inventory to MAC and a $5.5 billion increase associated with the write-off of the holding gains
and losses allowance accounts.


Operating Materiel and Supplies, Net
Not applicable.


Stockpile Materiel, Net
Not applicable.


Note 10.	 General PP&E, Net
 As of September 30                                                           2009                                                  2008
                                     Depreciation/                                        (Accumulated
                                     Amortization                       Acquisition       Depreciation/
 (Amounts in thousands)                Method        Service Life         Value            Amortization)       Net Book Value   Net Book Value

 1. Major Asset Classes
       A. Land                           N/A            N/A         $                 0              N/A       $            0   $            0
       B. Buildings, Structures,
          and Facilities                  S/L         20 or 40            1,630,407       $   (1,280,520)           349,887           422,260
       C. Leasehold Improvements          S/L        lease term              96,629              (86,308)             10,321           12,545
       D. Software                        S/L        2-5 or 10              740,838            (298,888)            441,950           294,182
       E. General Equipment               S/L         5 or 10             1,595,058           (1,222,694)           372,364           320,758
       F. Military Equipment              S/L         various                         0                    0                0                0
       G. Shipbuilding                   N/A            N/A                           0                    0                0                0
       H. Assets Under Capital
          Lease                           S/L        lease term                       0                    0                0                0
       I. Construction-in-Progress       N/A            N/A                  85,676                  N/A              85,676           47,947
       J. Other                                                                       0                    0                0                0
       K. Total General PP&E                                        $     4,148,608       $   (2,888,410)      $   1,260,198    $   1,097,692


 1
     Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line                 N/A = Not Applicable




Assets Under Capital Lease
Not applicable.




                                           Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report                109
Note 11.	 Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                                2009                    2008
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                                                   $                      0   $                0
    B. Debt                                                                                                      0                    0
    C. Other                                                                                             46,378                   47,102
    D. Total Intragovernmental Liabilities                                                $              46,378      $            47,102
 2. Nonfederal Liabilities
    A. Accounts Payable                                                                   $                      0   $                0
    B. Military Retirement and Other Federal Employment Benefits                                       231,234                   254,518
    C. Environmental Liabilities                                                                                 0                    0
    D. Other Liabilities                                                                                         0                    0
    E. Total Nonfederal Liabilities                                                       $            231,234       $           254,518
 3. Total Liabilities Not Covered by Budgetary Resources                                  $            277,612       $           301,620
 4. Total Liabilities Covered by Budgetary Resources                                                2,069,824               1,427,371
 5. Total Liabilities                                                                     $         2,347,436        $      1,728,991

Liabilities not Covered by Budgetary Resources are liabilities for which congressional action is needed before budgetary
resources can be provided.

Intragovernmental Other Liabilities represents future funded Federal Employees Compensation Act (FECA) liabilities billed to
AWCF by the Department of Labor (DOL) for payments made by DOL to Army’s beneficiaries. The current portion of this
bill, $20.6 million, is due in FY 2010 and the remainder is due in the following fiscal years.

Military Retirement and Other Federal Employment Benefits consists of various FECA actuarial liabilities not due and payable
during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.


Note 12.	 Accounts Payable
 As of September 30                                                                        2009
                                                                                  Interest, Penalties, and
 (Amounts in thousands)                                  Accounts Payable           Administrative Fees                  Total

 1. Intragovernmental Payables                       $               84,576   $                        N/A       $                84,576
 2. Nonfederal Payables (to the Public)                          1,606,340                                   0              1,606,340
 3. Total                                            $           1,690,916    $                              0   $          1,690,916

 As of September 30                                                                        2008
                                                                                  Interest, Penalties, and
 (Amounts in thousands)                                  Accounts Payable           Administrative Fees                  Total

 1. Intragovernmental Payables                       $               85,510   $                        N/A       $                85,510
 2. Nonfederal Payables (to the Public)                             946,005                                  0                   946,005
 3. Total                                            $           1,031,515    $                              0   $          1,031,515

Accounts Payable include amounts owed to federal and nonfederal entities for good and services received by AWCF. The
AWCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side accounts payable




110 Fiscal Year 2009 United States Army Annual Financial Statement
are adjusted to agree with internal seller-side accounts receivable. Accounts payable was adjusted by reclassifying amounts
between federal and nonfederal accounts payable.


Note 13.	 Debt
Not applicable.


Note 14.	 Environmental Liabilities and Disposal Liabilities
Not applicable.


Note 15.	 Other Liabilities
 As of September 30                                                                           2009                                2008
                                                                                             Noncurrent
 (Amounts in thousands)                                          Current Liability            Liability           Total           Total

 1. Intragovernmental
    A. Advances from Others                                      $        20,548         $                0   $     20,548    $           0
    B. Deposit Funds and Suspense Account Liabilities                            0                        0               0               0
    C. Disbursing Officer Cash                                                   0                        0               0               0
    D. Judgment Fund Liabilities                                                 0                        0               0               0
    E. FECA Reimbursement to the Department of Labor                      20,612                 25,766             46,378         47,101
    F. Custodial Liabilities                                                     0                        0               0               0
    G. Employer Contribution and Payroll Taxes Payable                    15,644                          0         15,644         13,392
    H. Other Liabilities                                                         0                        0               0               0
    I. Total Intragovernmental Other Liabilities                 $        56,804         $       25,766       $     82,570    $    60,493
 2. Nonfederal
    A. Accrued Funded Payroll and Benefits                       $      126,331          $                0   $   126,331     $ 104,104
    B. Advances from Others                                               83,704                          0         83,704        105,491
    C. Deferred Credits                                                          0                        0               0               0
    D. Deposit Funds and Suspense Accounts                              (20,703)                          0       (20,703)        (41,154)
    E. Temporary Early Retirement Authority                                          0                    0               0               0
    F. Nonenvironmental Disposal Liabilities
     (1) Military Equipment (Nonnuclear)                                             0                    0               0               0
     (2) Excess/Obsolete Structures                                                  0                    0               0               0
     (3) Conventional Munitions Disposal                                             0                    0               0               0
    G. Accrued Unfunded Annual Leave                                      86,455                          0         86,455         96,446
    H. Capital Lease Liability                                                       0                    0               0               0
    I. Contract Holdbacks                                                  4,595                          0          4,595         48,274
    J. Employer Contribution and Payroll Taxes Payable                    23,471                          0         23,471         22,139
    K. Contingent Liabilities                                              3,225                 35,638             38,863         47,165
    L. Other Liabilities                                                             0                    0               0               0
    M. Total Nonfederal Other Liabilities                        $      307,078          $       35,638       $   342,716     $ 382,465
 3. Total Other Liabilities                                      $      363,882          $       61,404       $   425,286     $ 442,958




                                            Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report            111
Capital Lease Liability
Noncurrent Contingent Liabilities includes $35.6 million related to contracts authorizing Progress Payments Based on Cost
as defined in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’
work vests with the Federal Government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as rights of ownership. The
Department is under no obligation to pay contractors for amounts greater than the amounts authorized in contracts until
delivery and government acceptance. Due to the probability the contractors will complete their efforts and deliver satisfactory
products, and because the amount of potential future payments are estimable, the Department has recognized a contingent
liability for estimated future payments which are conditional pending delivery and government acceptance.

Total Contingent Liabilities for Progress Payments Based on Cost represent the difference between the estimated costs incurred
to date by contractors and amounts authorized to be paid under Progress Payments Based on Cost provisions within the FAR.
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated Progress Payments Based on Cost
by the contract-authorized progress payment rate. The balance of unliquidated Progress Payments Based on Cost is deducted
from the estimated total contractor-incurred costs to determine the contingency amount.

Current Contingent Liabilities represent $3.2 million in contractor claims considered both measurable and probable.


Note 16.	 Commitments and Contingencies
The AWCF is a party in various administrative proceedings and legal actions related to claims for environmental damage
claims, equal opportunity matters, and contractual bid protests.

The AWCF has accrued contingent liabilities for legal actions where the Office of General Counsel (OGC) considers an
adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the Government,
some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The AWCF records Judgment Fund liabilities
in Note 12, Accounts Payable, and Note 15, Other Liabilities.

The FY 2009 Legal Representation Letter for the Army Working Capital Fund outlines three claims against AWCF totaling
$498.3 million for which the Army Office of General Counsel is unable to express an opinion.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15, Other
Liabilities, for further details.

The AWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may result in a future outflow of expenditures. Currently, AWCF has limited automated system
processes by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly
present AWCF’s contingent liabilities.




112 Fiscal Year 2009 United States Army Annual Financial Statement
Note 17.	 Military Retirement and Other Federal Employment Benefits
 As of September 30                                                                          2009                                        2008
                                                                                 Assumed      (Less: Assets
                                                                                  Interest     Available to       Unfunded
 (Amounts in thousands)                                        Liabilities       Rate (%)     Pay Benefits)       Liabilities          Liabilities

 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                        $                 0                $           0 $                   0 $                  0
    B. Military Retirement Health Benefits                                   0                            0                     0                    0
    C. Military Medicare-Eligible Retiree Benefits                           0                            0                     0                    0
    D. Total Pension and Health Actuarial Benefits         $                 0                $           0 $                   0 $                  0
 2. Other Actuarial Benefits
    A. FECA                                                $     231,234           4.223      $           0 $       231,234 $            254,518
    B. Voluntary Separation Incentive Programs                               0                            0                     0                    0
    C. DoD Education Benefits Fund                                           0                            0                     0                    0
    D. Total Other Actuarial Benefits                      $     231,234                      $           0 $       231,234 $            254,518
 3. Other Federal Employment Benefits                                        0                            0                     0                    0
 4. Total Military Retirement and Other Federal
     Employment Benefits:                                  $     231,234                      $           0 $       231,234 $            254,518


The AWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to AWCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments. The projected annual benefit payments are discounted to present value using the Office of Management
and Budget’s (OMB’s) economic assumptions for 10-year Treasury notes and bonds. Cost of living adjustments (COLAs) and
consumer price index medical (CPIM) factors are applied to the calculation of projected future benefits.

The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period.

Actuarial liabilities are computed for employee compensation benefits as mandated by the Federal Employment Compensation
Act (FECA). The Office of Personnel Management provides updated Army actuarial liabilities during the 4th Quarter of each
fiscal year.


Note 18.	 General Disclosures Related to the Statement of Net Cost
 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                                     2009                                    2008
 (Amounts in thousands)

 1. Intragovernmental Costs                                                  $                 4,290,257      $                        3,787,660
 2. Public Costs                                                                              25,957,290                             15,678,380
 3. Total Costs                                                              $                30,247,547      $                      19,466,040
 4. Intragovernmental Earned Revenue                                         $               (13,645,957)     $                     (13,880,795)
 5. Public Earned Revenue                                                                    (15,914,486)                            (6,489,501)
 6. Total Earned Revenue                                                     $               (29,560,443)     $                     (20,370,296)
 7. Net Cost of Operations                                                   $                      687,104   $                        (904,256)




                                           Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report                        113
Intragovernmental costs and revenue are transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses are
adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between federal
and nonfederal expenses.

The intent of the SNC is to provide gross and net cost information related to the amount of output or outcome for a given
program or organization administered by a responsible reporting entity. The Department’s current processes and systems
do not capture and report accumulated costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The Department is in the process of reviewing available data and developing a cost
reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial
Cost Accounting Concepts and Standards for the Federal Government”, as amended by SFFAS No. 30, “Inter-entity Cost
Implementation”.

While AWCF activities generally record transactions on an accrual basis, as is required by federal generally accepted accounting
principles, the systems do not always capture actual costs. Some of the information presented on the Consolidated Statement
of Net Cost is based on non-financial feeder systems, including property accountability and logistics systems. The AWCF is in
the process of converting to the Logistics Modernization Program to address this issue.


Note 19.	 Disclosures Related to the Statement of Changes in Net
          Position
Other Financing Sources, Other on the Statement of Changes in Net Position consists of other gains and other losses from
nonexchange activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be
identified and the correction of prior period adjustments that did not meet the materiality thresholds.


Note 20.	 Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                                             2009                2008
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
    End of the Period                                                                     $     10,597,722 $      12,237,211
 2. Available Borrowing and Contract Authority at the End of the Period                   $               0 $                0



All AWCF obligations represent reimbursable obligations in apportionment category B.

The AWCF Statement of Budgetary Resources includes intraentity transactions because the statements are presented as
combined.

There are no legal arrangements affecting the use of unobligated balances of budgetary authority.

The Army Working Capital Fund received $545.4 million in appropriations to purchase war reserve secondary items and
spares for Army Prepositioned Stocks.




114 Fiscal Year 2009 United States Army Annual Financial Statement
Note 21.	 Reconciliation of Net Cost of Operations to Budget
As of September 30                                                                           2009                2008
(Amounts in thousands)

Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                                                $    16,895,570     $    18,818,961
2. Less: Spending authority from offsetting collections and recoveries (-)                 (17,326,331)        (17,552,670)
3. Obligations net of offsetting collections and recoveries                            $      (430,761)    $      1,266,291
4. Less: Offsetting receipts (-)                                                                       0                   0
5. Net obligations                                                                     $      (430,761)    $      1,266,291
Other Resources:
6. Donations and forfeitures of property                                                               0                   0
7. Transfers in/out without reimbursement (+/-)                                               (119,665)           (272,573)
8. Imputed financing from costs absorbed by others                                             174,567              155,381
9. Other (+/-)                                                                               1,028,859              540,870
10. Net other resources used to finance activities                                     $     1,083,761     $        423,678
11. Total resources used to finance activities                                         $       653,000     $      1,689,969
Resources Used to Finance Items not Part of the Net Cost of Operations:
12. Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided:
    12a. Undelivered Orders (-)                                                        $     1,639,490     $    (2,286,461)
    12b. Unfilled Customer Orders                                                             (163,069)             368,319
13. Resources that fund expenses recognized in prior Periods (-)                               (44,670)             (13,886)
14. Budgetary offsetting collections and receipts that do not affect Net Cost of
    Operations                                                                                         0                   0
15. Resources that finance the acquisition of assets (-)                                    (8,617,214)         (8,176,389)
16. Other resources or adjustments to net obligated resources that do not affect
    Net Cost of Operations:
    16a. Less: Trust or Special Fund Receipts Related to exchange in the
          Entity’s Budget (-)                                                                          0                   0
    16b. Other (+/-)                                                                          (909,197)           (268,298)
17. Total resources used to finance items not part of the Net Cost of
    Operations                                                                         $    (8,094,660)    $   (10,376,715)
18. Total resources used to finance the Net Cost of Operations                         $    (7,441,660)    $    (8,686,746)




                                        Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   115
 As of September 30                                                                             2009               2008
 (Amounts in thousands)

 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                    $       10,672    $             9,697
 20. Increase in environmental and disposal liability                                                    0                    0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                         0                    0
 22. Increase in exchange revenue receivable from the public (-)                                         0                    0
 23. Other (+/-)                                                                                         0             13,096
 24. Total components of Net Cost of Operations that will Require or Generate
     Resources in future periods                                                           $       10,672    $         22,793
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                         $       61,493    $         61,145
 26. Revaluation of assets or liabilities (+/-)                                                    (8,977)         2,433,172
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                    0                    0
     27b. Cost of Goods Sold                                                                   10,684,562          6,126,441
     27c. Operating Material and Supplies Used                                                           0                    0
     27d. Other                                                                                (2,618,985)          (861,061)
 28. Total Components of Net Cost of Operations that will not Require or Generate
     Resources                                                                             $    8,118,093    $     7,759,697
 29. Total components of Net Cost of Operations that will not Require or
     Generate Resources in the current period                                              $    8,128,765    $     7,782,490
 30. Net Cost of Operations                                                                $      687,105    $      (904,256)

Due to AWCF’s financial systems limitations, budgetary data is not in agreement with proprietary expenses and assets
capitalized. The difference between budgetary and proprietary data is a previously identified deficiency.

Resources that Finance the Acquisition of Assets were adjusted by $540.1 million to bring the note schedule into agreement
with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated due
to interagency budgetary transactions not being eliminated:

     n	 Obligations Incurred
     n	 Less: Spending Authority from Offsetting Collections and Recoveries
     n	 Obligations Net of Offsetting Collections and Recoveries
     n	 Less: Offsetting Receipts
     n	 Net Obligations
     n	 Undelivered Orders
     n	 Unfilled Customer Orders


Resources, Other consists of other gains and other losses from non exchange activity primarily attributable to
intragovernmental transfers-in/out for which trading partners could not be identified and the correction of prior period
adjustments that did not meet the materiality thresholds.



116 Fiscal Year 2009 United States Army Annual Financial Statement
Other Resources or adjustments to net obligated resources that do not affect Net Cost of operations, Other consists of other
gains and losses from non exchange activity primarily attributable to intragovernmental transfers-in/out for which trading
partners could not be identified and the correction of prior period adjustments that did not meet the materiality thresholds.

Components Requiring or Generating Resources in a Future Period, Other consists of the unfunded Federal Employee
Compensation Act (FECA) expense and the change in the related actuarial liability.

Components not Requiring or Generating Resources Other, Other consists of cost capitalization offsets. Agencies must first
record all expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost Capitalization Offset
account when the costs are capitalized to the appropriate “in-process type” account.


Note 22.	 Disclosures Related to Incidental Custodial Collections
Not applicable.


Note 23.	 Earmarked Funds
Not applicable.


Note 24.	 Fiduciary Activities
Not applicable.


Note 25.	 Other Disclosures
Not applicable.


Note 26.	 Restatements
Not applicable.




                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   117
118 Fiscal Year 2009 United States Army Annual Financial Statement
                                                         Inspector General
                                                       Department of Defense
                                                         200 Army Navy Drive
                                                    Arlington, Virginia 22202-4704



                                                                                                                           November 08, 2009


MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND
			             COMPTROLLER)


SUBJECT: Independent Auditor’s Report on the Army Working Capital Fund FY 2009 and FY 2008
	         Basic Financial Statements (Report No. D 2010 009)


The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit
the accompanying Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2009 and 2008, and
the Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, Combined Statement of
Budgetary Resources, and related notes for the fiscal years then ended. The financial statements are the responsibility of Army
management. The Army is also responsible for implementing effective internal control and for complying with laws and
regulations.


We are unable to express an opinion on the Army Working Capital Fund FY 2009 and FY 2008 Basic Financial Statements
because of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our
disclaimer of opinion on the financial statements, we are including the required Report on Internal Control and Compliance
with Laws and Regulations (Report). This Report is an integral part of our disclaimer of opinion on the financial statements
and should be considered in assessing the results of our work.



Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the Army Working
Capital Fund FY 2009 and FY 2008 Financial Statements would not substantially conform to accounting principles generally
accepted in the United States of America (U.S. GAAP) and that Army financial management and feeder systems were unable
to adequately support material amounts on the financial statements as of September 30, 2009. Section 1008(d) of the
FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to perform only those audit
procedures required by generally accepted government auditing standards that are consistent with the representations made by
management. Accordingly, we did not perform auditing procedures required by the U.S. Government Accountability Office,
“Government Auditing Standards,” and Office of Management and Budget (OMB) Bulletin 07-04, “Audit Requirements for
Federal Financial Statements,” as amended1 to determine whether material amounts on the financial statements were presented
fairly.


Prior audits have identified, and the Army has acknowledged, the long-standing material internal control weaknesses
identified in the Summary of Internal Control. These pervasive material weaknesses may affect the reliability of certain




1
    OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,”
      September 23, 2009.


                                                  Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report       119
information contained in the annual financial statements, much of which is taken from the same data sources as the Basic
Financial Statements.2 Therefore, we are unable to express, and we do not express, an opinion on the Basic Financial
Statements. Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis,
Required Supplementary Information, and Other Accompanying Information presented with the Basic Financial Statements.
Accordingly, we express no opinion on that information.



Summary of Internal Control
In planning our work, we considered Army Working Capital Fund internal control over financial reporting and compliance
with applicable laws and regulations. We did this to determine our procedures for auditing the financial statements and to
comply with OMB guidance, but our purpose was not to express an opinion on internal control.


Accordingly, we do not express an opinion on internal control over financial reporting and compliance with applicable laws
and regulations. However, previously identified significant deficiencies, all of which are material, continued to exist in the
following areas.


        n	 Financial Management Systems

        n	 Inventory

        n	 General Property, Plant, and Equipment

        n	 Intragovernmental Eliminations

        n	 Other Accounting Entries

        n	 Abnormal Account Balances

        n	 Statement of Net Cost

        n	 Accounts Payable

        n	 Reconciliation of Net Cost of Operations to Budget


We identified the following additional material weakness in FY 2009.


        n	 Statement of Budgetary Resources




2
    The annual financial statements include the Basic Financial Statements, Management’s Discussion and Analysis, Required Supplementary Information, and
       Other Accompanying Information.


120 Fiscal Year 2009 United States Army Annual Financial Statement
A material weakness is a significant deficiency,3 or a combination of significant deficiencies, resulting in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected.4


Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant deficiencies.
The Attachment offers additional details on significant deficiencies, all of which we consider to be material internal control
weaknesses.


We identified the Statement of Budgetary Resources as a material weakness that the Army has not disclosed in its FY 2009
Statement of Assurance. The Army should consider reporting the Statement of Budgetary Resources as a material weakness
because the Army Working Capital Fund will not have the ability to populate the statement using budgetary general ledger
accounts until the full implementation of the Logistics Modernization Program system in FY 2011.



Summary of Compliance With Laws and Regulations
We limited our work to determine compliance with selected provisions of applicable laws and regulations related to financial
reporting because management acknowledged that instances of noncompliance identified in prior audits continued to exist.
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that Army financial
management systems do not substantially comply with Federal financial management system requirements, U.S. GAAP, and
the U.S. Government Standard General Ledger at the transaction level. Therefore, we did not determine whether Army
Working Capital Fund complied with all applicable laws and regulations related to financial reporting. Providing an opinion
on compliance with certain provisions of laws and regulations was not an objective of our audit, and accordingly, we do not
express such an opinion. See the Attachment for additional details on compliance with laws and regulations.




3
    A significant deficiency is a control deficiency, or a combination of control deficiencies, adversely affecting the entity’s ability to initiate, authorize,
       record, process, or report financial data reliably in accordance with U.S. GAAP. Significant deficiencies result in more than a remote likelihood that a
       misstatement of an entity’s financial statements that is more than inconsequential will not be prevented or detected.
4
    The term “remote” is defined as when the chance of a future event or events occurring is slight. Therefore, the likelihood of an event is “more than remote”
       when it is at least reasonably possible.


                                                        Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report                     121
Management’s Responsibilities
Management is responsible for:


    n	 preparing the financial statements in conformity with U.S. GAAP;

    n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
         objectives of the Federal Managers’ Financial Integrity Act are met; and

    n	 complying with applicable laws and regulations.


We provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial Operations), who provided
technical comments that we have incorporated as appropriate. Army officials expressed their continuing commitment to
address the problems this report outlines.




                                                        Patricia A. Marsh, CPA
                                                        Assistant Inspector General
                                                        Defense Business Operations




Attachment:
As stated




122 Fiscal Year 2009 United States Army Annual Financial Statement
 Report on Internal Control and Compliance With Laws
                    and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws
and regulations are met; and that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we
do not, express an opinion on internal control over financial reporting. However, we have identified the following material
weaknesses that could adversely affect the Army financial management operations.



Previously Identified Material Weaknesses

Management acknowledged that previously identified significant deficiencies, all of which are material, continued to exist in
the following areas.


Financial Management Systems
Army Working Capital Fund systems do not meet the requirements for full accrual accounting. The systems do not collect
and record financial information as required by U.S. GAAP. Financial and nonfinancial feeder systems do not contain the
required system integration to provide a transaction-level audit trail for the amounts reported in the proprietary and budgetary
general ledger accounts. The Army derives a portion of its financial information for the Army Working Capital Fund from
budgetary transactions and data from nonfinancial feeder systems, such as the Commodity Command Standard System and
the Standard Industrial Fund System.


In FY 2003, the Army began deploying the Logistics Modernization Program system as the core financial management system
for the Army Working Capital Fund. However, implementation problems at the initially deployed field locations and the
system’s inability to produce auditable outputs and achieve compliance with the Federal Financial Management Improvement
Act of 1996 prevented further system deployment. The Government Accountability Office and DOD Office of Inspector
General continue to issue audit reports that identify data integrity and system integration problems, questioning whether
the Logistics Modernization Program system will record transaction-level data correctly to support the financial statements.
The Army deployed the Logistics Modernization Program system to the Aviation and Missile Life Cycle Management
Command and subordinate organizations in May 2009. The Army plans to accomplish its final deployment of the Logistics
Modernization Program system in October 2010.


Inventory
The inventory valuation method used for some of the Army Working Capital Fund inventory does not produce an auditable
approximation of historical cost. In FY 2009, the Army reported that the Army Working Capital Fund can only value 65
percent of its inventory at moving average cost. The Army continues to use the latest acquisition cost method of valuing some
inventories because the Army designed legacy systems for materiel management, rather than for accounting in conformance
with U.S. GAAP. The systems provide accountability and visibility for inventory items but do not maintain the historical cost
data necessary to comply with Statement of Federal Financial Accounting Standards (SSFAS) No. 3, “Accounting for Inventory
and Related Property.” In addition, the legacy systems are unable to produce financial transactions using the U.S. Government
Standard General Ledger accounts, and neither the Defense Finance and Accounting Service (DFAS) nor the Army reconciled
all differences between the accounting records and the logistical records. Instead, they accepted the data from the logistical
records and adjusted the accounting records by $1.4 billion. The Army does not expect to correctly report its inventory
valuation until FY 2015.




                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   123
General Property, Plant, and Equipment
The reported value of Army Working Capital Fund General Property, Plant, and Equipment is unreliable because the Army
continues to lack the documentation needed to support the historical acquisition costs of its assets. The Army has not
completely established and implemented a methodology to baseline acquisition costs for all property, plant, and equipment.
The Army Working Capital Fund activities sometimes recorded the acquisition data and cost incorrectly or received incorrect
information from the feeder systems. During FY 2009, the Army took steps to implement the $20,000 capitalization
threshold for real property. Beginning in FY 2011, the DOD Financial Management Regulation, volume 4, chapter 6, annex
4, requires that the DOD entity funding the acquisition of real property assets record the acquisition value and associated
depreciation on its financial statements. Entities that use these assets must recognize their share of the asset use by either
reimbursing the entity who recorded the asset on its financial statements or by recording the imputed financing and imputed
costs incurred. The Army needs to take action to identify how it will implement this change in accounting procedure during
the next fiscal year.


DOD Inspector General Report No. D 2009 084, “Controls over Army Working Capital Fund Real Property,” May 29, 2009,
determined that the $10 million reported as leasehold improvements on the FY 2009 financial statements was erroneous. The
value recorded simply represents the original acquisition costs and depreciation of 96 Navy buildings and other structures at
Corpus Christi Army Depot primarily used by the Army Working Capital Fund activity. The Army was required to report
these assets used by the Army Working Capital Fund under the DOD preponderance of use policy. Under the DOD policy,
the Army should report these assets as buildings and other structures in Note 10 until the Army becomes compliant with the
new DOD Financial Management Regulation requirements in FY 2011.


As a result of our audit, the Assistant Chief of Staff for Installation Management directed that Army Working Capital Fund
activities conduct a 100-percent inventory of real property and establish auditable documentation using the methodology
established in the Real Property Audit Readiness Handbook. As of September 30, 2009, the Office of Assistant Chief of
Staff for Installation Management reported that it had completed 14 of 26 asset existence validation assistance visits at Army
Working Capital Fund activities. In addition that office had completed file assembly assistance visits at 2 of 26 Army Working
Capital Fund activities to develop supportable costs for each asset inventoried. The Army plans to have its real property
validations completed in the first quarter of FY 2013. However, the reported value of General Property, Plant, and Equipment
may continue to be unreliable until the Army fully implements the requirements of DOD Financial Management Regulation,
volume 4, chapter 6, annex 4.


Intragovernmental Eliminations
DOD is unable to collect, exchange, and reconcile buyer and seller intragovernmental transactions, resulting in adjustments
that are not verifiable. DOD and Army Working Capital Fund systems do not capture the trading partner financial data at
the transaction level needed to facilitate reconciling and eliminating intragovementral transactions. DOD procedures require
that the Army adjust its buyer-side transaction data to agree with seller-side transaction data from other Government entities
without the entities performing proper reconciliations. As a result, DFAS Indianapolis made $12.9 billion in adjustments to
Army Working Capital Fund accounts to force the accounts to agree with the corresponding records of intragovernmental
trading partners.


Other Accounting Entries
DFAS Indianapolis and Columbus did not adequately support $10.8 billion in journal vouchers used to prepare the Army
Working Capital Fund financial statements. DFAS Indianapolis and Columbus made unsupported adjustments to force
amounts to agree with other sources of information and records used in preparing the FY 2009 Army Working Capital
Fund Financial Statements. In addition, DFAS Indianapolis and Columbus did not always follow the established minimum
requirements to document the analytical process used to develop the journal vouchers and support adjusting accounting
entries made to the general ledger accounts. The resulting unsupported accounting adjustments presented a material
uncertainty regarding the line item balances on the FY 2009 Army Working Capital Fund Financial Statements.


The conversion to the Logistics Modernization Program system has required the creation of the 9000 series of general ledger
accounts to temporarily store proprietary values of $73.8 billion for many of the line items reported in the Balance Sheet. The


124 Fiscal Year 2009 United States Army Annual Financial Statement
Treasury Financial Manual states that the 9000 series of accounts are available for agencies to record and maintain agency-
specific statistical and/or memorandum data. The Army has not adequately disclosed its use of these accounts to populate the
Army Working Capital Fund Balance Sheet and other statements.


Abnormal Account Balances
In FY 2009, the Army Working Capital Fund Industrial Operations and Supply Management activities (limit-level) reported
61 abnormal account balances, valued at $2.6 billion. Twenty-six of the 61 abnormal account balances, valued at $1.2 billion,
were reported by activities using the Logistics Modernization Program system. Fourteen of the 16 installations, where the
Army has fielded the Logistics Modernization Program system, reported at least one abnormal account balance for FY 2009.
The Army and DFAS Indianapolis used the 61 abnormal balances to compute the amounts reported on the Balance Sheet for
such items as Accounts Receivable, Inventory, Accounts Payable, Other Assets, and Other Liabilities.


Statement of Net Cost
The Army does not present the Army Working Capital Fund’s Statement of Net Cost by responsibility segments as required
by OMB Circular No. A-136, “Financial Reporting Requirements,” June 10, 2009. Accounting systems did not accurately
capture costs for Army Working Capital Fund programs or properly account for intragovernmental transactions and related
eliminations. In addition, the Army used budgetary obligations, collections, and disbursement data to present some of the
information reported on the Army Working Capital Fund’s Statement of Net Cost.


Accounts Payable
DFAS Indianapolis adjusted Accounts Payable balances to derive the reported balances. It adjusted Accounts Payable with the
Public downward by $142.6 million for undistributed disbursements. Also, the Army Working Capital Fund systems cannot
reconcile Accounts Payable with corresponding Intragovernmental Accounts Receivable that generated the payables. As a
result, DFAS Indianapolis made $502.2 million in unsupported adjustments to decrease Intragovernmental Accounts Payable
to force the amounts to agree with Army Working Capital Fund trading partners. In addition, the Supply Management, Army
Activity does not establish accounts payable in accordance with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”
which requires the Army to establish an Account Payable when it accepts title to goods or services.


Reconciliation of Net Cost of Operations to Budget
SSFAS No. 7, “Revenues and Other Financing Sources,” requires a reconciliation of proprietary and budgetary information
to assist users in understanding the relationship of the data. The Army could not reconcile the Army Working Capital Fund
Note 21 with the Army Working Capital Fund’s Statement of Net Cost without preparing $928 million in unsupported
adjustments to the general ledger accounts to force costs to match obligation information.


Material Weakness Identified During FY 2009

Because of our review during FY 2009, we now consider the previously reported significant deficiency regarding the Statement
of Budgetary Resources to be material. OMB Circular No. A 136 states that the entity should develop the Statement of
Budgetary Resources predominantly from the general ledger accounts, not from budget execution data. The Army did not use
data received from Army Working Capital Fund budgetary general ledger accounts reported by the Logistics Modernization
Program system to populate the Statement of Budgetary Resources. Instead, DFAS Indianapolis continues to use budget
execution data contained in status reports.


Correcting the weakness relies on the implementation and use of the correct budgetary general ledger account within the
Logistics Modernization Program system. For example, the Logistics Modernization Program system does not currently have
the ability to track the transaction-level information for five budgetary accounts related to contract authority. In addition,
DFAS Indianapolis made $328.1 million in adjustments to the budgetary accounts because none of the accounting systems
correctly recorded the budgetary transactions related to Advances and Prepayments.




                                          Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   125
Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited
our work to determine compliance with selected provisions of the applicable laws and regulations because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continued to exist. Therefore,
we did not determine whether the Army Working Capital Fund was in compliance with selected provisions of all applicable
laws and regulations related to financial reporting. Our objective was not to, and we do not, express an opinion on overall
compliance with applicable laws and regulations.



Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 requires DOD to establish and maintain financial management
systems that comply substantially with Federal financial management systems requirements, applicable Federal accounting
standards, and the U.S. Government Standard General Ledger at the transaction level. For FY 2009, the Army did not
fully comply with Federal Financial Management Improvement Act of 1996. The Army acknowledged that many of its
critical financial management and feeder systems did not substantially comply with Federal financial management systems
requirements, Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level as of
September 30, 2009.



Antideficiency Act

Section 1341, title 31, United States Code (31 U.S.C. § 1341) limits the Army and its agents to making or authorizing only
expenditures or obligations that do not exceed the available appropriations or funds. Additionally, the Army or its agents may
not contract or obligate for the payment of money before an appropriation is made available for that contract or obligation
unless otherwise authorized by law. According to 31 U.S.C. § 1351, if an officer or employee of an executive agency violates
the Antideficiency Act (ADA), the head of the agency must report immediately to the President and Congress all relevant facts
and a statement of actions taken. DOD internal guidance limits the time from identification to reporting of ADA violations
to 12 months. During FY 2009, the Army reported one case of a potential violation of the ADA within the Army Working
Capital Fund. The Blue Grass Army Depot had reported the potential ADA violation promptly to Army management. The
Army has conducted a preliminary review, and the Deputy Assistant Secretary of the Army (Financial Operations) has initiated
a formal investigation as of June 4, 2009, which was ongoing during our audit. Therefore, we cannot yet determine whether
the Army has complied with 31 U.S.C. § 1341 and 31 U.S.C. § 1351 until the investigation is completed.



Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on March 19, 2009, that the Army
financial management and feeder systems could not provide adequate evidence supporting various material amounts on
the financial statements, and previously identified material weaknesses continued to exist. Therefore, we did not perform
detailed testing related to previously identified material weaknesses. In addition, we did not perform audit work related to
the following selected provisions of laws and regulations: Federal Credit Reform Act of 1990, Government Performance and
Results Act, Pay and Allowance System for Civilian Employees, Prompt Payment Act, Improper Payment Act, and Provisions
Governing Claims of the United States Government (including provisions of the Debt Collection Improvement Act of 1996).


This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance with laws and regulations because previous audit reports contained recommendations for corrective actions or
because audit projects currently in progress will include appropriate recommendations.




126 Fiscal Year 2009 United States Army Annual Financial Statement
Army Working Capital Fund | Principal Financial Statements, Notes and Auditor’s Report   127
                                            The Soldier’s Creed
                                                  I am an American Soldier.
                                           I am a Warrior and a member of a team.
                              I serve the people of the United States and live the Army Values.

                                              I will always place the mission first.
                                                     I will never accept defeat.
                                                            I will never quit.
                                               I will never leave a fallen comrade.

                                       I am disciplined, physically and mentally tough,
                                          trained and proficient in my warrior tasks
                                            and drills. I always maintain my arms,
                                                 my equipment and myself.

                                            I am an expert and I am a professional.

                                             I stand ready to deploy, engage, and
                                           destroy the enemies of the United States
                                                  of America in close combat.

                                              I am a guardian of freedom and the
                                                     American way of life.

                                                   I am an American Soldier.




                       United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil


128 Fiscal Year 2009 United States Army Annual Financial Statement
